<html>
<title> - VIEWPOINTS ON HOMELAND SECURITY: PART I AND II</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                   VIEWPOINTS ON HOMELAND SECURITY: 
                             PART I AND II

=======================================================================



                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                    APRIL 21, 2010 and MAY 19, 2010

                               __________

                           Serial No. 111-63

                               __________

       Printed for the use of the Committee on Homeland Security

                                     

[GRAPHIC] [TIFF OMITTED] CONGRESS.#13




  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
62-540                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY
                             April 21, 2010

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
William L. Owens, New York
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Dina Titus, Nevada
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director
                     COMMITTEE ON HOMELAND SECURITY
                              May 19, 2010

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Bill Pascrell, Jr., New Jersey       Steve Austria, Ohio
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Dina Titus, Nevada
William L. Owens, New York
Vacancy
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                       Wednesday, April 21, 2010

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     1
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security..............................................     3
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California:
  Prepared Statement.............................................     5
The Honorable Emanuel Cleaver, a Representative in Congress From 
  the State of Missouri:
  Prepared Statement.............................................     6

                               Witnesses

Mr. Bob Graham, Former Commission Chairman, Commission for the 
  Prevention of Weapons of Mass Destruction Proliferation and 
  Terrorism:
  Oral Statement.................................................     7
  Joint Prepared Statement.......................................    10
Mr. Jim Talent, Former Commission Vice-Chairman, Commission for 
  the Prevention of Weapons of Mass Destruction Proliferation and 
  Terrorism:
  Oral Statement.................................................    16
  Joint Prepared Statement.......................................    10

                             For the Record

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security:
  Department of Homeland Security Jurisdictional Chart...........     4

                                Appendix

Questions From Chairman Bennie G. Thompson of Mississippi for Bob 
  Graham and Jim Talent..........................................    53
Questions From Honorable Christopher P. Carney of Pennsylvania 
  for Bob Graham and Jim Talent..................................    56
Questions From Honorable Yvette D. Clarke of New York for Bob 
  Graham and Jim Talent..........................................    57

                        Wednesday, May 19, 2010
                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................    61
  Prepared Statement.............................................    62
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security..............................................    62
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California:
  Prepared Statement.............................................    64

                               Witnesses

Mr. Lee Hamilton, Former Commission Vice-Chairman, The National 
  Commission on Terrorist Attacks Upon the United States:
  Oral Statement.................................................    65
  Joint Prepared Statement.......................................    70
Mr. Thomas Kean, Former Commission Chairman, The National 
  Commission on Terrorist Attacks Upon the United States:
  Oral Statement.................................................    68
  Joint Prepared Statement.......................................    70

                                Appendix

Question From Ranking Member Peter T. King of New York for Lee 
  Hamilton and Thomas Kean.......................................   105
Questions From Honorable William L. Owens of New York for Lee 
  Hamilton and Thomas Kean.......................................   105
Question From Honorable Gus M. Bilirakis of Florida for Lee 
  Hamilton and Thomas Kean.......................................   105


                   VIEWPOINTS ON HOMELAND SECURITY: 
                                 PART I



                A DISCUSSION WITH THE WMD COMMISSIONERS

                              ----------                              


                       Wednesday, April 21, 2010

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:08 a.m., in Room 
311, Cannon House Office Building, Hon. Bennie G. Thompson 
[Chairman of the committee] presiding.
    Present: Representatives Thompson, Harman, DeFazio, Jackson 
Lee, Cuellar, Clarke, Richardson, Pascrell, Cleaver, Green, 
Himes, Kilroy, Titus, King, Lungren, Rogers, McCaul, Dent, 
Miller, Olson, Cao, and Austria.
    Chairman Thompson [presiding]. The committee will come to 
order. Good morning.
    Today we are privileged to be joined by Senator Bob Graham 
and Senator Jim Talent, the chair and vice-chair of the 
Commission on the Prevention of Weapons of Mass Destruction 
Proliferation and Terrorism. It is disturbing to think that as 
we meet today America's adversaries are seeking weapons of mass 
destruction that could kill large numbers of our citizens and 
inflict great harm to our Nation, but that is reality.
    In 2008, the ``World at Risk'' report, issued by the WMD 
Commission, brought into focus the seriousness of the threat 
and the need to confront it with purpose and speed. As the 
author of H.R. 1, the ``Implementing Recommendations of the 9/
11 Commission Act,'' I am proud to have played a part in 
establishing the Commission.
    Specifically, Title 18 of that comprehensive homeland 
security law authorized the establishment of a bipartisan 
commission to study the threat that the proliferation of 
weapons of mass destruction posed to our country. Notably, the 
law directs the commission to give particular attention to 
Federal efforts to secure nuclear materials around the world 
from terrorists and states of concern.
    In the ``World at Risk'' report the commissioners did not 
mince words about the WMD threat. Specifically, the commission 
stated that it believes that unless the world community acts 
decisively and with great urgency it is more likely than not 
that a WMD will be used in a terrorist attack somewhere in the 
world by the end of 2013. The commission concluded that since a 
biological weapon can more easily be obtained and used by a 
terrorist than a nuclear weapon, the Government needs to move 
more aggressively to limit the proliferation of biological 
weapons and reduce the prospect of bioterror attack.
    In January 2010, Senators Graham and Talent issued a report 
card that assessed the Government's progress toward 
implementing their 13 recommendations. They gave an ``F'' to 
the Federal Government for failure to enhance the Nation's 
capabilities for rapid response to prevent biological attacks 
from inflicting mass casualties. Another ``F'' was for a lack 
of progress on reforming Congressional oversight to better 
address intelligence, homeland security, and crosscutting 21st 
Century National security missions.
    Given your extensive credentials, Senators, your insight on 
what we need to do to fix Congressional oversight are 
particularly welcome. As you know, we are currently working on 
bipartisan legislation to improve domestic capabilities to 
prevent, deter, detect, attribute, respond to, and recover from 
WMD attacks in general, and based on your recommendations, 
biological attacks in particular.
    The gentleman from New Jersey, Mr. Pascrell, together with 
Ranking Member Mr. King are collaborating on this legislation, 
which should be introduced in the next few weeks. I know it is 
a New York and New Jersey thing, but we wish them all success.
    This hearing and the testimony we will receive from 
Senators Graham and Talent are critical to this effort. Again, 
I would like to thank the commissioners for their leadership 
and continued commitment to educating us about the WMD threat.
    I would also like to recognize your staff, led by Randy 
Larsen and Gigi Gronvall, for working closely with the 
committee as we develop counter-WMD legislation.
    Before I yield back I would like to yield 2 minutes to the 
gentleman from New Jersey, Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman.
    I want to thank Senator Graham, Senator Talent, for the 
service that they gave to this Nation when they served on this 
side of the building and on the other side of the Capitol, and 
the service you have rendered this Nation since leaving the 
House. You have done--both of you--a terrific job; I am very, 
very proud of what you have done.
    Mr. Chairman, I want to thank you for yielding time as well 
as your leadership in offering H.R. 1, the ``Implementing 
Recommendations of the 9/11 Commission Act,'' which created the 
WMD Commission whose commissioners are before our committee 
today to talk about what I consider to be a very critical 
issue.
    The 9/11 Commission did a very thorough job of describing 
the circumstances of the attack on September 11 and providing 
recommendation designed to guard against future attacks. 
However, one area they did not address was how to respond to 
the threat of unconventional weapons, including nuclear and 
biological.
    The WMD Commission before us today has issued 13 
recommendations, and in its report card released this January 
gave very mixed grades, to be kind, of the actions we have 
taken to date. But they have made one thing very clear, that 
more than 8.5 years after 9/11 we still do not have a 
comprehensive National strategy to counter the grave threat 
that WMD poses to our Nation.
    This is exactly why I am working with my good friend and 
counterpart, Ranking Member King, to craft bipartisan 
legislation, the ``Weapons of Mass Destruction Prevention and 
Preparedness Act of 2010,'' which we plan to introduce very 
shortly. We have worked closely with the Commission--with the 
Commission staff--in order to write a bill that has a truly 
comprehensive approach, a logical approach to securing the 
Nation against weapons of mass destruction by looking at all 
the angles, from prevention and deterrence, preparedness, 
detection, attribution, response, and finally, to recovery.
    It is especially important to note that our legislation 
concerns all WMD threats, but we will give special focus to the 
emerging threat of biological weapons, and with good reason, in 
which the WMD Commission gave us a very poor grade for failing 
to do enough to prevent a biological attack on our mainland, or 
to be able to respond efficiently and effectively enough in the 
event of a biological attack. The Commission highlighted the 
urgency of this threat when it wrote that ``terrorists are more 
likely to be able to obtain and use a biological weapon than a 
nuclear weapon.''
    Mr. Chairman, I look forward to hearing the testimony from 
the commissioners, Senator Graham, Senator Talent, on the 
threat we face as well as the preliminary thoughts about this 
legislation, and I yield back and I thank you for yielding to 
me.
    Chairman Thompson. Thank you very much.
    The Chairman appreciates the Ranking Member's agreement to 
recognize the gentleman from New Jersey. Now----
    Mr. King. I was not given a chance to object.
    [Laughter.]
    Chairman Thompson. The Chairman now recognizes the Ranking 
Member of the committee, gentleman from New York, Mr. King, for 
an opening statement.
    Mr. King. Thank you, Mr. Chairman.
    Let me again thank Senator Graham and Senator Talent for 
all their service to the Nation, especially on this vital, 
vital issue, and it is great to see Jim Talent here. We got 
elected in the same year. Jim has gone on and made something of 
himself, and I am sitting here with Bill Pascrell, but what are 
you going to do?
    Seriously, Jim, I want to thank you for all your efforts.
    Mr. Chairman, this is a vitally important issue. This is an 
issue which, as you and Chairman Talent and Chairman Graham and 
Congressman Pascrell pointed out, is an issue which is vital to 
the security of our Nation but in many ways nowhere near enough 
has been done since September 11.
    I appreciate the hearing today. I will just for the record 
point out that we have been asking for this hearing since last 
September and I think the fact that we are having it today, 
that Bill Pascrell is going forward in his legislation--and I 
am proud to work with him on it--shows a bipartisan commitment 
on this issue.
    Obviously the administration is--has been given charges as 
to what they should do, but also there is an obligation on 
Congress. If I may, there is a chart we prepared showing how 
Congress is still--there is such a disunity in the Congress. 
Let me just show the display. You know, in the--Commissioners, 
in your report and also in the 9/11 Commission report it was 
pointed out how oversight just is spread out so much among 
Congress.
    Just the other day I received a letter from Secretary 
Napolitano saying that the Department of Homeland Security has 
to report to 108 different committees and subcommittees; they 
have testified at 166 different hearings. To me, this, again, 
this lack of cohesion really reflects poorly on the Congress 
and prevents us from getting our job done.
    So I think no matter what happens in November, Mr. 
Chairman, I think we have to recommit ourselves to making sure 
that we work to consolidate jurisdiction within this committee 
and certainly to narrow the jurisdiction, because now it is 
just all over the place and really almost makes no sense at 
all.
    There is the chart there. It just gives some example of how 
bifurcated this is and how, again, what a puzzle palace we have 
become.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. King. Now, I would just, from my own perspective in the 
New York-New Jersey area, we have particular threats when it 
comes to weapons of mass destruction. Obviously radiation, 
dirty bombs, nuclear bombs are a real threat to our subway 
system, to the cities, whether it is New York, or Patterson, 
Newark, any of them in that area are prime targets.
    Also, the whole issue of biological warfare is something 
which we have to do much more about. Certainly Bill Pascrell 
and I, that is a main element of what we are trying to do. 
Congresswoman Clarke and I are working as far as the 
radiological attacks.
    But I would hope that this hearing--it is really the first 
we have had in the Congress, certainly in the House side, on 
this issue--will give us the impetus to go forward. I don't 
know how many markups we are going to have between now and the 
end of the session, or before the summer, but, Mr. Chairman, I 
would hope that we can, once Bill Pascrell and I--once the 
legislation is ready that we can move on it quickly in this 
committee and try to then start it, because it will probably 
have to go to a number of other committees, as to get this 
process on the way.
    Hopefully we can get legislation passed; at the very least 
we will send a strong signal to the administration, send a 
strong signal to the entire Federal bureaucracy, and also start 
a real debate in the Congress. The debate was started at the 
National level by Senator Talent and Senator Graham, but I 
don't think we in the Congress have taken this seriously 
enough.
    It is not the issue that is debated that often; it is not 
the issue that is in the forefront. With everything else we 
talk about, whether it is health care, whether it is taxes, 
whether it is jobs, whatever, all of that will be forgotten 
overnight if there is a biological attack anywhere in our 
country. The impact it will have on our economy, the impact it 
will have on the lives of everyday people, the devastation it 
will cause will be unprecedented.
    So thank you, Mr. Chairman, for holding this hearing. I 
think the spirit on both sides sort of working toward a 
bipartisan solution, bipartisan answers, but we can't just 
debate it forever, we can't just talk about each other in a 
nice way, we have to get the job done.
    We can't allow details to stand in the way. If there are 
one or two disagreements that I have or Bill Pascrell has, the 
Chairman has, let's resolve them. Let's not try to stand on 
ceremony.
    I am not saying any of you are, I am just saying all of us 
in Congress have a tendency to rely on one or two things we 
don't agree with and use that as an excuse not to go forward. 
We have to go forward on this, otherwise the work that is done 
by Senator Graham and Senator Talent will not be taken 
advantage of and we will have squandered and missed an 
opportunity which could have very dire and tragic consequences.
    With that I yield back the balance of my time.
    Chairman Thompson. Thank you very much. The Chairman, for 
the Ranking Member's information, plans to move forward after 
this hearing and subject to you and Mr. Pascrell finally 
agreeing on something--we will go forward.
    Other Members of the subcommittee and committee are 
reminded that under committee rules opening statements may be 
submitted for the record.
    [The statements of Hon. Richardson and Hon Cleaver follow:]
            Prepared Statement of Honorable Laura Richardson
                             April 21, 2010
    Mr. Chairman, thank you for convening this hearing today on the 
findings and recommendations of the Commission on the Prevention of 
Weapons of Mass Destruction (WMD) Proliferation and Terrorism. I 
appreciate your commitment to this issue, and I would also like to 
recognize our distinguished witnesses, Senator Graham and Senator 
Talent, for their services to our country. Thank you both for taking 
the time to appear before the committee today.
    As a proud representative of the 37th district of California, I am 
especially concerned about this topic. My district is home to many 
high-value terrorist targets: the Port of Long Beach, two airports, 
major freight rail lines, and 40 percent of the Nation's goods moving 
along our rails and four major interstate highways. Each of these 
represents a prime opportunity for a nuclear or biological attack, and 
as these gentlemen can tell us, the threat is very real.
    The Commission has concluded, as is highlighted in the testimony 
today, that it is more than likely that a weapon of mass destruction 
(WMD) will be used in a terrorist attack somewhere in the world by the 
end of 2013, a date that is rapidly approaching. In addition, the 
Commission found that the U.S. Government needs to move more 
aggressively to limit the proliferation of biological weapons to reduce 
the prospect of a bio-terror attack. However, the report card released 
by the Commission in January 2010 makes it clear that the Government is 
not moving fast enough to mitigate this risk of attack.
    For example, the Commission graded the work done to ``enhance the 
Nation's capabilities for rapid response to prevent biological attacks 
from inflicting mass casualties'' with an ``F.'' As Chairwoman of the 
Subcommittee on Emergency Communications, Preparedness, and Response, I 
anticipate working with my colleagues to address some of this 
shortfall. I also look forward to reviewing the bill about to be 
introduced by my distinguished colleagues to enhance homeland security 
by improving efforts to counter a WMD attack from every stage of the 
threat, from the pre-event prevention and deterrence through post-event 
recovery.
    I am pleased that this hearing is providing a chance for committee 
members to delve into the issues facing our Government and homeland 
security with regard to WMD. Clearly, the Federal Government still has 
work to do in terms of preparation and coordination. I look forward to 
sharing this information with the stakeholders in my district, as well 
as hearing from our distinguished panel of witnesses on this subject 
with regard to public outreach, possible legislative ideas, and foreign 
policy.
    Thank you again, Mr. Chairman, for convening this hearing. I yield 
back my time.
                                 ______
                                 
            Prepared Statement of Honorable Emanuel Cleaver
                             April 21, 2010
    Chairman Thompson, Ranking Member King, it has been 3 years since 
the bipartisan Commission on the Prevention of Weapons of Mass 
Destruction Proliferation and Terrorism was authorized. In this time, 
the Commission has issued both a report, as well as a report card on 
the country's progress in working to limit the threat of biological and 
nuclear weapons. While much has been done, we are still a long way away 
from having a strong system of deterrence, prevention, and recovery 
from WMDs.
    The report issued by the Commission has boldly asserted that ``it 
is more than likely than not that a WMD will be used in a terrorist 
attack somewhere in the world by the end of 2013.'' With this very real 
threat looming over our heads, it is extremely troubling that the 
Commission has found that the country has failed to properly address 
certain recommendations. For instance, the Commission gave the country 
a failing grade when it came to working to ``enhance capabilities for a 
rapid response to prevent biological attacks from inflicting mass 
casualties.''
    Given the uncertain times that we live in, we must do all within 
our power to eliminate the threat of biological and nuclear weapons. To 
that end, I am eager for the chance to speak with our witnesses today 
and gauge their views on the new legislation that will soon be 
introduced by my colleagues on the committee. From increasing 
intelligence capabilities, to risk analysis and protection biological 
agents, this bill aims to put many of the Commission's recommendations 
into law. Our witnesses have a vast wealth of experience in working to 
deter WMD threats, and their additional recommendations are essential 
in our progress forward.

    Chairman Thompson. I welcome our distinguished witnesses, 
Senator Bob Graham, who obviously had to come a long way to get 
here--we really appreciate it, Senator Graham--and Senator 
Talent, the chair and vice-chair of the Congressionally-created 
Commission on the Prevention of Weapons of Mass Destruction 
Proliferation and Terrorism.
    Senator Graham is a former two-term Governor of Florida and 
served for 18 years in the United States Senate. This is 
combined with 12 years in the Florida legislature for a total 
of 38 years of public service. He is recognized for his 
leadership on issues ranging from health care to intelligence.
    He served a decade on the Senate Select Committee on 
Intelligence, including 18 months as Chair in 2001 and 2002. In 
addition to his responsibilities associated with WMD Commission 
work Senator Graham serves as the chair of the board of 
overseers of the Graham Center for Public Service.
    Thank you, Senator Graham, for being here today and for 
your service to the country.
    Senator Jim Talent was elected to the Missouri House of 
Representatives in 1984 at the age of 28, where he served 8 
years. At the age of 32 he was unanimously chosen as Minority 
Leader. He served in that capacity until 1992, when he was 
elected to Congress to represent Missouri's second district.
    Senator Talent served in the U.S. House of Representatives 
from 1993 to 2001. During his time in the House Senator Talent 
distinguished himself as a thoughtful leader on the House Armed 
Services Committee where he served for 8 years.
    From 2002 to 2007 he represented the people of Missouri in 
the United States Senate. While in the Senate, he distinguished 
himself as a leader on a number of major committees, including 
the Senate Armed Services Committee, where he served as 
Chairman of the Seapower Subcommittee. Today, in addition to 
his on-going WMD Commission work, Senator Talent serves as a 
distinguished follow at the Heritage Foundation.
    Thank you, Senator Talent, for being here today and for 
your service to our country.
    Without objection, the witnesses' full statement will be 
inserted in the record.
    Senators, the floor is yours.
    Can you turn your mic on for us?

   STATEMENT OF HON. BOB GRAHAM, FORMER COMMISSION CHAIRMAN, 
 COMMISSION FOR THE PREVENTION OF WEAPONS OF MASS DESTRUCTION 
                  PROLIFERATION AND TERRORISM

    Comm. Graham. Thank you very much, Mr. Chairman, and we are 
deeply appreciative of your and Congressman King holding this 
hearing as a critical part of the steps necessary to move us 
towards a safer America. It has been an honor to have served 
for the last 2-plus years with my good friend, Senator Jim 
Talent.
    I would say if there is an example of bipartisanship on an 
important issue it is what we have tried to exhibit, and I am 
pleased on our final report in a commission that was composed 
of Republicans and Democrats was unanimous report reflecting a 
unity of view as to the seriousness of the threat and the steps 
that should be taken to reduce it.
    Mr. Chairman, as you said, in December 2008 our commission 
issued its report, called ``World at Risk.'' The word ``world'' 
was selected to recognize the fact that this is not a problem 
that any one country can deal with alone, that it is truly a 
global threat requiring a global response. I will talk about 
that a little bit later.
    Then, in January of this year we issued our first report 
card on what has transpired in the year that passed since the 
report. It was a mixed report card. The most negative aspects 
related to the topic that Senator Talent and I will 
particularly focus on this morning, and that is the potential 
of a biological attack.
    As the Chairman said, it is our conclusion that it is more 
likely than not that there will be, under current 
circumstances, a weapon of mass destruction used someplace on 
earth by a terrorist group before the end of the year 2013 and 
that it is more likely that that weapon will be biological 
rather than nuclear. So that has been the particular focus of 
our post-report activities.
    My comments today are going to focus on the issue of 
urgency. We have used the term in the commission report and in 
our subsequent statements that the clock is ticking. I am going 
to suggest this morning that we need to come up with a new 
metaphor. The impetus for change has got to be stronger than an 
analog clock slowly moving around the dial. We are dealing with 
a digital clock where the numbers are now spinning.
    It has been over 500 days since ``World at Risk'' was 
issued. There has been some response by the administration and 
we saw some of that recently in the nuclear summit. But this is 
going to require action at both ends of Pennsylvania Avenue, 
and I am pleased that today this hearing is taking place, and I 
hope that it will jumpstart aggressive Congressional response 
to this issue.
    There are four areas in which I think urgency is the word 
of the day and the spinning digital clock. First, we must 
construct an effective response to a biological attack. Unlike 
a nuclear attack where there is very little you can do in the 
aftermath, it is what you can do in the aftermath of a 
biological that may both serve as a deterrent and a sufficient 
reduction of the consequences to take it out of the category of 
mass destruction.
    We say it is a deterrent based on analysis done by our 
intelligence community as well as foreign intelligence services 
that the likely possessor of a biological weapon will have to 
make a choice where to use that weapon. That choice is likely 
to be determined by where it thinks it can do the most damage, 
have the highest kill rate.
    So if your community is relatively well prepared you will 
be less likely to be the target of attack in the first place; 
if you appear to be highly vulnerable and a source of high loss 
of life you become an attractive target. So the degree to which 
you are prepared to respond is a key element in whether you 
will be attacked.
    If you are attacked your ability to respond can reduce the 
death toll. It would be horrendous if 1,000 people were killed, 
but it would be an international disaster if 500,000 people 
were killed, which is within the range of estimates of what 
would happen with a biological attack in a major American city.
    So we have a strong interest in being as prepared as 
possible. Frankly, in our report of January we gave the 
Nation--not just the Federal Government, but the Nation--an 
``F'' in our level of preparedness to respond. This is my first 
call for urgency, that this committee has the responsibility to 
start an aggressive series of actions that will lead us to a 
grade--to deserve a grade substantially better than an ``F'' in 
our capacity to respond.
    The second area of urgency is showing leadership to the 
world. One of our recommendations is that the United States, 
because of this global nature of biological attack, needs to be 
a leader in bringing other nations to a high level of response 
and security of things like Schedule 1 biological agents. That 
next world conference is going to take place in 2011.
    We think it is important for the United States to have 
taken affirmative action before that conference so we will be 
able to show to the world that we are committed and therefore 
that they can follow our gold standard of what should be done. 
If we have not taken any action by that conference I think our 
position to influence other nations will be substantially 
diluted.
    The third area of urgency--the Chairman alluded to the fact 
that I have had some travel difficulties. I have been in the 
Middle East and Asia much of the last month. I think the two 
most dangerous areas in the world where there is the greatest 
potential of a transfer from a nation state to a terrorist 
group of a weapon of mass destruction are the Indian-Pakistan 
border and that arc that runs from Iran through Syria to Israel 
and into Palestine. Those, in my opinion, are the two places in 
the world that are the most likely to be the first point of 
attack.
    Both of those are driven by longstanding enmities that go 
back to just after World War II--Kashmir, in the case of India 
and Pakistan; the dispute between Israel and the Palestinians 
in the Middle East. These issues, which we have allowed to 
linger now for 6 decades, are a major threat to the security of 
the entire world and need to get strongest attention from the 
United States and the international community for their 
resolution.
    There has been no substantial progress on either of those 
fronts since 1979, 31 years ago, when the Camp David Accord was 
entered into between Egypt and Israel. That is the last major 
successful effort to deal with those animosities.
    Finally, the sense of urgency over the issue that the 
Chairman and the Ranking Member have discussed, and that is 
this issue of the Congress itself. Congress is not well 
organized--and that is a very passive and understatement--to do 
what it needs to do on these issues. This has been recognized 
now for almost a decade, before 9/11.
    Commissions who were looking at issues of National security 
came to the conclusion that the Congress was not properly 
organized. The 9/11 Commission said it again. We said it in our 
``World at Risk'' document. I would urge that the Nation can be 
a safer place if this body would take the steps to place 
accountability and responsibility for these issues clearly in 
one jurisdiction so that the Nation will know where to look to 
for leadership.
    Mr. Chairman, Mr. Ranking Member, I, again, appreciate the 
opportunity to be here. My colleague, Senator Talent, is going 
to focus on some of the more specific aspects of our report, 
and we would both then look forward to receiving your 
questions.
    I would like to also introduce at this time Dr. Gigi 
Gronvall, who has been a major part of the development of our 
efforts over the last year. Thank you very much.
    [The joint statement of Mr. Graham and Mr. Talent follows:]
         Joint Prepared Statement of Bob Graham and Jim Talent
                             April 21, 2010
    Mr. Chairman and distinguished Members, thank you for the 
opportunity to speak to you today on behalf of the Commission on the 
Prevention of Weapons of Mass Destruction Proliferation and Terrorism. 
Congress created our Commission early in 2008, based on the 
recommendation of the 9/11 Commission, assigning us the task of 
assessing the risk of WMD terrorism and recommending steps that could 
be taken to prevent a successful attack on the United States. Our 
Commission interviewed hundreds of experts and reviewed thousands of 
pages of information. We want to thank those Commissioners--Graham 
Allison, Robin Cleveland, Stephen Rademaker, Timothy Roemer, Wendy 
Sherman, Henry Sokolski, and Rich Verma--who worked tirelessly to 
produce our Report, World at Risk, in December, 2008.
    In 2009, the Commission was authorized for an additional year of 
work, to assist Congress and the administration to improve 
understanding of its findings and turn its concrete recommendations 
into actions. In accordance with that authorization, and based upon 
close consultation with Commissioners, we submitted a report card 
assessing the U.S. Government's progress in protecting the United 
States from weapons of mass destruction proliferation and terrorism. 
This report card provided an assessment of the progress that the U.S. 
Government has made in implementing the recommendations of the 
Commission.
    While progress had been made in many areas, the overall assessment 
for biological threats was not good. We submit a copy of that report 
card for the record. While certainly not every assessment was poor, we 
found that the Government simply had not paid consistent and urgent 
attention to the means of responding quickly and effectively so that 
bioweapons no longer constitute a threat of mass destruction. The 
failures did not begin with the current group of leaders. Each of the 
last three administrations has been slow to recognize and respond to 
the biothreat. The difference is that the danger has grown to the point 
that we no longer have the luxury of a slow learning curve. The clock 
is ticking, and time is running out.
    The Commission has concluded its work as a Congressionally mandated 
organization, as of February 26, 2010. We are committed to continuing 
this bipartisan work, however, and will continue to monitor progress on 
the Commission's recommendations in our newly formed WMD Center, a 
bipartisan, not-for-profit research and education organization. It is 
our hope that by identifying areas of progress, as well as those in 
need of further attention, appropriate action will be taken to mitigate 
the threat posed by weapons of mass destruction to the United States.
                       the commission's findings
    The Commission's Report assessed both nuclear and biological 
threats, and provided 13 recommendations and 49 action items. The 
Commissioners unanimously concluded that unless we act urgently and 
decisively, it was more likely than not that terrorists would attack a 
major city somewhere in the world with a weapon of mass destruction by 
2013. Furthermore, we determined that terrorists are more likely to 
obtain and use a biological weapon than a nuclear weapon. Shortly 
thereafter, this conclusion was publicly affirmed by then Director of 
National Intelligence (DNI) Mike McConnell.
    There are several reasons for our conclusion that a bioattack is 
actually more likely than a nuclear attack. Many pathogens suitable for 
use in a biological attack are found in the natural environment, all 
over the globe. The lethality of an effectively dispersed biological 
weapon could rival or exceed that of an improvised nuclear device. The 
equipment required to produce a large quantity from a small seed stock, 
and then ``weaponize'' the material--that is, to make it into a form 
that could be effectively dispersed--is of a dual-use nature and 
readily available on the internet. The most effective delivery methods 
are well known in the pharmaceutical, agricultural, and insect-control 
industries. It is much more straightforward to stockpile weaponized 
pathogens than nuclear material, raising the terrible specter that 
terrorists could attack an American city using a bioweapon, then 
quickly ``reload'' and attack again within a matter of days or weeks.
    So, while it is certainly possible for terrorist groups to get a 
nuclear weapon, it is less difficult for them to develop and disperse a 
bio-weapon. There may be even fewer barriers for terrorist groups with 
close ties to those nation states which are accumulating both the 
materials and scientific capability for weaponization. All of the 
ingredients are in place for a biological weapon to be in the hands of 
a terrorist organization, which is subject to none of the international 
law constraints and retaliatory consequences which might impede a 
nation state from its use.
    None of this is speculation. Al-Qaeda was well down the road to 
producing such weapons prior to 9/11. Due to the ease in creating a 
clandestine production capability, our intelligence community had no 
knowledge of two such facilities in Afghanistan prior to their capture 
by U.S. troops and a separate, but parallel bioweapons development 
program al-Qaeda ran in Malaysia. Facilities with more sophisticated 
equipment than those found could be in operation today without our 
knowledge.
    When would we find out about such a facility? It is possible, even 
likely, that we would not know until after an attack took place. 
Consider this scenario: A team of engineers sympathetic to al-Qaeda 
bring a seed culture of anthrax spores to the United States from an 
overseas laboratory. They purchase and modify a truck so that it sprays 
anthrax spores into the air. The load up the truck with its deadly 
cargo, and slowly drive it through the downtown traffic of a mid-sized 
city during rush hour, at the end of the day. No one notices the truck, 
or finds it at all unusual that the truck is emitting fumes. No 
BioWatch sensors go off. Days later, however, desperately ill people 
start flooding emergency rooms. In the following weeks, 13,000 people 
die. The city may need to be cleaned up so that people can safely enter 
the downtown area, at a cost of billions of dollars. As tragic as this 
event could be, the terrorists remain at large, free to commit the same 
murder twice. Antibiotics would likely arrive quickly, but there would 
be National demands for a vaccine--but there is not nearly enough 
anthrax vaccine to satisfy the demands from even one small city. 
Unfortunately, this scenario is not considered ``worst-case'' or 
unrealistic, but it is in fact the National Planning Scenario for a 
biological attack. It was released 5 years ago this month. Five years--
the clock is ticking, and we are not prepared.
    The Obama administration appears to agree with our concern 
regarding the threat of 21st century bioterrorism. The following is a 
quote from National Strategy for Countering Biological Threats signed 
by President Obama on November 23, 2009.

``The effective dissemination of a lethal biological agent within an 
unprotected population could place at risk the lives of hundreds of 
thousands of people. The unmitigated consequences of such an event 
could overwhelm our public health capabilities, potentially causing an 
untold number of deaths. The economic cost could exceed one trillion 
dollars for each such incident. In addition, there could be significant 
societal and political consequences that would derive from the 
incident's direct impact on our way of life and the public's trust in 
government.''
  weapons of mass destruction prevention and preparedness act of 2010
    First, Mr. Chairman, we want to thank you and your committee for 
the extraordinary leadership you have shown by holding this hearing 
about the WMD Prevention and Preparedness Act of 2010. We realize that 
the WMD issue spreads across many committee jurisdictions and will 
required unprecedented leadership, coordination, and cooperation. The 
biggest internal enemy we face in dealing with this threat is the 
natural inertia of Government. The only way to overcome this inertia is 
for our top political leaders to take bold actions.
    As of the time we prepared this statement, we had not seen actual 
bill language, but we appreciate the summary of the bill provided by 
your staff, and are happy to provide comments based on that summary.
                              intelligence
    As we understand it, the bill, if enacted, would require the DNI, 
in coordination with the Secretary of Homeland Security and other 
appropriate Federal Agencies to develop and maintain a National 
Intelligence Strategy for Countering WMDs. It also calls for improving 
National capabilities to collect, analyze, and disseminate intelligence 
related to WMDs. We understand the DNI is already working on the 2010 
National Intelligence Strategy for Countering Biological Threats.
    Based on a recently completed tour of nations in two of the most 
vulnerable regions, there are significant gaps in our intelligence 
relating the nation state-terrorist links. Recognizing the inherent 
difficulty of collecting intelligence in these venues, doing so should 
be the highest priority of American intelligence.
    We commend these provisions. Increased attention in this area is of 
vital importance and, we understand, would underscore the DNI's own 
initiatives. We hope that the drive to produce this report would spur 
the intelligence community to acquire and retain additional expertise 
in the nuclear and biological fields; prioritize pre-service and in-
service training and retention of people with critical scientific, 
language, and foreign area skills; and ensure that the threat posed by 
biological weapons remains among the highest National intelligence 
priorities for collection and analysis. Indeed, recommendation 11 in 
our report, World at Risk, was that the United States must build a 
National security workforce for the 21st century.
    One important issued not addressed in the intelligence section is 
the problem of not including public health personnel in many of the 
fusion centers. Only a handful of these centers currently include 
public health officials. We all need to understand, in the 21st 
century, public health is a critical element of National and homeland 
security. Public health resources need to be fully integrated with law 
enforcement and traditional first responders.
    We also recommend that the bill include a provision directing the 
Secretary of Defense to provide a classified report to the committees 
with primary oversight of the Department of Defense, intelligence 
community, and Department of Homeland Security on the efficacy of the 
biological weapons tests conducted by the United States during the 
1950s and 1960s. Some commentators assert that bioweapons are not of 
concern, primarily because they have not been used on a widespread 
basis. We are entirely confident that the report we call for, if 
properly done, would dispel any doubts about the threat that bioweapons 
pose to the safety and security of our society and our allies.
 preparedness: getting first responders ready, and engaging the public
    We strongly believe that a well-informed, organized, and mobilized 
citizenry has long been one of the United States' greatest resources. 
An engaged citizenry is, in fact, the foundation for National 
resilience in the event of a natural disaster or a WMD attack.
    Consistent with the Commission's Report, we must create a culture 
of preparedness and resilience across our Nation. There are vast arrays 
of capabilities found across our society that can and must be organized 
and, when needed, mobilized in the event of a natural disaster or WMD 
attack. These capabilities are primarily the combined assets of State 
and local governments, our diverse business communities, 
nongovernmental organizations, professional and service organizations, 
and all citizens. The Federal Government cannot hope by itself to 
possess the capabilities needed in the event of a major disaster--but 
it can lend vital support if local and regional actors have organized 
beforehand. We submit for the record the WMD Commission's final 
product, a brochure for community preparedness. We All Have A Role: 
Working with Your Community to Prepare for Natural and Man-Made 
Disasters.*
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
    We have found that the Federal Government can do more to make sure 
that State, local, and Tribal governments can respond in a crisis, and 
so we support this legislation's call for sharing security information 
with State, local, and Tribal governments (Title 1, section 111). State 
and local governments, as well as health departments, need more 
comprehensive threat information in order to prepare for emergencies, 
as well as gain support from leadership and staff in preparedness 
activities.
    We support the bill's provisions for the Department of Homeland 
Security to put forward threat bulletins and guidance to local 
governments (Title 2, section 202), and crafting important messages 
ahead of a crisis (Title 204). We recommend that the public be involved 
in the creation and approval of threat information and alerts. This 
will help to ensure that these alerts effectively reach and motivate 
their target audience.
    secure, productive u.s. laboratories at the forefront of science
    Certain principles animated the section of our Report dealing with 
laboratory security. We were concerned about: (1) The proliferation of 
high-containment labs, which were not only unregulated but often 
unknown to the Government, (2) the fragmentation of Government 
oversight among several agencies, (3) the need for a thorough review 
and update of the Select Agent Program, and (4) the importance of 
regulating labs in a way that enhanced security but did not discourage 
robust scientific research in the United States.
    Enhanced biosecurity measures should improve security, streamline 
oversight, and focus our resources on the greatest risks. By correctly 
applying risk management principles, the United States can increase 
security without impeding science or critical U.S. industries. Without 
robust scientific research, we will not have the drugs, vaccines, and 
diagnostic tests needed to protect the American people in the event of 
a biological attack. The work of developing medicines is difficult, 
takes a long time, and is fraught with challenges. We still do not, for 
example, have drugs or vaccines for many of the biological agents 
weaponized by the Soviet Union. Therefore, it is in our National 
security interest to make sure that our laboratories continue to 
develop medical countermeasures, while still operating safely and 
securely.
    We believe that this legislation highlights many of the provisions 
of our Report, and in certain respects improves on our recommendations. 
For example, the bill introduces into the Select Agent Program the idea 
of stratifying risks, which we think is a real advance in achieving the 
right regulatory balance. Stratification of risks into tiers allows for 
more realistic assessments of risk, and will benefit public health 
investigations. The bill calls for the designation of ``Tier I'' agents 
to be the most dangerous subset of the pathogens that have clear 
potential for use as biological weapons. Multiple studies were 
conducted as a result of our Report. Virtually all of them, from both 
the public and private sectors, have called or will call for the 
stratification of agents. The overwhelming recommendation from the 
scientific community is that any legislation employs a tiered approach.
    We therefore commend the committee for introducing the 
stratification approach into this bill and recommend that the Tier I 
list be developed by the Secretary of DHS in consultation with the 
Secretary of HHS. Today, 82 Select Agents receive the highest level of 
security focus and regulation. We believe the correct number of top-
tier agents is closer to 8 than 80.
    Stratifying the Select Agent list should allow us to focus 
increased security on the highest risks and allow public health-related 
research involving non-Tier I agents to proceed without excessive 
regulation. We suggest that care be taken to avoid duplicating the 
unintended negative consequences of the current Select Agent program. 
Security restrictions must not preclude international cooperation, 
which is necessary for public health and infectious disease 
surveillance, as well as our National security. For example, we should 
not repeat what happened at the beginning of the H1N1 pandemic, when 
flu samples from sick patients in Mexico were not shipped to U.S. 
laboratory scientists to analyze, but to Canada--because U.S. import 
and shipping regulations were so restrictive. We also do not want to 
``close our windows,'' so to speak, into the activities of other 
nations' laboratories. Scientists from the United States should be able 
to collaborate on Rift Valley Fever or Venezuelan equine encephalitis 
research with scientists where those diseases are endemic. If we don't, 
other countries' scientists will. For these reasons, the Select Agent 
program status quo needs to be changed, and we recommend calling for 
adjustments to ease restrictions on non-Tier I agents.
    Our recommendation to stratify biological agents for security 
purposes is distinct from the measures that scientists need to take for 
safety. Many pathogens, including those that cause tuberculosis, HIV, 
and herpes B, require special safety precautions, though most experts 
do not consider them to be feasible for use as bioweapons. We encourage 
the further refinement of safety systems and procedures for all types 
of biological research, so that research can be conducted with the 
highest level of safety.
  fragmentation of oversight should be eliminated in pathogen security
    In our Report, we concluded that the fragmentation of Government 
oversight of laboratories was a National security problem. We 
determined that there should be one set of requirements concerning 
pathogens for the scientific community to follow, instead of having 
separate regulatory programs from multiple departments. The authority 
to oversee and enforce these requirements must be vested in one lead 
agency so that the regulated community has a single coherent, 
consolidated, and streamlined set of regulations to follow.
    Currently, under the Select Agent Rule, as defined by 42 CFR 73, 7 
CFR 331 and 9 CFR 121, HHS and the Department of Agriculture (USDA) 
regulate select agents. Human pathogens are regulated by HHS; plant and 
animal pathogens are regulated by USDA, and facilities that house 
pathogens that are a concern for humans and livestock are inspected 
jointly. Accounts of this process suggest that HHS and USDA cooperate 
well in meeting their regulatory responsibilities. Given the distinct 
expertise on these pathogens in USDA and HHS, it is appropriate that 
USDA's expertise be brought to bear on livestock and crops, and that of 
HHS for human pathogens. However, it is our belief that in constructing 
a regulatory system for pathogens that can infect humans, one cabinet 
secretary should be in charge. As Commissioner Robin Cleveland stated 
last December, we ``have too many agencies, too many turf fights, and 
unclear oversight entities.'' That must end.
    We recognize that the bill would require the Secretary of the 
Department of Homeland Security to develop enhanced biosecurity 
measures, and would require them to inspect all Tier I laboratories. In 
our Report, we recommended that HHS ``lead an interagency review.'' 
This recommendation was implemented by Executive Order in January. The 
review called for will soon be completed. The Report also called for 
HHS ``to lead an interagency effort to tighten Government oversight on 
high-containment laboratories.'' Based on what we have learned from 
several recent studies, numerous meetings with representatives from the 
Executive and Legislative branches, and the scientific community, we 
continue to recommend that overall oversight authority and 
responsibility for lab security be assigned to the Secretary of Health 
and Human Services, with recommendations on scientific matters from 
USDA and security matters from DHS. The Secretary should solicit, 
possibly through the creation of an advisory council, the 
recommendations from the scientific and security communities with a 
view towards constantly improving the regulatory model given all the 
concerns of the communities involved. To sum up, we recommend that HHS 
take the lead. We continue to take that position, and believe that it 
will lead to the improved regulatory process that we all seek. We also 
do not have the luxury of time to bring another agency up to speed. HHS 
has been doing a positive service in this area, and we do not want to 
change ships in midstream.
     building a response and recovery plan that acts as a deterrent
    The bill requires the Secretary of Health and Human Services, in 
coordination with the Secretary of Homeland Security and other 
appropriate Federal agencies, to develop and implement a National 
Medical Countermeasure Dispensing Strategy. A National strategy is 
sorely needed to establish effective and timely distribution of 
emergency medical countermeasures (MCMs). Countermeasures could serve 
to blunt the impact of an attack, save lives, and thwart the 
terrorists' objectives--but only if they are delivered when and where 
they are needed. We commend the Obama administration for issuing an 
Executive Order in December, 2009, to establish Federal capabilities 
for the timely provision of medical countermeasures following a 
biological attack, and we commend this committee for taking up this 
important, as well as complicated, effort. But, dispersal of medical 
countermeasures is but one link in the chain of actions that are needed 
to respond to a bio attack. Rapid detection and diagnosis capabilities 
are the first links, followed by providing actionable information to 
Federal, State, and local leaders and the general public; having 
adequate supplies of appropriate medical countermeasures; quickly 
distributing those countermeasures; treating and isolating the sick in 
medical facilities; protecting the well through vaccines and 
prophylactic medications; and in certain cases, such as anthrax, 
environmental clean-up. All parts of the chain need considerable 
attention.
    Public health agencies at the Federal, State, and local levels have 
made great strides since 2001 to prepare the Nation for biological 
attacks and other disasters. This is in spite of the challenges of 
preparing for such events, especially in light of limited and 
decreasing budgets. However, much more can be done to support public 
health, and also traditional first responders, so that the Nation can 
effectively respond to a biological attack.
    One way that the burden on public health may be eased is if the 
public is more prepared. We commend this committee for including 
provisions for the public and especially first responders, to access 
the vaccines and antibiotics they might need in an attack, before such 
an event occurs. (Title 1, section 105) For example, anthrax vaccine 
could and should be available to first responders, and we agree with 
the committee that the Government should seriously review the issue of 
whether and under what conditions home MedKits should be available for 
concerned citizens who wish to prepare themselves and their families. 
In considering the policies for vaccination and antimicrobial 
distribution in light of known biological threats to the United States, 
however, we recommend that public health responders also be given 
priority, and that vaccination be done on a voluntary, not a mandatory, 
basis.
    We also feel obligated to comment on a key issue regarding medical 
countermeasures not addressed in this bill. Yes, we must have a system 
capable of rapidly dispensing MCMs during a crisis, but we must first 
have the required items to dispense. A world-class delivery system that 
does not have the appropriate products is of no value. Several months 
ago the administration attempted to raid the BioShield Reserve Fund to 
pay for H1N1 flu preparedness--certainly an important program, but one 
that needed funding on its own merits. Thankfully, this raid was not 
successful because leaders in Congress, who understand the importance 
of BioShield to our biodefense program, prevented it. Unfortunately, 
the story on funding for the Biomedical Advanced Research and 
Development Act (BARDA) does not have a similar good ending--at least 
not yet. There is, however, still time to correct this funding 
shortfall. The current funding request for fiscal year 2011 is $476 
million. The Center for Biosecurity at the University of Pittsburgh 
Medical Center recently estimated that $3.39 billion per year in 
medical countermeasure development support would be required to achieve 
a 90 percent probability of developing one FDA-licensed countermeasure 
for each of those requirements. The cost estimates of developing these 
pharmaceuticals were based on in-depth surveys of historical vaccine 
and drug development data, and reflect the high failure rate of 
biopharmaceutical development. It now falls to the U.S. Government to 
fund the development of medical countermeasures based upon the level of 
risk that is deemed tolerable. An amount of $1.7 billion per year would 
meet roughly half the estimated need to provide a significant and 
necessary down-payment on the Nation's preparedness. Given the threat, 
$1.7 billion per year for prevention and consequence management is a 
reasonable and comparatively sound investment.
    America must develop the capability to produce vaccines and 
therapeutics rapidly and inexpensively. Both the BioShield Reserve Fund 
and BARDA will be key elements in reaching this goal, but only if they 
receive proper support and funding. Developing this capability over the 
long-term will lead us to a security environment where biological 
weapons can be removed from the category of WMD. That must be the long-
term biodefense strategy for America, but it will be unattainable if we 
do not properly fund these key programs. We submit for the record an 
article we co-authored on this subject in the summer of 2009 for the 
Journal of Biodefense and Biosecurity.*
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
 decontamination--resolving long-standing questions so we are prepared
    We commend the committee for including the provision that DHS issue 
guidelines in coordination with the Environmental Protection Agency for 
cleaning and restoring indoor and outdoor areas affected by the release 
of a biological agent. These guidelines should also address methods of 
decontamination following a large-scale event, and should address some 
of the remaining questions of a technical and scientific nature that 
make decontamination of a large area difficult. Currently, U.S. 
environmental laboratory capacity is insufficient for the challenge of 
sampling and testing following a large biological release. Federal 
leadership roles should also be clarified--many Federal agencies 
currently have roles in decontamination, but it is still unclear which 
agency would lead. Likewise, it is unclear who will cover the costs of 
decontamination, as well as the temporary relocation of building 
occupants. Private building owners would rightly question what their 
role is, at this time--if private industry is to be responsible for 
decontamination of their own property, there should be guidance for 
decontamination practices and qualified decontamination contractors 
available to industry in the event that they are needed.
    The WMD Commission sponsored a small study to review current bio-
decontamination capabilities and responsibilities. The conclusions were 
not encouraging. We submit the recently-published article for the 
record.*
       the biological weapons convention--an opportunity to lead
    Section 112 of the legislation intends to require the Secretary of 
State to promote confidence in the Biological Weapons Convention (BWC) 
implementation and compliance by its States Parties. It also calls for 
promoting universal membership in the Convention. One of the WMD 
Commission recommendations in World At Risk was that the United States 
should propose a new action plan for achieving universal adherence to 
the BWC (recommendation 2-4). We are supportive of the goal, as well as 
moving forward to address the other important gaps in our preparedness. 
In order to provide leadership at the 2011 BWC Conference and take 
advantage of this once-every-5-years opportunity, we should be doing 
more to lead by example.
                          the clock is ticking
    We cannot overstate the urgency of this crisis, and the need for 
action, now. The international situation is fragile, with Israel and 
its neighbors, on the India-Pakistan border, and this fragility 
substantially increases the risk of terrorism with a WMD. While there 
are issues at stake that have gone unresolved for over 60 years, we may 
have only 3 more years of procrastination before the consequences 
reveal not a World at Risk, but a world immobilized by crisis.
    One of our recommendations was for Congress to reform Congressional 
oversight to better address intelligence, homeland security, and cross-
cutting 21st Century National security missions. The fact that we are 
having this hearing on April 21, 2010--more than 16 months after World 
at Risk was issued--is evidence of the difficulty that Congress has in 
organizing itself to protect the people of America, and the world, from 
this ultimate catastrophe.
                               conclusion
    We commend the committee for taking up this important issue. We 
look forward to participating in a robust discussion on Capitol Hill 
and with the administration and stakeholders as the WMD Prevention and 
Preparedness Act of 2010 is introduced, and makes its way through the 
legislative process, and stand ready to help where we can, to promote 
important strides for our National security.

    Chairman Thompson. Thank you very much.
    The Chair has previously recognized the good work of Dr. 
Gronvall, and it is obvious she has both of your gentlemen's 
backs.
    Senator Talent, for as long as you need to explain.

   STATEMENT OF JIM TALENT, FORMER COMMISSION VICE-CHAIRMAN, 
 COMMISSION FOR THE PREVENTION OF WEAPONS OF MASS DESTRUCTION 
                  PROLIFERATION AND TERRORISM

    Comm. Talent. Appreciate that, Mr. Chairman. Yes, Dr. 
Gronvall will slip us notes when you ask the hard questions. We 
may just actually refer them to her.
    It is great to be here and to recognize your great work on 
this, Mr. Chairman, and the Ranking Member, to see old friends, 
because this is a hearing room I know very well, to see my 
friend from Missouri, Mr. Cleaver, here, and to congratulate 
him on his work on this. I am really pleased to hear about the 
efforts between Mr. Pascrell and Mr. King, and knowing those 
two personalities and all kidding aside, I think that something 
is going to end up being done. So that is very important.
    Yes, I am going to make some observations, Mr. Chairman, 
and then let you all ask the questions and we can have a 
dialogue, and I think it is important to do that. This hearing 
is really important and I am glad you are holding it.
    It has been my observation over the last 2 years studying 
this whole area that while most of the problems are Executive 
in nature--we have seen this now through two administrations, 
just the difficulty of getting this big, fragmented set of 
agencies to work together to do things, much less given the 
Federal issues--and that it is important to have top-level 
Executive leadership hold people accountable, that when 
Congress gets active and people in the agencies seeing Congress 
getting active it makes a big difference. Even if the 
legislation that you are passing is just basically affirming 
what the Executive is doing in certain areas it shows a level 
of seriousness and unity and commitment, particularly when it 
is done on a bipartisan basis, that people through the 
Executive branch take seriously.
    I think the model for this is probably the Intelligence 
Reform Act. When Congress went through everything it had to go 
through to pass that it made a big difference within the 
intelligence community. It is not that everything is perfect 
within that community at all, but there is no question that at 
least some cultural change resulted as--occurred as a result of 
that. So I think it is important that you are doing it.
    Mr. Chairman, you ask about and the Ranking Member asked 
for suggestions we might have about how to remedy the difficult 
problems we have in the Congress regarding oversight, so I will 
give you a practical response. As a person who served in this 
body for 8 years in the Minority, in the Majority, in the 
leadership, on the back bench, as a committee chairman, in a 
lot of different capacities, I think the initiative ought to 
come from you all because, let's face it, you are probably 
going to be the gaining committee--ought to be, in my judgment.
    Mr. Chairman, if you and the Ranking Member would talk--get 
the Speaker's blessing; you are obviously going to have to have 
that--and then talk with the Majority and the Minority leaders, 
maybe get a staff person designated, and do all this low-
visibility. I mean, in the initial stages I would not want 
surfacing and on the Hill or anything like that if you could 
avoid it, in the magazines.
    Talk to the Executive branch people and let them know that 
they can let their hair down and try and identify the four or 
five areas where the current fragmented system is causing the 
biggest problem, and maybe begin focusing on those areas. Then 
when you have got an agenda together and maybe three or four 
ideas for what you could do about them--and between the two of 
you you know the House well enough to know going in, probably, 
what is possible and what isn't possible.
    Then maybe in the Leader's office, with the Minority 
Leader's person present there, get together the Chairmen, the 
Ranking Members, and the key staff people and just begin asking 
what can be done. Is there any low-hanging fruit in this? I 
mean, what steps can be taken so you can begin making some 
progress? Don't make the best the enemy of the good. I don't 
know that you need some kind of global solution, but just start 
taking some steps and emphasizing to people the seriousness of 
this threat.
    I mean, if they have not had--if these committees of 
jurisdiction and oversight have not had the briefing on this 
they need to get the briefing on this. This is something that 
was impressed upon me through our initial deliberations. I am 
not an intel guy the way Ms. Harman is, but when I saw what I 
saw, and when I saw people like Bob Graham, and Graham Allison, 
and Wendy Sherman, and Robin Cleveland, taking as seriously as 
they took this threat, that impresses you.
    This is a major threat and if we are going to make it a 
priority to deal with it, I mean, that means--if something is a 
priority it means you are willing to sacrifice other things for 
it. I think if you can get the people in that room going in to 
accept that--do this low-key, and then get the process moving 
that way. It is going to take a major effort, Mr. Chairman, and 
I know how busy you all are. But I think it is worth doing 
because not only is fragmented oversight can it be negative in 
the sense that it impedes the Executive, but it is the 
opportunity cost, because good oversight can make a huge 
difference, as those of you on the Intelligence Committee know.
    So I would describe, and we did in the report, Congress' 
efforts in this to this point have on balance, I think, been a 
negative not because the Members haven't wanted to do it but 
because this system is so screwed up, and it could be a big 
positive. So that is just my practical advice and you can take 
it for what it is worth.
    I do want to say, because our report card was not good in 
the area of bio-preparation, that we have--the two of us, I 
think--been pleased personally at the administration's 
response, and in particular the President's response, 
personally. You know, our understanding is that he has taken a 
personal interest in this, he is meeting with teams of people 
particularly in the area of countermeasure development, and 
that is all to the good. But we can't--I mean, having the 
President pay personal attention to something, you know, when 
you are talking about trying to unify a structural sort of 
response is not the long-term answer because he is just too 
busy. But it is still good that they are responding in that 
fashion.
    I also want to make a comment--Chairman Graham talks a lot 
about the links in the chain of preparedness, and that all the 
links have to be strong if we are going to be prepared for a 
bioattack. Preparation for a bioattack is the key to deterring 
it because if we are prepared well enough then--and if the 
attack is likely not to be a major success, then they are 
likely not to launch it. In contrast to a nuclear attack, this 
is an area where preparation can actually be prevention.
    If you look at the--if you think of the four links in terms 
of stockpiling the countermeasures, distributing the 
countermeasures, detecting, having good surveillance, and then 
clean-up, I think we are showing some signs of life on the 
stockpiling issue. Secretary Sebelius is conducting a review; I 
think they are serious about it.
    The follow-up has to be there. You know, and I am hopeful 
that they will come out with a strategic plan. The problem 
there was fragmentation among the different agencies--typical 
story: FDA, CDC, HHS, all that--and then a lack of funding.
    The distribution side of this, as much maligned as it has 
been of the countermeasures, is the area where I think we are 
the furthest--not where we need to be, but we are the furthest. 
We have a model in place, you know, the CRI initiatives, with 
points of dispensing that are more or less locally-controlled; 
we are in 72 cities. Then they are overlaying a Federal 
response through the Postal Service, which has been tested in 
St. Louis, as a matter of fact, and seemed to work.
    So at least we have a model in place of the local 
dispensing sort-of settings with a Federal overlay. We have 
gone some distance in getting it actually in place and in 
testing it. So, I mean, that link--I think there is a long way 
we need to go, but I think at least we have some idea of what 
we are doing.
    The two where I think we are failing the most right now is 
in detection or surveillance and then clean-up. On the 
surveillance side of it we have BioWatch. We have that in a 
number of cities, and that is a good idea. We funded a lot of 
different sort of studies and surveillance systems, so they 
keep track of over-the-counter sales of drugs and that sort of 
thing, but they are not linked together. There is no general 
strategy or sense of priorities with regard to that.
    We don't have good enough detection sort of tests so we can 
tell whether somebody is sick. I mean, you have got a--the 
pregnancy test has developed to the point you can tell whether 
you are pregnant in a matter of minutes, right, but we can't 
test for even--for swine flu that quickly, much less for some 
of these other kinds of pathogens. So we need those detection 
tests. I mean, it is a bad thing when, if the President asks, 
you know, the head of CDC at any given time, ``How many people 
were sick with the H1N1?'' they couldn't have told him. They 
can't tell you today with certainty how many people died from 
that, because they would just guess.
    You all probably had this experience or know people who had 
this experience: You call a doctor up and they say, ``Well, it 
sounds like it, but it is, you know, it is not worth--you are 
not in a high-priority enough group to bring you in and test 
you to make certain whether you had it.'' That was a--that was 
a pandemic we had 6 months' notice for. So we have got problems 
with surveillance.
    Then clean-up, we have recently--the Commission recently 
funded a study on this. We have total fragmentation on this, 
and environmental clean-up is important because we need to 
clean up quickly and get people back into an affected area. It 
is a hugely important response.
    Think about this from the standpoint of, let's just take 
New York, and I--that is the city most people use. You get an 
attack, you are going to have your initial impact with people 
getting sick and dying and then the problem is, you just can't 
have half of New York that people can't go back into for 6 
months because you are trying to clean it up.
    I just think we are nowhere on that. Again, the typical 
fragmentation--HHS, EPA, USDA has a piece of this. We have not 
funded the research adequately, and there is a lack of training 
and guidance for the first responders. They don't know what to 
do and how to clean up. This would seem to be an area where we 
could build a Federal reservoir of understanding and expertise 
that we could be very flexible with.
    So we have a long way to go. One other observation: There 
is a mentality that I think that you all as leaders need to 
adopt as you approach these issues. One of them is the urgency 
of it.
    It is relatively easy to grasp, but intellectually it is 
hard to make it a working reality in your day-to-day operations 
and decisions. It is just hard, because it is hard to 
conceptualize something like this.
    Some of you have, like, lived on the Intelligence Committee 
for years--seen Ms. Harman up there, more adjusted your point 
of view to this, but it is hard to do. Keep communicating the 
urgency of the threat.
    Then in terms of structuring solutions, I believe a 
partnership rather than adversarial model with all the 
different agencies and Federal--and State and local 
organizations is the right one. So you include rather than 
exclude, in terms of groups of people--so share the intel with 
the public health people, unless you really can't; empower 
rather than regulate, like with the labs--and I think you all 
have that approach in this bill; and support rather than 
punish.
    We want people to take the initiative. We want people to 
make decisions. You know, we want people to go out and do 
things in response to this. If they know that you are going to 
back them up rather than be looking to play gotcha with them I 
think it will have a big impact.
    But thank you again, Mr. Chairman. I think it is great that 
you are having this hearing.
    Chairman Thompson. Thank you very much.
    Obviously we appreciate both of your gentlemen's testimony, 
and obviously it is revealing, but nonetheless very troubling, 
that we are still only where we are and not where we need to 
be. I thank you for your testimony.
    I now recognize myself for 5 minutes.
    You both talked somewhat about the looming biological 
threat.
    I guess we will ask Senator Graham this question as it 
relates to the 2013 prediction: If you would, tell us a little 
bit about how you arrived at that number and--well, it is 
obvious we are not prepared--what we need to do to get prepared 
if that becomes a reality.
    Comm. Graham. That number is a statistical estimate. We 
interviewed over 150 experts in the United States and elsewhere 
on this issue. We studied the literature. Our commission itself 
has some people who have spent a lifetime, such as Graham 
Allison, on this matter. So we present it as our best judgment 
based on all of the above as to the time frame within which we 
are operating.
    I mentioned that I have recently returned from a trip to 
Asia and the Middle East, and nothing that I learned in that 
trip caused me to feel that we were overly or excessively 
concerned with the date 2013. My concern would be that the 
percentage of likelihood that that date will be the date by 
which a weapon of mass destruction will be used by a 
terrorist--the likelihood of that is higher than we thought it 
was in December 2008.
    Chairman Thompson. Thank you.
    Senator Talent.
    Comm. Talent. Could I just add a quick comment on that? I 
think we obviously didn't have intel saying, ``Well, there is a 
plan underway that is going to come to fruition in 2013,'' but 
we do want to emphasize, this is a short-term threat. This is 
not something where we can say, ``Oh, it is terrible but it is 
a generation from now.'' It is not.
    We know they are trying to get this stuff. It fits their 
strategy. It is proliferating all over the world, so it is 
getting easier and easier for them to get it.
    If they get it and they hit a major city with it--not 
necessarily in the United States--from their perspective, you 
know, they win. So everything we saw emphasizes the short-term 
nature of it. So that is why 2013.
    Chairman Thompson. Thank you.
    With respect to that short-term nature, the legislation 
that we are kind of working through right now to address so 
many of the things you have identified, my charge to Mr. 
Pascrell is to make sure that, regardless of how controversial 
or cross-jurisdictional it might appear, it is the right thing 
to do. So therefore, understanding that it is the right thing 
to do, those are the marching orders that I have suggested to 
him.
    Your testimony today further highlights the fact that we 
need to put aside some of the jurisdictional challenges that 
have prevented things from going forward and do it, because it 
is in the best interest of not just this country but the world 
that we become that leader in this arena. To that extent about 
the world leadership, it is your belief that if we took that 
step we make a better argument with not only our friends and 
enemies around the world that it is the right thing to do, but 
it is difficult to make that argument without feeling the 
predicate at home.
    Comm. Graham. Yes, I think the fact that Congress would 
take what anyone in politics recognizes as a difficult step, 
because it is changing jurisdictions and areas of power and 
influence in a critical legislative body, that would 
symbolically send a very powerful signal that America was 
taking this matter with the urgency that it deserves. But I 
think it would be the actual product that would come as a 
result of that reorganization that would be even more 
influential.
    If the United States could go to that conference in 2011 
having passed legislation that provided some new standards for 
security of high-risk pathogens--and you have very good 
provisions in your preliminary draft of the legislation to that 
effect--that would allow us to say to Malaysia and to Brazil, 
these other countries that have significant capability to 
develop and weaponize biological weapons--I am not picking on 
those two countries as being likely candidates--but if we could 
say to them, ``Look, this is what we have done to secure our 
laboratories so they will be less susceptible to being invaded 
by the bad people who would like to get access to these 
material,'' I think our case would be stronger.
    Conversely, if the facts are that we have known about this 
now for a decade or more, it has been considered an urgent 
matter for a couple of years and we have done zero, then what 
is our moral authority to try to get anybody else to strengthen 
their domestic situation?
    Chairman Thompson. Thank you.
    Senator Talent.
    Comm. Talent. I would agree with that, and particularly 
given the fact that this is something that--you know, other 
governments don't want this kind of an attack to happen. This 
is not a situation where there really are different ultimate 
agendas that are being concealed here. I mean, I think there 
are a lot of potential partners out there. So I think setting 
an example is important.
    We should say, there is a lot of good activity going on. 
The Executive branch is doing a lot all the time. You all have 
done and funded and authorized a lot.
    The problem is, and Graham Allison puts it this way--he is 
really correct--we are running towards our goal, but they are 
running faster than we are. So even though we are making 
progress, their lead is growing.
    A lot of that is just because the nature of this kind of 
conflict in weaponry favors them. I mean, it is easier--they 
are able to attack very vulnerable areas that are hard for us 
to defend and that we depend on a lot more than they do. That 
is the nature of asymmetric weapons, and this is the ultimate 
asymmetric weapon.
    So the short answer is yes, I think it is a very important 
model to empower the President with when he as the summit on 
this in about a year now.
    Chairman Thompson. Thank you very much.
    The Chairman now yields to the gentleman from New York, the 
Ranking Member.
    Mr. King. Thank you, Mr. Chairman.
    First of all, I regret that I had to step out of the room. 
Ironically enough, it was Secretary Napolitano calling to make 
sure that I had gotten a copy of her letter talking about the 
multitude of committees that she has to testify before each 
year. So I told here I did, and I told her we raised it and we 
are going to continue to raise it.
    Let me focus, if I could, on biological weapons. I think if 
you went to the average Member of Congress and you spoke about 
WMD they would think of an abbreviation, we think of dirty 
bombs--the average American, certainly. It is hard to get 
people focused on the issue of a biological weapon.
    Having been here on September 11, I remember afterwards we 
were asking ourselves, ``What did we know? What didn't we know? 
What should we have known? What did we do? What didn't we do? 
What we should have done?'' So, assuming the absolute worst 
here, I just want to make sure that we are at least--you know, 
leaving Congress aside; we have our own issues we have to deal 
with--but just generally, for instance, in your dealings with 
the intelligence community do you feel that they are 
sufficiently alert to this and sufficiently concerned?
    Comm. Graham. I think the answer is, they have certainly 
given this a high priority. In the prepared testimony, however, 
I inserted a statement to the effect that this potential of a 
nation state developing weapon of mass destruction capability, 
specifically biological, and then sharing it with a linked 
terrorist organization--such as Iran and Syria have had a long-
time relationship with Hezbollah; Pakistan for many years has 
had a close relationship with the Taliban--that represents the 
ultimate threat because the nation state gets to have some 
degree of deniable involvement in the matter, points its finger 
at its surrogate that is actually carrying out the operation.
    I think that this situation is accelerating and that our 
intelligence agencies need to give it an even higher priority 
than that which they have given it in the past.
    Mr. King. Senator Talent.
    Comm. Talent. Yes, I would say yes and no. Yes in the sense 
that they recognize and I think believe that a WMD attack from 
a terrorist organization is the greatest threat that we 
confront that they have to deal with.
    The problem is cultural, and it goes beyond just the intel 
community. When people think of WMD they usually think of other 
things. We have had whole establishments of people for 
generations who have grown up understanding that nuclear 
material can be put to bad use, but the idea that genetic 
material or pathogens could be put to bad use is much newer.
    So they all tend to respond a little bit slower. They don't 
have the same high level of cultural awareness, as a community, 
of these issues. So you get things like the fusion centers--and 
we mentioned this in our testimony--where, you know, the local 
fusion centers where everybody's supposed to come together and 
share intel and all the rest of it. The public health--except 
in a few cities that have really pushed hard, like yours--the 
public health community hasn't got the clearance so they can 
participate.
    I don't think the--from what we have seen, the intel 
agencies don't keep good enough track of just open-source 
foreign public health information that could be really 
important. There are dots they ought to have there to connect.
    There are issues with workforce--they may not have enough 
people in the workforce who really understand bio issues. 
Plenty of people understand nuclear issues.
    I don't want to point the finger and say, ``That person 
doesn't care or isn't doing their job,'' because they all 
really do care. It is a cultural issue, and culture takes a 
little time to change.
    Mr. King. My time is running down, so I will ask two 
questions in one and then if you could answer the--both of 
them.
    If you could give the same--answer the same question 
regarding State--Federal-State law enforcement--FBI, State 
police, local police--how attuned they are, how concerned they 
are about this? Also, even though we were on the committee, I 
didn't realize until I read your report, or your report card, 
that the budget for the Department of Homeland Security only 
requested about one-tenth of what would be needed for medical 
countermeasures in the event of a biological attack. I am sure 
this is true in the previous administration, so I am not trying 
to make this a partisan issue.
    The fact is, of all the issues we debate with the homeland 
security budget, I doubt if this would even come up if you 
hadn't brought it to our attention. Obviously we are talking 
about--you mentioned a half a million lives could be lost. So 
on those two issues, the intensity with law enforcement, and 
also with the Department of Homeland Security itself, why only 
one-tenth is put in for the medical countermeasures?
    Comm. Graham. Well, I think that is a perfect example of 
what happens when you don't have clarity of responsibility in 
terms of Congressional jurisdiction. There should be a place in 
each of the two houses of Congress which wakes up every morning 
asking the question: ``What can we do today to make our 
response to a biological attack stronger?'' both in terms of 
substantive legislation and advocacy before the Appropriations 
Committee.
    That number is the number which--the University of 
Pittsburgh has a major center located in Baltimore that is 
probably the Nation's premier medical entity on bioterrorism, 
and it has calculated that in order to have an adequate supply 
of the eight--for the eight pathogens that the Department of 
Homeland Security has identified as the most likely to be used 
in a weaponized form and to have that adequate supply within 5 
years, which is outside the window of the 2013 prediction of 
course, that it would take approximately $3.4 billion each year 
for the next 5 years to get there.
    The budget that Congress approved last year was approximate 
10 percent, or roughly $300 million. $300 million is a lot of 
money, but it means that we either are determining that we are 
only going to prepare for one-tenth of the amount of 
therapeutics that will be required or we are going to take 50 
years to get there, neither of which, I think, is an acceptable 
response to the American people. It is important that someplace 
in Congress knows this issue and is the virulent advocate for 
its remediation.
    Comm. Talent. I certainly would agree with that, and again, 
I think that Bob's point about oversight is important here. 
Like when the stimulus bill went through, this would have been 
a great opportunity to fund this program. It is not like 
somebody brought this up with Mr. Obey and he said, ``Oh, I 
don't want to fund countermeasures,'' right? Clearly, I know 
how this system works; Bob knows.
    For some reason this wasn't on the table, because you all 
would have funded it. Or you would have looked at it--maybe 
staff would have looked at it and said, ``Well, we have thought 
about it and we don't want to fund it because we don't think 
the structure is right and we need to''--I mean, you would have 
had an intelligent response. There was nobody there at that 
point who was raising this, and that is--that is the absence, 
you see?
    Not only does the fragmented oversight impede the 
Executive, but the absence of that means you are not making the 
contribution that all of you as Members want to make. I mean, 
if somebody had set up--if we had attacked you, which we didn't 
do, for not funding this, you would have gone to your staff and 
said, what in the heck happened? Why didn't we fund this, 
right?
    Now, I will say this: You all need to watch OMB on this, 
because they are on, like, autopilot, wanting to defund these 
programs to fund other things. Somebody over at OMB has decided 
that that is a good way to fund some other stuff, so watch 
that.
    In terms of local sharing, Bob or Ms. Harman have a better 
view than I would. I think we said in the report we think the 
FBI is doing a lot better job than it used to in sharing with 
local groups, but there is a long way to go. Again, this is an 
area where we have to look at whether they are including public 
health officials. If they look at it and decide for some reason 
not to, okay, but let's not just exclude them categorically 
because we don't think that they are part of the solution.
    Chairman Thompson. Thank you very much.
    The Chairman will now recognize the other Members for 
questions they may wish to ask the witnesses. In accordance 
with our committee rules and practice, I will recognize Members 
who were present at the time of the hearing based on seniority 
on the committee, alternating between Majority and Minority. 
Those Members coming in later will be recognized in the order 
of their arrival.
    The Chairman now recognizes for 5 minutes the gentlelady 
from California, Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman.
    Let me welcome our witnesses. I believe that Jim Talent and 
I were elected to the House in the same year. He has obviously 
had----
    Comm. Talent. I may say, Ms. Harman, the years have treated 
you much more kindly than they have treated me, so----
    Ms. Harman. Well, I notice your gray hair, my friend. 
Hadn't seen that before.
    Bob Graham, I want to commend you not only for your 
friendship and enormous contributions, but for your mentorship 
of me as I served on our Intelligence Committee when you 
chaired the Senate Intelligence Committee, and for your superb 
handling of the joint inquiry on 9/11, which was a bicameral, 
bipartisan exercise by the Congress. Imagine--that seems like 
a, you know, some kind of an old, ancient idea, given these 
partisan times. But I thought we were very effective and I 
thought your leadership was exemplary.
    Let me also mention that when your excellent report came 
out I made some comments about my view, which is that we should 
prepare and not scare the American public. I think those 
comments were construed to mean I was critical of your report. 
I am not critical of your report; I applaud your report.
    But I do believe that it is--that preparation, as Mr. 
Talent said, is a key to prevention, and so I am glad that you 
both see it that way.
    Let me focus on just a couple issues that concern me 
enormously, or that may offer some keys, and just to see if you 
have thought about them. One is forensics and attribution. This 
has been mentioned in the nuclear case, but I also think it 
would apply in the biological case. If we can find out who 
produced the stuff that was used, or if the bad guys know that 
we will find out and the country transferring stuff to bad guys 
knows that we will find out, I think that is a huge deterrent. 
I just want to ask you whether you do, and what it is, exactly, 
that you think we should do.
    My understanding is that there is a Nuclear Forensics and 
Attribution Act, which was signed fairly recently, but it 
wasn't funded by this administration. I would suggest that this 
is something we should fund and that this could be a very major 
prevention strategy. I just want to know what you think.
    Comm. Graham. I completely agree that if you are going to 
deter your adversary it is critical that the adversary knows 
that after the boom you are going to be able to determine from 
whom that was dispatched. In our report we talk about the 
importance of a forensic aspect to this issue and have urged 
heightened funding of the Nation's efforts, both on the nuclear 
as well as the biological side. That would be another example 
of an issue that this committee might give some special 
attention to see if, in fact, we are moving towards the 
capability to be able to identify with sufficient clarity that 
we could then justify a response.
    On 9/11 we knew immediately who was responsible, and in 
October 2001 started to send a massive military response to 
Afghanistan. If we had not been able to have made such a quick 
and internationally-accepted determination of who the 
perpetrator was we would have been unable to have credibly 
launched that response.
    Ms. Harman. I agree.
    Comm. Talent. This is an area--I just checked to make 
certain--we gave the administration an ``A'' in this area 
because they do have a--we had recommended that they develop a 
strategy; they have developed one that more than met the 
requirements that we had laid out in the report. But of course, 
implementation is the key.
    Ms. Harman. Funding is the key.
    Comm. Talent. Funding. Absolutely. It would be a good 
subject for this committee to interest itself in to make 
certain that they do implement. But I completely agree with 
you. You are absolutely right from the standpoint of, it is a 
key deterrent if they know we can identify who did it, 
particularly where a nation state is behind it.
    Ms. Harman. Well, I think it needs more attention by 
Congress. Time is short, but let me just commend you again for 
your ``F'' for our efforts to reorganize the Congress. Sadly, 
it is true. The committee, I believe, has way too little 
jurisdiction for the responsibility vested in us, and I have 
been through painful meetings where our Chairman has 
courageously tried to augment our jurisdiction, and then he 
gets jumped by the Chairmen of other committees who don't want 
to give anything up.
    Most of us are ready to criticize the Senate these days for 
stopping all of our valuable legislation, but the one place 
where the Senate has it right is that it has a committee, 
chaired by Joe Lieberman, where Susan Collins is Ranking 
Member, that has a lot more jurisdiction than ours and is 
capable of doing a lot more than we can because of its larger 
turf. Would you agree with that?
    Comm. Graham. I would agree with that, but if I could be so 
presumptive as to ask you and other Members this question: When 
the Chairman or the Ranking Member or other Members of this 
committee go to the leadership of the House with this request, 
the reality is there is a degree of perception of self-
interest--you are trying to expand your power by taking it from 
somebody else.
    What has got to be at the table is the National interest. 
My question is, who--what entities--do you think are capable of 
presenting that National interest to the leadership of the 
Congress, in this case specifically the House of 
Representatives, that would give them the impetus to take the 
action which we think is so critical for the Nation's safety?
    Ms. Harman. Well, my time is expired, Mr. Chairman, and I 
think it is probably a question to you both. But I would just 
say, Bob, that your report and your calls for action and the 
reports by Lee Hamilton and Tom Kean for action, this is an 
unfinished item on the 9/11 agenda, and hopefully at some near 
point a popular uprising, which is pretty effective around 
here, might cause us to see this more clearly.
    My time is up. I yield back.
    Chairman Thompson. Gentleman from New York.
    Mr. King. Thank you, Mr. Chairman.
    I would say that Secretary Napolitano has been very 
aggressive on this, and if we could have the administration 
work with us, they really have no axe to grind one way or the 
other other than to try to work it through.
    So I would say if we could meet with people from the 
administration to show, again, as Senator Talent said, hit the 
low-hanging fruit first, then find areas where we look as if we 
are acting responsibly but the right thing is being done. But I 
think the administration can play a role, and obviously both 
parties have to sit down on this----
    Comm. Talent. It is going to have to be bipartisan.
    I mean, you could explore, going so far--I don't think it 
is something the President would want to mention in a State of 
the Union address, but if on behalf of the Executive branch 
agencies who have to live with this, you know, he made a 
personal request at some point, I think that that might be 
helpful. He is just representing the National interest. I know, 
you know, he wants to show comity to how we operate on this end 
of Pennsylvania Avenue.
    I have got to believe the leadership wants to do this. This 
isn't a leadership issue. I mean, the leadership is looking at 
this and saying: A, it is probably impossible; B, we have 1,000 
other things to do; C, we don't want to go out there and tilt 
at windmills and end up offending everybody and we get nothing 
anyway. I mean, if you talk with the Speaker and the leaders of 
both parties that is probably what they will tell you.
    So, as I said, some good work sort of beneath the surface 
to try and figure out what can be done and give them some hope 
might motivate them.
    Chairman Thompson. Well, I appreciate everyone's comments, 
and the one good part about the discussion is, up to this point 
that has been a theme people on the right and left----
    Comm. Talent. Absolutely.
    Chairman Thompson [continuing]. Have displayed, that this 
needs to happen. So in that respect there is no----
    Comm. Talent. Mr. Chairman, I know it is easy for Senator 
Graham and I to think of new things for you to do, because 
largely--this is water you are largely going to have to carry, 
but----
    Chairman Thompson. Well, I mean it is, as I said earlier, 
it is the right thing to do. So it makes it easier from our 
perspective.
    The Chairman now recognizes the gentleman from Texas, Mr. 
McCaul, for 5 minutes.
    Mr. McCaul. Thank you, Mr. Chairman.
    Thank you, Senators, for being here, and your work 
products, your sense of urgency in terms of fixing the 
Congressional oversight issue. I think over 100 committees and 
subcommittees have jurisdiction currently, and I don't--I think 
it is paralyzing.
    Mr. Chairman, I hope we can work together in a bipartisan 
way to fix this issue.
    I think with your help and your credibility on the outside 
helping us I think we can hopefully get there.
    I have two quick questions with the limited time I have. 
One is on the nuclear issue; one is biological.
    In your report you describe Pakistan as the intersection of 
nuclear weapons and terrorism. I agree with that assessment. It 
has been an issue since the A.Q. Khan network.
    Very concerned about the security of the nuclear stockpile 
in Pakistan, very concerned with Iran close by, by some reports 
maybe a year out from developing a nuclear weapon, very 
concerned about their alliance with Venezuela, with Hugo Chavez 
in this hemisphere, and with the potential of nuclear material 
being smuggled and, you know, potentially being brought across 
the border, which we know has some defects, I should say. It is 
easy to cross, and I think it is still very easy to get this 
type of material into the United States.
    If you wouldn't--and I know, Senator Graham, you commented 
on that area of the world being the most dangerous part of the 
world, and I agree with that--what are your comments on how we 
can better protect the Nation?
    Comm. Graham. One, as I mentioned, we need to start dealing 
with some of these long-simmering issues that have become the 
flashpoint where this might actually occur. If, for instance, 
something broke out in Kashmir that we ignited the vitriol 
between India and Pakistan, that could be an incident that 
could cause someone to make the decision, ``We don't want to 
use these weapons, but we are going to let our surrogate, 
Taliban, have access to these weapons and they will do our 
dirty work.''
    You may have read the story within the last week that there 
are now suspicions that Syria has transferred Scud missiles to 
Hezbollah in Lebanon. That could be a precursor of letting your 
surrogate do the dirty work for you. So I think one of the 
things that is very important is that we--that after 60 years 
we give the urgency necessary to try to bleed off these long-
simmering disputes.
    Second, I think also on a longer-range view, the United 
States needs to work with our allies to try to better 
understand the Muslim world. The Judeo-Christian world 
represents about 1.2 billion people; the Muslim world 
represents about 1.2 billion people. If we leave to our 
children and grandchildren animosity between these two groups, 
which together are roughly half of the population of the world, 
we have left them a very incendiary legacy.
    On the more immediate, I think one of our recommendations 
was to work with India and Pakistan to develop some failsafe 
procedures. Unlike the United States and the Soviet Union 
during the Cold War where, although we were strong adversaries 
and had the capability of destroying each other, we understood 
that we didn't want to allow a misstep or an accidental event 
to become the ignition for such a war, so we set up the red 
phone in the Oval Office and a whole protocol. None of that 
exists between India and Pakistan.
    I have felt that this may be an area in which the United 
States and Russia together, since we developed these protocols 
for our own benefit and the world's benefit, might work 
together with India and Pakistan to try to get them to develop. 
I was encouraged that within the last month India and China 
have started to develop some of those failsafe procedures, but 
there is almost nothing has been done in a similar vein between 
the real adversaries, which are India and Pakistan.
    Mr. McCaul. I agree. With the limited time I have left, 
again, the issue of Iran and their alliance with Venezuela, 
putting that in our own hemisphere, what do you perceive as the 
threat level of smuggling that type of material across our 
border into the United States?
    Senator Talent.
    Comm. Talent. We didn't address in the report border 
security as such. I am also very concerned about it, and I 
think we do have, you know, as a political establishment, be 
able to separate out the National security aspects of that from 
the immigration aspects of it and reach an agreement on the 
National security side of it. I mean, I think that is a 
concern. There are a lot of ways they could try and get it in 
the country and that is certainly one of them, and we are very 
concerned about Iran. The report reflects that.
    Pakistan is just incredibly difficult. Bob mentioned some 
of the reasons. I would just say a couple of discrete things: 
We are still not where we need to be in terms of--on workforce 
issues within the intelligence community. This is something 
that Senator Graham just hammers on, and correctly. We don't 
have enough people who understand those issues. We haven't 
recruited effectively enough. It just takes so long to hire 
people in the intel community.
    We can work particularly with India and Pakistan on 
security of pathogens--this is in the bio area. Then one other 
point that I made a lot and got into the report, because I am 
coming from my--the DOD side--if you look at the speeches of 
Secretary Gates he talks all the time about the importance of 
developing the civilian elements of National power, what you 
call ``smart power'' or ``soft power,'' the ability to 
communicate effectively about American intentions and to help 
build local grassroots economic and political institutions that 
are a bulwark against this kind of instability.
    I personally believe the State Department is going to have 
to--and Secretary Clinton, I think, wants to do this--going to 
have to undergo the kind of cultural angst and reform in 
development that DOD did with Goldwater-Nichols that the intel 
community has done so that the President has an option. You 
know, you all in your campaigns, if you have got a part of your 
district where you are not running as well as you like, you 
know, you can instruct your consultants to build up your 
numbers and they will have a plan.
    Well, we should have the ability to say, you know, there is 
this province of Pakistan or people where our goals, you know, 
they are misinformed and they are angry at us, and the 
President ought to have the option to say, ``Let's go out and 
build up America's brand there.'' We don't have that organic 
capability. So Presidents are, you know, reduced to options 
none of which are very palatable.
    Mr. Pascrell [presiding]. Thank you, Mr. McCaul.
    Mr. McCaul. I see my time is expired. Thank you.
    Mr. Pascrell. Thank you very much.
    The Chairman recognizes for 5 minutes the gentleman from 
Pennsylvania, Mr. Carney.
    Mr. Carney. Thank you, Mr. Chair.
    Thank you both, Senators, for being here today. I have got 
to tell you, I think this is probably one of the most important 
hearings that we have held this year, maybe this entire cycle. 
Juxtapose that when, you know--to me, we should have all the 
major networks here listening to you two tell us what we really 
need to pay attention to. You know, certainly when the Salahis 
were here talking to us, you know, every damn network in the 
world was here, and the well was full of photographers, you 
know.
    I suspect that we are stuck somewhere between Chicken 
Little and an ostrich in looking at this issue. You brought up 
Pakistan. You know, the Pew Organization did public opinion 
polls of the United States and Pakistan just recently; we are 
at 18 percent approval. Worse than Congress, actually, in 
Pakistan. But we had to do battle with that, so----
    Comm. Talent. President Obama gets that report and he would 
like to do something about it, and who does he detail to do 
something? We have no capability within the Government. We have 
better capability as political actors to change our numbers 
than we do to change our numbers, and why? We don't have that 
organic capability within any of the civilian agencies.
    Mr. Carney. There are organizations that can do that, I 
think----
    Comm. Talent. Right, from the margin, but----
    Mr. Carney. Sure.
    Comm. Talent. We haven't thought about how to develop. I am 
sorry to interrupt.
    Mr. Carney. No, you are right. I mean, I would like to have 
the dialogue here.
    But one thing that I was struck by, so it is about a $17 
billion number you are looking at--$3.5 billion over 5 years--
--
    Comm. Talent. Right.
    Mr. Carney [continuing]. Or whatever, something like that, 
over 5 years. Does that include things like a surge capacity 
for hospitals? Now, I represent a district, for example, that 
is in the eastern part of Pennsylvania--the northeast part of 
Pennsylvania. We have a lot of hospital capability there.
    Assuming that, you know, based on the premise that we are 
going to have an attack in an urban area where it will do the 
most damage, you know, we are talking about Mr. Pascrell's and 
Mr. King's area probably. Well, do we have that surge capacity, 
from your opinion on this, or----
    Comm. Graham. Well, let me first--the number that I gave, 
which was $3.4 billion for 5 years, that is for the BioShield 
program. That is what it is going to cost to do the research to 
determine the most appropriate therapeutic against these 
pathogens that are most likely to be weaponized, and then to 
produce enough of the material that 90 percent of Americans 
could be treated in the event of a mass attack. It does not 
include the cost of some of the other aspects of building this 
response, such as surge capacity.
    Yes, I think that is an important issue. I served for 18 
years on the Veterans Committee during a period of time in 
which we were dismantling a number of major VA hospitals as the 
number of veterans was declining. Many of these were in urban 
areas--big cities like New York and Chicago--which are the 
places that are probably most likely to be called upon to have 
some surge capacity.
    I advocated that we should step back and think about, do we 
really want to dismantle all this capability in the event that 
we might wish that we had it available? I think that the 
Congress needs to give some thought to how are we going to be 
able to respond if suddenly there are thousands--hundreds of 
thousands of people who are requiring immediate medical 
attention. It is not going to be very satisfying, I think, to 
the American people to say that we will just throw up our 
hands, do nothing, and accept that as a cost of living in this 
era of terror.
    Comm. Talent. I think it ought to include--you want to be 
careful because they need the money to develop the actual 
medical countermeasures--but a decision-making process that was 
working well might very well go through the following logic. It 
might say, look, a lot of these pathogens attack, let's say, 
people's respiratory systems. So if we have--if we are certain 
that we have adequate capacity to get them on respirators and 
we can lengthen their lives that way that gives us greater 
time, then, for drugs to be dispensed and take effect. So it 
ought to be thought of as seamlessly as possible.
    I think you hit a really good insight. The surge capacity 
is related to the medical countermeasure question. The on-going 
challenge--none of us have complete answers to it--is how to 
deal with this fragmented, you know, bureaucracy so that people 
are cooperating enough that we get this seamless decision-
making, that we don't have--and in this case you have got FDA, 
you have got NIH, you have got BARDA, you have got BioShield. 
Now, Secretary Sebelius is looking at this and we are going to 
be looking very carefully at what she comes up with, and we 
think you should, also.
    Mr. Carney. I agree, absolutely. You know, I want to echo 
all my colleagues here on the sort of ridiculous requirements 
that DHS has to go through in terms of committee reporting and 
things like that. We should be the bellybutton in Congress for 
all of this, to be quite honest.
    I hope if you haven't had the opportunity that you share 
that with the President also. You know, he needs to hear it 
from a couple of credible people who are beyond the political 
process now, not those of us still in the midst of it.
    Comm. Talent. Well, I mean, he served--he knows----
    Mr. Carney. Yes.
    Comm. Talent [continuing]. What the jurisdiction is like. I 
agree, by the way, with what Ms. Harman said, that it is 
better--this is one of the few areas where it is better in the 
Senate than it is here. They have more jurisdiction in their 
committee there.
    Mr. Carney. I yield back. Thank you, Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Carney.
    The Chairman recognizes for 5 minutes the gentleman from 
Pennsylvania, Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    Senators, I thank you for being with us here today and 
talking about this WMD issue, particularly the concerns about 
biological attack. I assume that you believe that a biological 
attack would be more likely than, say, a nuclear attack because 
it is probably easier to develop or engineer a biological 
pathogen even though it may be easier to contain it and it is 
easier to prevent, obviously, a nuclear attack by controlling 
fissile material, and the President has been a leader on that 
issue, as have others.
    I read Graham Allison's book, ``Nuclear Terrorism,'' and 
how it is easier to prevent that--of course, harder to contain 
the nuclear attacks. So I assume that that is the reasoning 
behind why you feel that biological attack is more likely.
    Comm. Graham. That is certainly a part of the reason. The 
difficulty of developing a nuclear weapon is being demonstrated 
by Iran. Iran has had some 5,000 centrifuges working for 
several years trying to develop enough highly-enriched uranium 
to produce one bomb.
    Mr. Dent. It was always my understanding, if I read 
Allison's book correctly, that if one had fissile material, was 
able to obtain it, steal it, buy it, that--and they had the 
know-how--they could develop a crude device--nuclear device--
usually within a year, assuming they could get the fissile 
material. Is that your understanding, too?
    Comm. Graham. Well, if you had gotten the Sears Roebuck 
catalog from A.Q. Khan----
    Mr. Dent. Right.
    Comm. Graham [continuing]. And ordered the actual physical 
vessel in which that highly-enriched uranium was going to be 
introduced it wouldn't be a matter of months or weeks, it could 
be a matter of days before you could have a weapon that was 
ready to be used. But with biological, so many of those most 
likely to be weaponized items are from nature itself. They 
don't require much human intervention. Anthrax is a naturally-
developing product from dead cows. In fact, the word 
``anthrax'' is a Russian word that means ``Siberian boil'' 
because the first place it was seen was in Siberia in dead 
cattle.
    Other synthetic pathogens are readily developed in high-
containment laboratories. The ability to then take that 
weaponized product and distribute it effectively, which has 
been a major impediment for biological weapons, witness the 
failed attempt to use it in the subway in Tokyo, the Department 
of Homeland Security feels that those distribution problems 
have now largely been solved, and that in the hands of 
competent technicians that there will be the ability to 
distribute it in a way that will be largely unnoticed until 
sufficient number of people have been impacted to have a weapon 
of mass destruction.
    Mr. Dent. Can I also ask you quickly about the dirty bomb's 
radiological impact? I mean, I often don't refer to that as a 
weapon of mass destruction, but a weapon of mass disruption----
    Comm. Talent. Right.
    Mr. Dent [continuing]. Because it will probably not--it may 
not kill as many people but it will certainly be a terrible 
disruption in the midst of this country and this economy, and 
contamination issues are very great. What are you predicting, 
or what do you see in the future as it relates to the 
likelihood of a dirty bomb attack somewhere in this country?
    Comm. Talent. Well, when we started the Commission off the 
chairman and I had to make a decision about what we were going 
to get into and not get into. The problem is how to say 
something without trying to say everything.
    Mr. Dent. Right.
    Comm. Talent. Actually, models developed within the intel 
community about how to--when something becomes a weapon of mass 
destruction. There was, like, grids, you know, impact, 
disruption, death, et cetera. We made an executive decision not 
to go heavily into chem or radiological weapons, and so I just 
don't know that we are the best ones to answer that.
    Mr. Dent. Okay. That is fine. So you see it more as a 
weapon of mass disruption as----
    Comm. Talent. Yes. I mean, I agree totally with what you 
are saying, and----
    Mr. Dent [continuing]. Destruction. Okay----
    Comm. Talent [continuing]. And there is a tremendous danger 
of it. I just don't know that we are the--Bob might, out of his 
general knowledge of intel, be able to give you an answer 
whether the--to the extent that that is a specialized issue. We 
do know that, from the intel, that they are emphasizing bio as 
well as nuclear, and for all the reasons you indicate: Easier 
to get, easier to weaponize, easier to stockpile. The only 
advantage of bio over nuclear is that we can prepare for it a 
lot better.
    Mr. Dent. We can contain it a little better than nuclear.
    Comm. Talent. You are right. You have got the whole--you 
know, you have got the concepts down right and you are reading 
a great author on this subject.
    Mr. Dent. I yield back. My time is up.
    Mr. Pascrell. Thank you very much, Mr. Dent.
    Now the Chairman recognizes for 5 minutes the gentleman 
from Oregon, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Thank you two for your work.
    Just a couple of quick questions about our capabilities in 
terms of responding on biological attacks. I had brought to my 
attention by some folks from Corvallis, Oregon who are working 
with DOD that they have developed a capability, as have some of 
their competitors, to very quickly take an agent and develop, 
you know, an effective countermeasure vaccine, and they have 
demonstrated this capability. They have been working closely 
with DOD.
    I mean, I guess my question is, are we, in some places, 
making progress but we are not recognizing them over here 
because we are so fragmented? Because apparently there is a 
program called Transformational Medical Technologies Initiative 
at DOD----
    Comm. Graham. Right.
    Mr. DeFazio [continuing]. Which has been working with 
private sector folks who have come a long way in terms of being 
able to quickly respond to a diverse range of threats, but I am 
not sure that Homeland Security is aware of it or has any 
capability of digesting this or working with them. Are you----
    Comm. Graham. Sorry. Well, the answer is, I hope so, 
because we--one of the strengths of America is our 
entrepreneurship and our innovation. One of the things, 
however, we learned with the H1N1 is it is one thing to know 
what you need to have in order to have an effective 
therapeutic; it is another thing to scale it up quickly to be 
able to respond to the attack. We had 6 months' notice with 
H1N1 and we still had a period where----
    Mr. DeFazio. We are still using eggs.
    Comm. Graham. Yes.
    Mr. DeFazio. I mean, that is the problem. But this is a 
breakthrough technology that these folks have worked with which 
would not require extensive large factories and those sorts of 
things and can be rapidly replicated.
    Comm. Talent. I think you put your finger on a real 
strength that we are not taking advantage of. You know, our 
diverse country, our Federal system is a disadvantage in the 
sense that it is fragmented; it is an advantage in the sense 
that we have all these really great people out there thinking 
about things and doing things in Oregon, or in the public 
health system, whatever, but we don't--you know, the others 
don't know about it.
    Mr. DeFazio. Right.
    Comm. Talent. It is the need for integration within the 
system of decision-making. This is where, you know, you all who 
know the Government and just--you have years and years, Mr. 
DeFazio, I know you do--in thinking about how this Government 
operates, could maybe think outside the box about practical 
solutions for solving that problem.
    Now, one of the things Bob and I have talked about, and we 
have never put it in an official report, and the reason we 
haven't is because we get people coming to us, just as you do, 
just as you have home district people who say we have this 
tremendous solution and you saw them, right?
    Pick the right agency and to set up maybe a group of 
people--and this could even be experts from the outside who are 
sitting in on this--and just inviting those around the country 
who have solutions--you would have to screen it a little bit 
because you know you will get people who have developed 
something--but who have solutions to some aspect of this 
preparedness problem that is working in some context. Maybe 
their local fire protection districts picked it up or 
whatever--to bring it to this group which is then connected to 
all the other parts of the system, Federal and State, and can 
say, ``Hey, this is really a great device for 
decontamination.'' I think I have just seen decontamination 
technology out there that could probably solve this problem if 
we knew the right agency to get it to and--whether it is EPA or 
whatever.
    I think you have put your finger on a very important 
empowerment tool here. It would be a good thing for you--I am 
giving you more work, now, to do--to think in terms of how to 
do this, and maybe as this bill moves to put it in there.
    Mr. DeFazio. Right. It is an on-going frustration, and I am 
sure you had it when, you know, when you were in the Senate and 
representing folks with good ideas, is how do you connect them 
with the decision-maker, because the decision-makers are out 
there putting out an RFP somewhere to other people who haven't 
had this breakthrough, and, you know, we are floundering 
around, it just seems to me, spending a lot of money and we are 
not getting to the effective----
    Comm. Talent. There are a lot of technologies resident in 
DOD that are not being used in the rest of the system, and we 
shouldn't blame DOD. I am sitting on another panel that Bob was 
able to escape--it is the independent panel reviewing the 
Quadrennial Defense Review--and we just heard a report from the 
assistant secretary who does homeland for them. She is really 
great, and she was talking about, they have these resident 
capabilities, but then chain-of-command issues because the 
Governors want--in the event of it, the Governors want to run 
the show, and how do they do all this stuff? It is just this 
constant problem you run into of fragmentation within the 
Executive branch, and as between the Executive and the State 
and local.
    This body here and this committee is an institutional 
integrator, because everybody respects you, believe it or not, 
and people have to listen to you on a certain level. But what 
you do with that is the challenge.
    Mr. DeFazio. Yes. Thank you.
    One other quick question. This is just sort of a personal 
crusade. There is a chemical that is produced in the United 
States. It is no longer allowed for new production or broadcast 
use. It is called Compound 1080, and it is an odorless, 
colorless, antidoteless, highly-concentrated poison that is 
used for wildlife--you know, for killing wildlife and 
predators. It has been identified, you know, by both the FBI 
and DOD as a particularly high threat.
    I have been trying to get, you know, the production of this 
stuff stopped. They found some of it, if you remember, in 
containers in Iraq, you know, Saddam was apparently playing 
around with it, trying to figure out what to do with it maybe. 
You know, I think producing something like that here in the 
United States--and it is still out there in the United States--
it has been stockpiled in different places--is a real problem.
    Have you come across this, or has it been brought to your 
attention--okay. All right. Because I have had a bill----
    Comm. Talent. We have now. I mean----
    Mr. DeFazio. Yes. Okay.
    The facility that produces it has virtually no security. It 
does have sort of a dilapidated barbed-wire fence around it, 
but anyway, I would just raise that hopefully to get someone's 
attention or support for my proposal to ban the production of 
it.
    Comm. Graham. If you are looking for a homework assignment 
there are people--significant numbers of people--who start with 
the premise that biological weapons aren't capable of being 
utilized in a way that would constitute a weapon of mass 
destruction. What we encountered was, up until President Nixon, 
who terminated the U.S. development of an offensive biological 
weapons program, we probably had the best biological weapons 
program in the world in the 1960s, and it was enormously 
effective.
    If you want to get some sense of what was capable of being 
done 50 years ago you might ask for a briefing on what our own 
program was and then speculate what 50 years of further 
scientific engagement with the worst biological materials might 
have brought us to. That will keep you up at night.
    Comm. Talent. As another suggestion, if--because you all 
have to deal with this issue--learn a scenario that is relevant 
to your districts, and when you talk about it run through the 
scenario, because people get it then. I mean, the one I use is, 
St. Louis we gather on the Fourth of July at the riverfront, 
you know, to celebrate the holiday. Isolate anthrax, turn it 
into a slurry or a powder, get a pickup truck, put a shell in 
the back of it, punch a hole in the top of it and drive up and 
down Memorial Drive with a paint sprayer blowing it up in the 
air. Let the winds take it.
    I mean, Mr. King, we have seen, and Mr. Chairman, we have 
seen the modeling for New York. You know, in the summer you 
expose several million people in New York; you kill, depending 
on how effective it is, a tenth to, like, a third of that.
    Mr. Pascrell. It brings it home.
    Comm. Talent. It absolutely does.
    Mr. Pascrell. It brings it home.
    Comm. Talent. Think how many times people are gathered in 
New York over the summer for one reason or another. It is----
    Mr. Pascrell. Mr. DeFazio, thank you for your questioning. 
On target, as usual.
    I would like to turn now--the Chairman recognizes for 5 
minutes the gentleman from Texas, Mr. Olson.
    Mr. Olson. Thank you, Mr. Chairman.
    Thank you much to our witnesses for coming today. I want to 
thank you for your service as elected officials. Thank you for 
your expertise and thank you for your commitment to protect not 
only Americans but the citizens of the world.
    My question: I kind of want to follow up on some of the 
discussion we have had about the threat of India-Pakistan, and 
on a daily basis we are learning more about the threats that 
are posed by terrorist groups not in the places that are 
covered on the news, you know, India, Pakistan, Afghanistan, 
but other places, like Yemen, where al-Qaeda in the Arabian 
Peninsula, and Somalia, with the Al-Shabaab movement. They are 
no longer a regional threat. Their stated goal, as you all 
know, is to strike the United States and our allies.
    Al-Qaeda in the Arabian Peninsula has already shown some 
signs that attest--on Christmas day with the bomb on the 
aircraft, and possibly having some connections with the 
shootings in my home State of Texas at Fort Hood. My question 
to you all is, what is the likelihood that the next WMD attack 
will be from one of these groups, that it will be forthcoming 
from them and not where kind of our focus is? I appreciate your 
comments on that issue.
    Comm. Graham. I can't give you a statistical probability of 
that occurring, but I think it is certainly within the realm of 
reality. To me, one of the most frightening things about what 
happened on Christmas day is that it broke what we had assumed 
to be a relationship.
    There are about 60 of these regional or sub-regional groups 
that have an affiliation with al-Qaeda--big al-Qaeda in the 
caves of Pakistan. In the past the assumption had been that 
those affiliate groups were disciplined by big al-Qaeda and 
they would not take a major operation without approval. This 
situation in December seemed to be a break from that tradition, 
that these regional groups are starting to be self-initiating 
in their operations.
    If that is, in fact, the case, the level of risk has just 
gone up significantly, because now we don't have a small group 
of people making decisions; we have got a large group of 
people, frequently with a diverse set of motivations behind 
their actions. So whether they end up being the one who 
delivers the WMD or whether it is their older parent, it won't 
make much difference to the people who are affected by it.
    Comm. Talent. I can't say it better than the Chairman said 
it.
    Mr. Olson. Okay. Well, thank you very much.
    Just another question: You know, a lot of our focus here in 
preventing terrorist attacks is on aircraft, because that is 
how we have been attacked in the past. I represent a district 
that is within the greater Houston area, and unfortunately, I 
would argue--I could argue that we are the best target for 
terrorists to attack. I mean, we are a major city, the Nation's 
third-largest city.
    We have a port that you could, you know, drive a tanker 
very close to the downtown area, close to the urban areas. It 
is for our commerce; it is the second-largest port in our 
country. We have got a huge medical center there which serves 
the entire region, and if you were to have a biological attack 
and take out its capabilities you could have a very, very 
serious situation there.
    I guess my question is, in some of your studies are you 
seeing any evidence that the terrorists out there who--again, 
with the folks on aircraft right now as their mechanism to 
attack us--are going to get wise and realize, you know, we can 
get a tanker, you know, a tanker on a ship in the Port of 
Houston, or we can just get something across our borders. Our 
State has the largest border with Mexico, and, you know, we can 
achieve our goals not by folks on aircraft but by folks on 
these very--I think very easy ways, unfortunately, to hurt our 
country.
    In your studies do you see any evidence that the terrorists 
are actually thinking about that way of coming at us instead of 
on aircraft?
    Comm. Graham. Well, I will give you another homework 
assignment. I spent 3 weeks last summer in Great Britain in 
large part talking to their intelligence, law enforcement, 
political groups as to terrorism in United Kingdom. They have 
been dealing with terrorism much longer than we have.
    One of the things they do is they engage citizens to a much 
higher level than has been our practice. They told me a story 
about a citizen who came to an appropriate law enforcement 
agency and said, ``I think I know how a terrorist would deliver 
a weapon of mass destruction in London, or Manchester, or 
Birmingham,'' and the answer was they would do it with an 
ambulance. Why an ambulance? Because that is a vehicle that 
people tend to defer to, allowing it to get close to the target 
before detonation.
    Well, this led Scotland Yard to ask the question, ``Do we 
know where our ambulances are in the United Kingdom?'' They did 
a survey and were stunned to find out how many were unaccounted 
for.
    I would suggest you might take as a question in your own 
community, is somebody responsible for knowing the whereabouts 
of all emergency vehicles which might provide the platform for 
a relatively safe and unimpeded vehicle of mass destruction? So 
yes, I think we have tended to solve yesterday's problem.
    If a fellow named Reed gets on an airplane from London to 
Miami and has something bad in his shoes the next thing we are 
doing is having everybody take their shoes off at the airport. 
If somebody, as the man did in December, has it in his 
underwear, we are now going to take pictures of everybody's 
underwear.
    We have got to get out of this chasing the past and take a 
more futuristic approach asking, what are the most likely ways, 
not the ways that have already been shown to be used, but that 
a thoughtful, considerate, smart adversary would likely choose?
    Comm. Talent. Just a couple of quick comments. Senator 
Graham said some things that triggered some thinking.
    First of all, it is really important that we get a lot of 
this thinking and intensity level coming from the grassroots 
and local communities upward in the system. You all in Houston 
know, if you think about it and you are motivated to think 
about it, where these threats might come from better than the 
FBI is going to know sitting there in Washington.
    So this is one of the reasons we do repeat the urgency of 
the threat, keeping in mind what Ms. Harman said. This is not 
an attempt to get people to panic at all. It is so people will 
recognize a threat, get past the sense of panic or despair, and 
then just adopt it as sort of a working reality in their lives 
so that people, as they have done in Britain, as they have done 
in Houston, as they have done to some degree in New York, which 
is a leader in this, just people recognize this is part of the 
world that we have to live in.
    So somebody in Houston has got to be thinking about, how 
could this--how could they hit us here differently than they 
have done it before?
    The other point I want to mention that is related to this, 
because it is--it has to do with community action and 
preparedness: I really want to applaud the draft bill, as we 
understand it, because you raised the subject of making sure 
first responders and their families have the med kits.
    You mentioned the big hospital you have got there. Well, if 
those people are working in that hospital, if there is some 
kind of bioattack and they are worried about their families, 
then that is what they are going to pay attention to, and who 
can blame them? So we need to make certain that this group of 
people has the medical countermeasures, that they have it for 
their families at minimum.
    Then you also raised, I think, a very important issue--it 
is gutsy of you to raise it--the question of giving med kits 
out just to the general population. Under what circumstances is 
that an appropriate thing to do? I think you ought to--we ought 
to be studying that. Just particularly in certain high-risk 
cities, you know, Houston, New York, whatever, to what extent 
do we just say to people, ``You can empower yourself and your 
family by having these med kits.''
    Now, there are plusses and minuses to that, but we have got 
to be thinking outside the box and your legislation pushes the 
Secretary in the direction of studying that, and I think that 
is good.
    Mr. Pascrell. Thank you, Mr. Olson. Good questions.
    The Chairman recognizes for 5 minutes the gentlewoman from 
Texas, Ms.--I am sorry--Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you, Mr. Chairman. Thank you very 
much for your recognition and for this hearing.
    Let me thank the two co-chairs and probe Senator Graham on 
a point that you have made, and then pursue the line of 
questioning that my colleague just engaged in with respect to 
Yemen and other African nations. I think we have had this 
discussion before, even as the Homeland Security Committee was 
being crafted, and that is, what is the jurisdiction and how do 
we find a home for National security and antiterrorism efforts 
on behalf of this Nation and allow one entity to be in power?
    Senator Graham, in your testimony you mentioned the 
jurisdictional complexity that we are in, and I note that in 
grading us with a grade that most students don't want to 
receive--an ``F''--you have reform Congressional oversight to 
better address the intelligence. If you would respond to that 
along with the question of what I think is crucial, is training 
the next generation of National security experts--I am going to 
add another question in and then I will listen.
    I, too, I have just come back from Yemen and looked at it 
in two different directions. One, of course, the government's 
commitment, if at all, to nonproliferation, and I would like 
your assessment of that; but also, the social issues of large 
numbers of unemployed youth who are obviously ready targets for 
al-Qaeda recruitment.
    What role do we have to play in that aspect to quash the 
ripeness of those who are there to be engaged in terrorism, and 
what role is Saudi Arabia playing, if you are familiar with 
them completely closing the border and not, themselves, dealing 
with their neighbor in a number of ways--of course, the 
nonproliferation and al-Qaeda getting their hands on nuclear 
materials, but also, is there another way Saudi can be more 
involved in what potentially might be happening in Yemen? I 
thank you both for your presence here.
    Senator Talent, you may join in on some of those questions 
that I have asked. Thank you, again.
    Comm. Graham. Well, let me take the prerogative of picking 
one of your questions, and I will answer it, and then if 
Senator Talent would like to pick another one, and that is this 
issue of preparing the next generation of National security 
officers. I think this is a very significant issue.
    Our inquiry into 9/11--the joint House-Senate--in my 
opinion, our most important single conclusion was that the 
fundamental lapses that led to--led the intelligence community 
to be blind before 9/11 were found in the quality of people who 
were involved in their responsibilities.
    The Congress, I hope, after more than 5 years of 
procrastination, is about to pass legislation to establish what 
has been referred to as the intelligence equivalent of the 
Reserve Officer Training Corps for the military, where we will 
have a regularized process for the recruitment, preparation, 
particularly in areas of science and languages, of the next 
generation of our intelligence community leadership, and then a 
smooth process for their integration into the community. I 
think that is of extremely high importance and I am pleased 
that it looks as if it is about to happen.
    Ms. Jackson Lee. Do you think we are moving fast enough?
    Comm. Graham. Well, I think we should have done it 5 years 
ago, but better late than never.
    Ms. Jackson Lee. Senator Talent, would you take the 
jurisdictional question about whether or not we have a strong 
enough jurisdictional oversight, one place, one unified place 
on this issue, and how do we move to that? You know that is a 
challenge here in the United States Congress----
    Comm. Talent. Yes, it is.
    Ms. Jackson Lee [continuing]. House and Senate.
    Comm. Talent. While Senator Graham and I know the practical 
obstacles, and I have made this point in a number of contexts, 
I think you are exactly right to be concerned about it, and it 
takes what ought to be a real positive Congressional 
oversight--I am a believer in Congressional oversight because 
the agencies pay attention when Congress gets involved--but it 
takes what should be a positive and turns it into what I think 
we all have to admit is a negative.
    I mean, there is a reason Secretary Napolitano has 
contacted the Chairman, and Mr. Pascrell, and Mr. King to say, 
``Could you be certain to raise this issue?'' It is not because 
she--I mean, because she is hearing from her under secretaries 
and assistant secretaries that they are having to spend too 
much time in too many committees that they ought to be spending 
doing all of this other stuff we are talking about, and that is 
the practical matter.
    Now, you all know the Cabinet Secretary is the last thing 
in the world they want to have to do, is get involved with 
telling Congress how to change its internal procedures. So if 
she is doing that that means this is a big problem over there.
    I think a combination of making certain that the key 
committee staff people and Chairmen and Members on the 
committees here have got these threat briefings so they know 
this is the security of the country at stake, this is not a 
fight over a typical oversight issue, and then if we can make 
the problem their problem--in dealing with the Congress, once 
you get the other person to accept the fact, this is a problem 
I have to participate in solving, I can't just be an obstacle 
to solutions.
    Ms. Jackson Lee. So you think one department should be 
strengthened with--such as Homeland Security?
    Comm. Talent. Within the Executive branch, yes. Then here 
in the Congress I think a committee should be--and it is easy 
for us to say here because it ought to be this committee. I 
mean, we are not testifying now before Judiciary or something 
where we would have to tell them, you probably need to give 
something up.
    I agree completely with what you and Senator Graham were 
saying about, within--experts within intel.
    Let me add one comment, because it is relevant to your 
other point, ma'am. In order to get the kind of workforce that 
we need, they are going to have to be empowered to move more 
quickly in setting up this reserve and hiring people. That 
means they are going to have to cut down on some of this 
review, you know, so that they--think about this: You get a 
great person graduating from, you know, you pick it, some great 
school, and they have studies in this area and they know it, 
and the CIA wants to hire them.
    Now they have got to get--go through clearances and this 
stuff, it takes a year. Well, what top-notch person is going to 
sit around for a year waiting to see whether an offer can be 
made? So we are going to have to shorten that procedure of 
time. That means there is a possibility some mistakes could get 
made if you are hiring hundreds of people.
    I think it is important, Mr. Chairman, that this committee 
and the Intelligence Committee, if a mistake occurs that way, 
unless somebody clearly was negligent, that you not play gotcha 
with them. Don't have a hearing and then hammer on them. You 
see what I am saying? Then back them up, because we are going 
to have some mistakes of commission rather than omission.
    Mr. Pascrell. Thank you. Thank you very much.
    Thank you, Ms. Jackson Lee, for your questions.
    Ms. Jackson Lee. I thank you. I just want to conclude to 
you, Mr. Chairman, and say that I think Yemen is an important 
issue for this committee. Several Members have been and I hope 
the committee will--I didn't hear their answer on that, but I 
hope the committee will also have input on that as we go--the 
Commission, rather, as we go forward.
    Thank you. I yield back.
    Mr. Pascrell. The Chairman now recognizes for 5 minutes the 
gentleman from the great State of Alabama, Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Thank you both for being here. This has been a really good 
hearing, and I agree with Mr. Carney, it is unfortunate that we 
don't have the same media attention for what you have had to 
say that we had for the Salahis, which was just a joke.
    But I want to talk, obviously, first about something that 
you said, Senator Graham, earlier to Ms. Harman about how we 
get this jurisdiction issue resolved. I think it is going to 
take people like you, who don't have a dog in the fight, to 
help push this issue with the administration. Secretary 
Napolitano has talked with us, and she is just--it is a real 
problem, as you just said, Secretary--Senator Talent.
    But I was pleased after the Christmas day bombing when Lee 
Hamilton was interviewed the next day, and this is one of the 
things he mentioned. He said it is time for the Congress to 
have the political will to implement that last 9/11 Commission 
recommendation on jurisdiction, because we have this diluted 
focus right now in the House as a result of this jurisdictional 
problem. So I hope that Lee Hamilton and Tom Kean will do what 
I am asking you to do, and that is communicate to the President 
and to the Speaker, this is an issue that does not need to be 
left undealt with.
    But having said all that, I want to talk about rural 
preparedness and mass evacuation. I have the Center for 
Domestic Preparedness in my district. It is the only facility 
in the country that trains first responders as to how to deal 
with an attack of mass destruction, and it is a great facility.
    One of my concerns, as being a Member who represents a 
rural Congressional district, is that we don't push that 
training out into rural America, because I am of the opinion 
that when there is an attack in a major urban area--and I don't 
think it is just going to be New York, New Jersey; could be St. 
Louis, or it could be Birmingham, Alabama, or Charlotte, North 
Carolina, or financial hubs of the region, these people are 
going to be evacuated out into rural America to get them out of 
there.
    While we are doing some work in this area and training 
first responders, I don't think we are pushing that training 
out into rural America.
    I have been an advocate to try to get the Center for 
Domestic Preparedness funded to take that training to rural 
America, because a general rule in rural America, as you know 
in Florida, and I know you know in Missouri, it is volunteers 
that are working in these fire and rescue departments, and they 
can't leave and take 2 weeks to go to the Center for this free 
training because they can't leave their jobs. They are not a 
professional firefighter. So anything that you could do to help 
let the Department know that you think this is an area 
unattended to I think would be beneficial.
    I am pleased that at the Center they also have the Noble 
training facility--Noble Hospital--which trains, as you talked 
about a few minutes ago, these hospital workers, if there is an 
attack, they could be thinking about their loved ones. We are 
trying to deal with that and trying to bring hospital 
administrators as well as caregivers in and train them as to 
what it is going to be like, what the environment is going to 
be like.
    It is very state-of-the-art, but we need more messaging to 
get that information out there. We need more hospitals to 
recognize that it could be them that has this problem and they 
need to be prepared to deal with it.
    But having said that, do you think that there is enough 
being done in the way of preparedness in rural America for the 
mass evacuations out of an urban center after an attack?
    Comm. Graham. I guess I am not aware of any comprehensive 
planning for that eventuality. So that would lead me to say 
that no, we have not assessed where these urban populations are 
likely to go in the aftermath of such an attack.
    States like yours and mine, which have had some experience 
with evacuations for hurricanes, know what those circumstances 
are, and they would be much more difficult if the reason for 
the evacuation was a man-made nuclear or biological attack 
rather than nature giving us a hurricane. I think you put your 
finger on an important issue, and one that I think would be 
worthy of some further exploration by this committee, to 
heighten the sensitivity of the appropriate Federal agencies to 
this likelihood.
    Mr. Rogers. Well, I was pleased in your earlier answers to 
questions to see you all both recognize that we have a real 
problem, and you talked about the funding with Ms. Harman--the 
inadequate funding for health care providers in the--to prepare 
them for training.
    I don't know if you all were aware, but I talked with Mr. 
Carney and Ms. Richardson, who both chair subcommittees in this 
full committee, there has been an effort internally within the 
Department to basically dismantle the Office of Health Affairs, 
which we spent 5 years configuring to deal exactly with what 
you are talking about. Fortunately, in the last couple of weeks 
Secretary Napolitano came in and stopped that effort. But it is 
important that we remember that that is a critical element of 
being prepared to respond to a weapon of mass destruction 
attack.
    Comm. Talent. I think ``we don't know'' is the question. I 
mean, you say, ``Are we prepared enough?'' I would answer, 
``No,'' but then I would also answer, ``We don't know.''
    You know, I was approached by some people locally in 
Missouri who explained to me that our technology, in terms of 
organizational directories--just very simple of these various 
first responder groups--is so unsophisticated and so poorly 
linked together that they don't know what capabilities their 
fellows--their brothers and sisters in the same service have.
    So the fire protection districts in suburban St. Louis 
don't know, if there is a disaster, what fire trucks, or hazmat 
outfits, or diving outfits are available around the State of 
Missouri, and there is no easy way to find out except pick up 
the phone and call the chiefs.
    So we don't know, and if you don't know how can you 
structure a plan where you are engaging? Because an intelligent 
plan would probably say, ``Well, we don't need to train 
everybody in every rural fire protection outfit about 
everything, but we ought to have some of them trained in some 
things so that they can contribute and help in the event of a 
disaster in Birmingham, or whatever.''
    We don't know, and that is the lack of integration and 
fragmentation that is such a huge issue. So, you know, failing 
that, yes, you have got to keep these organizations alive so 
you can keep these folks in the game. I mean, I would agree 
with you.
    On the jurisdictional, let me just--I am sitting here 
thinking about the ideas we have had. Maybe this is not the 
place to air a plan, maybe I should be more secret about it. 
But if you all had a hearing where you encouraged Secretary 
Napolitano to testify as to the practical consequences--and 
maybe you have already done this--and the President just 
privately let her know that even though she would take some 
flack from some other people for it, that he would support her 
in it, and then you guys came up with a resolution for both the 
caucus--the Democratic Caucus and the Republican Conference at 
the beginning of the next--where you got up and offered a 
resolution instructing the leadership, and maybe they knew 
about it beforehand and privately supported you, to come up 
with a solution and put it to the Members in both parties----
    Mr. Rogers. That is a good idea.
    Comm. Talent [continuing]. And just let them, you know, let 
them vote on it, you know, in the context of some publicity 
and, you know, do you want a solution to this or not? At a 
certain point the people are blocking this, and I understand 
that. I mean, I was a committee Chairman; I was there for the--
you know, I know all that, but at a certain point they are 
going to say, ``You know what? The reasons to do this are 
beginning to outweigh the reasons not to do it.''
    Mr. Rogers. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Pascrell. Thank you, Mr. Rogers. I think encouraging 
points you brought up, and the response from the panel is very, 
very, very important.
    We have to bite the bullet on turf. We are so frightened to 
go near that issue. Thank you for your encouragement.
    Comm. Talent. It is easy for me. I don't have to stand----
    Mr. Pascrell. Leader King and myself have been talking 
about this for many, many moons, but now we have a Secretary 
finally coming forth and saying she really wants to work with 
us, so----
    The Chairman now recognizes for 5 minutes the gentlewoman 
from Nevada, Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    Thank you, Senators, for taking time to come and talk to us 
about this important topic of keeping Americans safe, and our 
allies and people around the world. I represent southern 
Nevada, and----
    Comm. Graham. I gathered that.
    [Laughter.]
    Ms. Titus. We have 450,000 hotel rooms in some of the 
largest hotels in the world, and they are like small 
communities unto themselves. I know that your report you stress 
the need for increased involvement from individuals 
communities, and I think we are moving towards that, and I am 
very pleased that we are going to be working on this 
legislation.
    But something that I see that is missing that I would ask 
your advice on is how do we involve the private sector as we 
move forward? I know that is not on your score card, but could 
you give us some advice that we might take into account as we 
draw up this legislation, and also tell us how you think we are 
doing on that measure, if we are doing anything at all?
    Comm. Graham. There is an organization--it is called BENS, 
that is the Business Executives for National Security--which 
has as its mission to bring the private sector into these 
issues of homeland and National security, and our assessment 
was they had done a very excellent job where they had been 
employed to do this, and I use the word--not that they were 
hired, but that they were engaged.
    I would suggest that might be a place for you to start to 
have a conversation between the business community of southern 
Nevada and this BENS organization to see how they might be able 
to work together. They bring a lot of expertise to the table.
    Comm. Talent. I was going to say, Congresswoman, that I 
think a key to this is that private actors need to know that 
the partnership model is going to be followed, rather than the 
adversarial model. So, for--and your legislation reflects that, 
for example, in the lab regulation.
    People who are running these high-containment labs, yes, it 
is a potential security problem, which we recognize in our 
report; it is also the answer to the problem, because they are 
the ones developing the research, the life-saving 
countermeasures, and they need to know that their regulators 
are not going to treat them like the enemy, okay, that they are 
going to partner with them, unless they have some reason.
    Now, obviously if you discover some security risk or 
something, and I would say this the same thing with the 
businesses that import and export pathogens, et cetera, they 
all--all the people leading this that we run into want to be 
part of the solution. So if they are treated as partners, if 
you have negotiated rulemaking, if you include them in on 
this--this would include the travel and tourism community.
    You know, you don't want the Government to hand down from 
on high, ``This is what you now have to do.'' You know, you 
want to include them in as partners rather than as adversaries. 
I think that is a very important model and an important signal 
for you all to send to the Executive branch.
    Ms. Titus. Well, I say that it is especially important in 
the hospitality industry. Nobody has better security than we 
have in Las Vegas, so we should be taking advantage of some of 
that expertise.
    On the other hand, when you are on holiday you are away 
from home and so you have less awareness of what resources are 
available, what road to take to get out of town, where you can 
access evacuation points, all of that, so having the 
hospitality industry involved--and I will look at the BENS 
group, too--I think would be very important and useful to us.
    Thank you.
    Mr. Pascrell. Thank you, Ms. Titus.
    Before I ask a question, Peter King has a question.
    Mr. King. I am going to have to leave in a second, so I 
appreciate the Chairman giving me this.
    I would just ask Chairman Graham and Chairman Talent if you 
can get back to us on this: In the Lieberman-Collins bill in 
the Senate they seem to focus more on the international aspect 
than we are so far in our legislation. Is that going to be very 
costly? You mentioned the OMB before.
    But if you could just get back to us, take a look at their 
bill, with how significant you think it is that maybe we should 
expand more of an international component, or should we try and 
get what we can by focusing domestically? So if you would just 
take a look at that for us I would appreciate your input. Thank 
you.
    Mr. Pascrell. Thank you, Peter King.
    It has always been my belief that if our State and local 
officials are not an integral part of our homeland security 
strategy--both pointed this out many, many times--then we have 
no such thing as homeland security. All we have then are some 
fancy bureaucratic plans, because the great majority of our 
first responders, the people who actually help prevent and 
respond to emergencies, are at the State and local levels. They 
are there first, before the Federal Government is involved, 
before anybody is involved; they will be the first to be 
moving.
    That is exactly why Mr. King and I made State and local 
coordination an integral part of weapons of mass destruction 
legislation, both at the preparedness and response levels. I 
would like you both to comment on your thoughts on this issue, 
especially in regards to the need for this coordination both 
before and after a possible weapons of mass destruction attack, 
be it nuclear, biological, radiological, chemical, whatever.
    Senator Graham.
    Comm. Graham. Yes. I could not agree with you more. It is 
particularly true on the biological aspect because the public 
health service, which is in most areas a combination of State 
and local responsibility, will play such an absolutely central 
role that is illustrative of the broader issue of coordination 
of State and local with the Federal partnership.
    When we gave an ``F'' to our response capability we were 
giving an ``F'' to the Nation, not to one level of government, 
because we think that fundamental failure has been the failure 
to develop a means by which all of the critical elements that 
are actually going to be out there and will make a difference 
on the ground, life or death, for people who have been 
impacted--how effectively they will understand their mission, 
be able to execute their mission and not stumble over each 
other or leave gaps of unprotected people.
    Comm. Talent. I would agree, and I think this is an area, 
Mr. Chairman, where we could do a lot informally as between 
leaders. If, for example, Secretary Napolitano, or the DNI, or 
somebody presented at a National Government's Association 
meeting, and to emphasize the nature of this threat, so to say 
to the Governors, ``Look, you are an integral part of this. We 
are going to recognize that, but we need you to make certain 
that your offices don't treat this as a business-as-usual 
thing. This is not an excuse for you to cut your public health 
spending and hope that you can get Federal dollars to replace 
it.''
    So once you get to the top--the Governors themselves and 
say, ``This is going to be a National effort; you are an 
important part of it,'' you need to recognize personally and 
make sure your key people recognize that this has to be 
reflected in State priorities as well as Federal. I think that 
is own for their seat at the table, but that is informal. It is 
not something you legislate, it is just something that--as 
between leaders ought to occur.
    Mr. Pascrell. You pointed out earlier, and we have been 
there several times, that how they approach these particular 
sensitive, urgent issues in England is very different than we 
approach it here. It would seem to me--I have come to this 
conclusion; I don't know if my good friend, Mr. Lungren, would 
agree with me--that there is a bottom-up approach, that you are 
looking at the folks who are on duty in the local level to 
foster ideas so that they really focus, and this is really 
homeland security.
    I have got one other quick area, and then we will ask Mr. 
Lungren if he has any questions.
    We have neglected, I think, looking at how our vaccination 
policy plays in our deterrence for the effects of a possible 
biological attack. You and I both agree--I think we do--that 
the next attack will be biological. We expect it to be between 
now and 2013.
    Our legislation, that Peter--Mr. King and I have been 
working on diligently, with your staff and everybody else's 
staff, calls for the Secretary of Health and Human Services to 
review the adequacy of vaccination and antimicrobial 
distribution policies, guidance and information provided to the 
public in light of known biological threats to the United 
States.
    Realizing we can't vaccinate everybody against every 
possible disease, I think we should at least let the first 
responder community volunteer to get immunized against those 
biological agents we have been told pose material threats to 
the United States. Do you agree with that? In addition to HHS, 
who else do you think should be involved in reviewing our 
vaccine policy?
    Comm. Graham. Mr. Chairman, could I ask your indulgence? I 
am afraid I have a commitment this afternoon in New York and I 
have got to catch a plane, which is going to leave without me 
unless I leave fairly soon. So if I could conclude by 
expressing my appreciation for the opportunity that you 
afforded this, and Senator Talent has indicated that he can 
stay----
    Comm. Talent. Decidedly the ``B Team,'' but willing to stay 
for you or Mr. Lungren if you like.
    Mr. Pascrell. Great. I would appreciate that very much.
    I really want to thank you, Senator Graham. Your 
contributions before and now to this Nation--your service has 
been impeccable, and we want you to catch that plane, but we 
are going to be talking as we go along and finishing this bill. 
Thank you.
    Comm. Graham. We look forward to that very much, and thank 
you for your leadership.
    Mr. Pascrell. Thank you, sir.
    Comm. Talent. Yes, you have put your finger on a real 
problem, Mr. Chairman, and we have talked a lot about this. I 
mean, we are still making vaccines using chicken eggs. I don't 
know if your staff has informed you, we actually--Senator 
Graham actually did a video on it, which was quite an 
experience.
    You know, we had 6 months' notice with H1N1, and we didn't 
have enough vaccine, which is like, just, it is incredible. 
Now, I think it is very important that we do what you talked 
about, that we make certain the first responder community has 
whatever medical countermeasures we can come up with to protect 
them so they feel secure and, you know, can then do their job 
of protecting the rest of us in the even of an attack.
    You do raise an issue here, which is--I think you are 
raising this issue, if I understand your question correctly--
should we expedite procedures, for example, with FDA approval 
to get them these vaccines quicker?
    Mr. Pascrell. Right.
    Comm. Talent. You know, that is a controversial subject. We 
did that with anthrax and there have been some issues involved 
with it.
    I think we need a decision-making structure where that is 
an open possibility to be decided on a case-by-case basis. You 
know, I think it depends on how crucial it is, how high-risk 
this population is, how much--how far along FDA is. I think it 
depends on a series of things.
    But we need a decision-making structure so that somebody is 
capable of saying, ``Yes, we need to let this go and do this in 
this instance with regard to this drug.'' We don't really have 
that.
    Now, we are putting some pretty high hopes in the review 
that is going on now in the Executive branch. We think they are 
energized, and I am certain you and the staff on the committee 
are watching it, so let's see what they come up with, is what I 
would say to you, which should be completed pretty quickly, 
shouldn't it?
    So let's see what happens, but it is a crucial issue. You 
are right, we have to have this first responder community 
protected or they are not going to be able to protect us.
    Mr. Pascrell. Thank you very much.
    The Chairman recognizes for 5 minutes the gentleman from 
California, Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman. I am sorry 
I missed a good deal of the proceedings, but I was handling the 
suspension bill that was honoring the 10th year of Father 
Coughlin as our chaplain, and there were a lot of people 
speaking, including the Speaker, so it took me more time than I 
thought. So I thank you.
    If I had a lot of time I could address each question with a 
different manner of referring to Mr. Vice President Talent, 
there. I could call him Senator, I could call him Congressman, 
I could call him Leader, I could call him Chairman, but I know 
we don't have enough time so I will just call him----
    Comm. Talent. Jim is fine.
    Mr. Lungren [continuing]. Jim.
    You mentioned early on about the failure of the Congress 
where we got a big ``F'' on reorganizing ourselves, and you 
briefly mentioned opportunity costs lost. Could you just tell 
us what you mean by that?
    Comm. Talent. Sure. The negative of it is that people in 
the Executive branch have to spend too much time before too 
many committees and subcommittees, so that is the area where 
damage is positively done to what they are trying to do----
    Mr. Lungren. It is not just testifying; it is all the 
preparation of testimony, going over it and getting other staff 
to do it, and so forth.
    Comm. Talent. So you would become an obstructive force, 
let's just be--not you, but the institution. Then the positive 
does not happen because you don't have clear channels of 
oversight.
    Nobody from this authorizing committee was there when the 
stimulus bill, which, again, forget about what you think of it 
as economic policy, this was an opportunity to fund a lot of 
this stuff and there wasn't anybody there to go to Mr. Obey and 
his people, and Jerry Lewis and his people and say, ``Look, you 
have got to make certain this money is in there,'' because 
nobody had the clear responsibility; whereas, had it been a DOD 
priority you would have had Mr. Skelton there, and the Ranking 
Member there, and somebody would have done it.
    We all know how this place operates. If everybody has 
responsibility over something nobody has responsibility, and so 
it doesn't get done. You were right to point it out.
    We are not just saying it because Congress is an easy 
target for commissions like us. I will say one other thing to 
you, Mr. Lungren. Within this community of bipartisan 
commissions, and I am sort of operating in this world now, 
there is an increasing sense of resolution that they are going 
to keep hitting this institution with this issue. I mean, the 
political cost to you all of continuing not to do anything is 
going to go up.
    I am on other commissions, because everybody is saying it 
is time for you guys to get with it. Again, I don't mean you 
personally, I mean as an institution----
    Mr. Lungren. Well, you should mean us personally, because 
the institution is made up of Members and we have found the 
enemy. We found the enemy and he is us.
    Comm. Talent. Yes.
    Mr. Lungren. That is not because the Democrats are in 
control; it happened when the Republicans were in control. 
Whatever happens in November, I hope we are going to have an 
absolute dedication to the proposition that we ought to fix it 
and fix it right, because in response to the threat that you 
talk about, to have Congress with institutional prerogatives, 
and protections, and parochialism makes no sense whatsoever.
    Let me ask you this other thing: Senator Graham mentioned 
that a biological attack could render 500,000 Americans dead.
    Comm. Talent. Yes.
    Mr. Lungren. Is that an exaggeration or is that an----
    Comm. Talent. No. Again, if you have not had it I would 
encourage you, and maybe as a committee--Mr. Pascrell, you and 
Mr. King could arrange this easily--get the briefing, the DHS 
modeling an anthrax attack on New York, and that is----
    Mr. Lungren. So we are talking about a half a million 
people, potentially, which I consider to be a huge attack----
    Comm. Talent. Oh, it would be----
    Mr. Lungren [continuing]. Which would be more devastating 
than any single attack that has ever been made on American 
soil.
    Comm. Talent. Mr. Lungren, you have got to understand from 
their point of view, they have a strategy to win this thing. 
They--I know it is hard to define them. But to use asymmetric 
weapons to hit us at vulnerable points and basically force us 
to stop resisting whatever it is they want, you know, they 
don't really know.
    So you hit New York with that, let's say, and I don't like 
to pick New York. It could be St. Louis; it could be Houston. 
You hit them with it and----
    Mr. Lungren. Could even be in the West. We are sometimes 
forgotten here, but, you know, there is something west of the 
Mississippi.
    Comm. Talent. One of the things they have told us is that 
the further west you go the less conscious the local leadership 
is of this, unfortunately. You might want to check in Los 
Angeles, and San Francisco, and places. Yes, it could be Los 
Angeles.
    So you hit a California city with it and then a month later 
you hit it again. You kill an American city. Now, how long do 
we continue the struggle against them? I mean, the last time a 
weapon of mass destruction was actually used in a war the 
country it was used against surrendered within a week.
    Now, this is their thinking, okay? We may not think of it 
in these terms, but they think of it in these terms.
    Mr. Lungren. That could come from both a transnational 
terrorist organization or a rogue nation that has utilized 
terror as its purpose and its----
    Comm. Talent. It is used us as the stumbling block, or is 
upset with how----
    Mr. Lungren. Okay, well then I would just ask you this: In 
anywhere in your report did you suggest it would be good 
National policy for us to say that we would unilaterally decide 
not to use a nuclear response is someone used chemical or 
biological attack on us?
    Comm. Talent. Did we address declaratory policy in the 
report, do you know? No, you don't know, or no, we didn't?
    I don't think we addressed declaratory policy. Bob and I 
are careful not to go outside the four corners of the report, 
even though he and I, obviously, as individuals have opinions 
about all this.
    Mr. Lungren. But it is just interesting that we talk about 
deterrence and we talk about all prevention and deterrence, 
which means that you prevent the other side from attacking or 
you deter them from attacking, and for 50 or 60 years we have 
had a nuclear deterrence even though I think most of us would 
agree that we can bring down our stockpile. That deterrence has 
worked fairly well nuclear-to-nuclear, and when you tell me of 
the devastating impact of a single biological or chemical 
attack on the United States, in my view that is equivalent to 
the threat of using a nuclear weapon.
    It is a different weapon but it is equivalent, and I just 
question whether we ought to then say we will refrain from 
using a retaliatory weapon that we have had, as much as no one 
knows what the scenario would be. So that is why I was just 
trying to figure out what you think the dimensions are, and I 
just wanted to make sure we are not exaggerating when we talk 
about a half a million people that could be lost with a single 
attack.
    Comm. Talent. We are not exaggerating. Look, I will take my 
hat off as the vice chairman and just put on the Jim Talent 
hat.
    I don't think we should leave any doubt in our declaratory 
policy that that is an option that is on the table. Now, 
whether the changes leave that doubt or not, you know, I leave 
up to you all to decide. That is my own opinion.
    One of the things that, in communicating about this in the 
district, that is so important, I think, to get across to 
community leaders and just average Americans or voters is that 
deterrence in the traditional concept doesn't work against a 
terrorist because they don't have a national base that you can 
respond against. I mean, now, you are right--if we can assign a 
national actor, if we can use the forensics and figure out, 
then we can deter them.
    But it may not come that way. It may just be al-Qaeda on 
their own, and what do you do? I mean, what are you going to 
blow up?
    Mr. Lungren. It is also difficult when an enemy says that 
if you kill them you have given them the greatest path to 
immortality that they can have. I mean, deterrence usually 
works well with someone who doesn't want to die.
    Comm. Talent. Right.
    Mr. Lungren. Although I have noticed that most of the 
leaders of al-Qaeda themselves don't want to die, they want all 
their followers to die.
    Comm. Talent. It works when you have a clear, I mean, enemy 
or other party that you are dealing with, when it is bilateral 
rather than multilateral----
    Mr. Lungren. Right.
    Comm. Talent [continuing]. When you have secure lines of 
communication so the policy is clear. In short, when there are 
a lot of things present that are not present here, which is why 
our ability to deter this is much weakened regardless of what 
declaratory policy says to end.
    Mr. Lungren. I thank you for your testimony. I thank----
    Mr. Pascrell. Thank you, Mr. Lungren. Thank you for your 
questions.
    We do have to get a list, and the DHS--Department of 
Homeland Security--does submit a list of priorities at budget 
time. This was not a priority.
    So we get our, you know, priorities out of whack here, we 
have got major problems. We are more concerned about--and I am 
not saying this is not important, but choices had to be made--
we spent more money ``fixing the border.''
    Secondly, your point is very well taken about, this is not 
nation-to-nation when we are talking about terror. It doesn't 
necessarily have to be and it hasn't been. But homegrown terror 
is just as onerous, and we need to take a look at that a lot 
more closely because that is an issue that we are afraid to 
talk about, literally speaking.
    I want to thank you for your testimony today, Senator 
Talent. Having worked with you in the past when you were here I 
know that you are dedicated to the protection of America--the 
United States of America. I know that you and Senator Graham 
really worked, put a lot of time in the last couple years along 
with your staff members.
    We are trying to work in the spirit with which you provided 
us, and that is why we do not live in a cocoon, but rather, we 
are trying to talk to everybody--the Homeland Security staff, 
your staff, the 9/11 Commission staff, professionals in the 
field, in order to come up with legislation that is going to be 
meaningful and logical so that we do approach this with the six 
major categories that you laid out. I think that is important 
and I think that is significant.
    A lot of food for thought today for every one of the 
Members. I know some had to come in--well, you know how it 
works.
    Comm. Talent. Right.
    Mr. Pascrell. We have a lot more Members in the beginning.
    But we hope that within the next couple of weeks the bill 
will be completed, and we hope it meets with your approval. So, 
there being no additional witnesses I am going to ask--we might 
have some questions that the Members didn't ask, you know, we 
will provide to you and we hope that you would respond 
expeditiously.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 12:32 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

   Questions From Chairman Bennie G. Thompson of Mississippi for Bob 
                         Graham and Jim Talent
    Question 1. In your view, does the intelligence community have 
adequate resources and capabilities to identify and thwart a biological 
attack?
    Answer. Regarding the identification aspect of your question, both 
the intelligence community and the Departments of Homeland Security and 
Defense have clearly ``identified'' the threat of bioterrorism, 
however, thwarting (preventing) an attack is a low probability event, 
no matter how much we spend on intelligence efforts.
    With a large percentage of our intelligence resources focused on 
the Soviet Union during the 1970s and 1980s, we failed to adequately 
detect a massive offensive bioweapons program in the Soviet Union that 
included 50,000 scientists and technicians working in scores of 
facilities spread across 12 time zones. The intelligence community 
failed to properly identify both the intent and capability of the 
Soviet's BW program. Furthermore, we now know that al-Qaeda began their 
bioweapons program in the late 1990s with two labs in Afghanistan and 
one in Malaysia. Once again, the intelligence community failed to 
identify both intent and capability prior to DoD's discovery of the two 
labs in Afghanistan after 9/11.
    While it is important that bioterrorism remain a high priority for 
the intelligence community, we must also realize that we will most 
likely have only strategic warning of an attack, not tactical warning. 
We can achieve higher quality of strategic warning, and perhaps 
tactical warning, by ensuring that the intelligence community has the 
top-quality scientific staff required to properly analyze the emerging 
threat of hi-tech bioweapons through better use of human and open 
source intelligence.
    Tactical warning, however, is highly unlikely. This was 
demonstrated in 1999 by a Defense Threat Reduction Agency program 
called Biotechnology Activity Characterization by Unconventional 
Signatures (BACUS). Nuclear programs and large-scale chemical programs 
produce large intelligence signatures. BACUS demonstrated that there 
would be virtually no intelligence signature for a bioweapons program--
a program capable of producing enough weaponized pathogens to attack a 
dozen American cities.
    Al-Qaeda's stated intent to kill large numbers of Americans, 
combined with the facts that virtually all likely bioterrorism 
pathogens are available in nature and that the biotechnical revolution 
now gives non-state actors the technical capability required to produce 
and deliver sophisticated bioweapons, led the WMD Commission to the 
conclusion that America's primary defense against bioterrorism is 
robust response capability. Major improvements in response capabilities 
not only limits the effect of an attack, it also serves as a deterrent.
    Bottom line: The best way to improve America's intelligence 
capabilities against the bioterrorism threat is to provide the IC with 
an increase in highly-qualified personnel dedicated to this mission. As 
we stated in World At Risk (recommendation 10), ``highly-qualified'' 
includes people with appropriate language/cultural knowledge and 
scientific/technical skills.
    Note: We suggest all Members of this committee receive a briefing 
on the Population Threat Assessment from the Department of Homeland 
Security Office of Science and Technology. We also suggest all Members 
receive a briefing on the former U.S. offensive bioweapons program to 
better understand the capabilities of bioweapons.
    Question 2. As of today, do you believe that the intelligence 
community has enough baseline information about terrorist actors, their 
claims, and plans to conduct WMD attacks against the Nation?
    If not, what should the intelligence community be doing 
differently?
    Answer. We cannot fully answer this question in an unclassified 
format, however, our answer to question No. 1 addresses much of this 
issue.
    Question 3. The Department of Homeland Security conducts a number 
of risk assessments, including the BioTerrorism Risk Assessment (BTRA). 
The National Academy of Science has identified a number of fundamental 
concerns with the BTRA, ranging from mathematical and statistical 
mistakes that have corrupted results to more basic questions about how 
terrorist behavior should be modeled. Do you share the National 
Academy's concerns? What do you think can be done to overcome these 
problems?
    Answer. The best thinking needs to be brought to bear in assessing 
the bioterrorism threat, as well as determining the best use of 
resources for countering it. Therefore, we believe that the BTRA should 
be subject to rigorous peer review and objective analysis, as occurred 
in the 2006 NAS report.
    Our understanding is that many of the NAS concerns have been 
addressed, or are in the process of being addressed. DHS is investing 
in adversary behavior modeling and, most importantly, peer review has 
been institutionalized in the BTRA. The 2010 BTRA underwent an 
extensive, refereed 10-week review process which included external 
professional reviewers. In general, we believe that transparency should 
continue to be encouraged so that DHS has ready access to the 
scientific talent outside of the agency to ensure that the modeling 
methods employed are cutting edge and useful. For example, some of the 
DHS findings were briefed at the Los Alamos National Laboratories Risk 
Analysis for National Security Applications Meeting in April and the 
Society for Risk Analysis meeting in December. These types of 
activities should be strongly encouraged in the future.
    Question 4a. First responders have been asking for specific 
guidance regarding what to do when responding to WMD attacks for some 
time. For instance, in response to a dirty bomb attack, questions have 
been asked as to whether law enforcement should ``scoop and run out'' 
with injured people or whether EMS should be called in to ``treat in 
place''. Do you believe that is the responsibility of the Department of 
Homeland Security to develop and distribute this guidance?
    Answer. Absolutely. One of the most valuable things DHS can provide 
first responders is knowledge, particularly knowledge of issues 
involved with low probability, high consequence events such as WMDs. 
Much of this information comes from our National laboratories. DHS can 
take this highly technical, scientific information and put it in a 
format useful to those working on the front lines of homeland security.
    DHS will soon release version 2 of Planning Guidance for Response 
to a Nuclear Detonation. Version 1 of this document provides valuable 
information to first responders regarding response to an improvised 
nuclear device (IND). This document was produced by an interagency team 
and backed up with hard science from years of work at our National 
labs. The real value of this document was the practical advice that was 
included. For instance, first responders will want to rescue people 
following an IND, but there will be great concern about how close they 
can get to ground zero without causing severe risks to themselves. This 
document provided clear guidelines, such as: If more than half of the 
windows have been blown out of a concrete building, it is likely to be 
``too hot'' (radiological risk) to enter that area. The document also 
provided valuable information on what equipment would be most needed in 
the first hours after an IND explosion--snow plows. Not really 
intuitive, but critical equipment to clear the rubble out of streets.
    This sort of document should be produced for all DHS planning 
scenarios. Most notably, it does not exist for biological attacks--part 
of the reason the WMD Commission gave an ``F'' for bio-response 
capability.
    Question 4b. Do you agree that the Department should develop such 
guidance in coordination with first responders?
    Answer. Yes, without question. The National Response Framework was 
a major improvement over the National Response Plan because DHS 
solicited input from first responders, and incorporated their inputs 
into the final document.
    Question 5a. Together with the authorization for your Commission, 
we authorized the DHS National Biosurveillance Integration Center 
(NBIC) in the 9/11 Act. Our vision was for this Center to receive and 
integrate input from 13 different Federal Departments and agencies 
(including DHS) to provide a common biosurveillance picture. 
Unfortunately, over the past 3 years, participation by other agencies 
has been minimal and the products paltry. Given your extensive 
political experience and knowledge of workings of the Federal 
bureaucracy, would you agree that it is time for us to mandate the 
participation of these Federal Departments and agencies in the NBIC?
    Question 5b. How do you believe the NBIC could be made efficient, 
productive, and valuable?
    Answer. In order to accurately detect and manage biological 
threats, multiple data sources need to be integrated and analyzed at 
the National level. A prime demonstration of why this is important 
occurred during a 2008 outbreak of salmonella in the United States that 
sickened nearly 1,500 people. The true cause of the outbreak--
jalapenos--was determined only when shipping manifests became available 
to public health authorities. Before that private sector information 
was available, public health authorities believed tomatoes were the 
culprit. That misdiagnosis resulted in hundreds of millions of dollars 
in losses to the tomato industry. This incident also demonstrates that 
the private sector should have a clear interest in sharing as much 
information as possible with public health authorities to avoid harmful 
mistakes.
    What is most important about NBIC is that it is a place where 
information from agencies can be integrated. Unfortunately, it does not 
appear that Federal agencies see the ``value added'' in providing data 
and analysts to NBIC. While participation could be mandated, that is 
not likely to sustain collaboration, and it may result in agencies 
sending junior staff there without giving NBIC the attention it 
deserves. For NBIC to be successful, it should provide added value to 
the agencies, such as providing access to data or analytical 
capabilities, which would facilitate the work of individual agencies, 
or NBIC could provide tools to support multi-agency investigations, 
such as outbreaks of zoonotic diseases or food contamination events.
    Many successful Federal biosurveillance systems rely on voluntary 
data sharing. The National Notifiable Diseases Surveillance system is a 
Federated system that conducts surveillance for a wide range of 
important diseases, including novel influenza strains, anthrax, and 
food-borne illnesses. States participate voluntarily because they value 
access to the CDC's aggregated data and analysis. NBIC should heed this 
example.
    Question 6. In your testimony, you said that the funding level for 
the Biomedical Advanced Research and Development Act (BARDA) is not 
sufficient. Can you please comment on the current funding level for 
BARDA and why you believe it is important that the funding be 
increased? Specifically, where should we be dedicating new resources?
    Answer. BARDA is one of our Nation's first lines of defense against 
chemical, biological, radiological, and nuclear public health threats, 
supporting the development of new drugs, vaccines, and other medical 
countermeasures. It was created by Congress in 2006 with unanimous 
consent in both chambers. As these medical products have no commercial 
market--the Government is the sole customer--finding private investors 
willing to fully support development of medical countermeasures is 
nearly impossible. For this reason, a public investment in BARDA is 
necessary if these needed countermeasures are to be developed.
    BARDA has already hired top talent, and has been working 
effectively with the private sector. However, they have received little 
funding. It's time to correct that. This is a National security issue--
and it is just as important as the capability to produce world-class 
military hardware and technology.
    BARDA funding is wholly inadequate to their mission. The Center for 
Biosecurity of UPMC recently estimated that $3.39 billion per year in 
medical countermeasure development support would be required to achieve 
a 90 percent chance of developing a countermeasure for each of the 
eight biodefense requirements laid out in HHS's Public Health Emergency 
Medical Countermeasures Enterprise (PHEMCE) Strategy for Chemical, 
Biological, Radiological, and Nuclear Threats. While this amount may be 
a large sum in the context of health budgets, it is quite small when 
considered in the context of National security expenditures. In spite 
of limited funding to date, BARDA has developed the infrastructure, 
workforce, and expertise to manage the necessary portfolio of new MCMs. 
All that remains now is for the program to be funded. Fully funding the 
program will not give us the countermeasures to protect us from all 
bioweapons, but it is a necessary downpayment for our security.
    Recently, even the funds intended for purchasing medical 
countermeasures for National security were under threat--the 
administration considered significantly depleting the Project BioShield 
Special Reserve Fund (SRF) to fund the development and/or procurement 
of H1N1 influenza vaccine. We continue to urge that BioShields funds be 
used only for their intended purpose: The procurement of medical 
countermeasures against chemical, biological, radiological, and nuclear 
(CBRN) threats to National security. Depleting the SRF will severely 
diminish U.S. efforts to improve preparedness for CBRN events, thereby 
undermining the President's commitment to a strong National biodefense 
program.
    Without a significant increase in BARDA funding, and security for 
BioShield funds, the status quo will persist: A serious and potentially 
catastrophic vulnerability to CBRN agents. Furthermore, funding BARDA 
would have an immediate and significant stimulative impact on the 
biodefense industry, as well as the broader economy. The U.S. Bureau of 
Economic Analysis estimates that each new biotech job results in the 
creation of 5.8 additional jobs in other industries. Furthermore, for 
every dollar of labor earnings or output in the biotech sector, another 
$2.90 or $1.70, respectively, are produced in other parts of the 
economy.
    Preparedness for catastrophic health events requires stable, 
continuous funding, planning, and oversight to build the capacity to 
prevent and mitigate the effects of an attack with a bioweapon. If you 
do not act to fully fund BARDA, the organization will wither, the 
private sector will turn away from biodefense, and the American people 
could ultimately pay a horrible price in the wake of a terrorist attack 
with a biological weapon.
    Question 7. Considering the Commission's findings regarding the 
need for developing and distributing medical countermeasures, what do 
you think of making medications, including vaccines, available to the 
public for use on a voluntary basis?
    Answer. America would be far better prepared to respond to a 
bioattack if a large percentage of our civilian first responders 
(medical, public health, and law enforcement personnel) were also 
vaccinated against the two bio-threats included in the Department of 
Homeland Security's planning scenarios--anthrax and smallpox (both of 
which have FDA-approved vaccines). The Department of Defense has 
vaccinated a large percentage of its active duty, National Guard, and 
reserve forces against anthrax and smallpox. Why should we not do the 
same for our civilian responders? They will provide the majority of the 
response force to a bioattack on our homeland, not the military.
    Obviously, we cannot order civilians to take these vaccines, but 
they can be offered to all volunteers. The cost would be minimal since 
the most likely source of vaccines would be from the National 
stockpile. Instead of destroying vaccines once they reach their 
expiration date, we should use them prior to expiration.
    This action would significantly enhance preparedness at minimal 
cost.
    Based on lessons learned from exercises and natural disasters, we 
should also consider offering these vaccines to the families of these 
first responders. During a major crisis, we want first responders 
focused on the needs of their communities. Protecting the families of 
first responders is a key component for success.
Questions From Honorable Christopher P. Carney of Pennsylvania for Bob 
                         Graham and Jim Talent
    Question 1. If we are going to ask laboratories that possess Tier I 
Material Threat Agents to meet higher standards for biosecurity, it 
seems fair and necessary to see to it that they have access to more 
funds to make this happen. Since this is a homeland security issue, I 
think grants should come through DHS. What do you think of the need for 
grants to increase laboratory biosecurity, and having those grants go 
through DHS?
    Answer. This bill advances sound risk management principles for 
pathogen security by introducing the idea of stratifying biosecurity 
risks. The bill calls for the designation of ``Tier I'' agents to be 
the most dangerous subset of the pathogens that have clear potential 
for use as biological weapons. Today, 82 biological select agents and 
toxins receive the highest level of security focus and regulation. We 
believe the correct number of top-tier agents is closer to 8 than 80. 
Multiple studies were conducted as a result of our Report, and in 
virtually all of them, from both the public and private sectors, there 
have been calls for the stratification of agents.
    Stratification of biological agents into tiers should allow for 
more realistic assessments of risk, it will benefit public health 
investigations, and it should also encourage security monies to be 
concentrated on the highest risks. Therefore, it may not be necessary 
to increase funding for security improvements, as this approach could 
lead to a more judicious allocation of existent security funding.
    Question 2. Has the commission examined the extent to which our 
Nation has adequate laboratory capacity to respond to a large-scale act 
of bioterrorism? What are your suggestions for increasing laboratory 
surge capacity?
    Answer. See answer to Question No. 4.
    Question 3. In our efforts to prepare for and combat acts of 
bioterrorism, do you believe that our Nation has invested enough in the 
physical laboratory infrastructure needed to develop new 
countermeasures to biological agents? Can we do more to coordinate the 
laboratory resources we currently have available across agency lines?
    Answer. See answer to Question No. 4.
    Question 4. I have been a strong proponent of the Regional 
Biocontainment Laboratory program that was established by the National 
Institutes of Health to conduct research on biological pathogens. I 
believe we should bring these 13 university-based labs into our 
National response system and invest in their ability to provide 
diagnostic support during a National emergency. Do you believe these 
labs can play a more active and useful role beyond their core research 
role?
    Answer. The Commission did not explicitly examine the extent to 
which our Nation has adequate laboratory capacity to respond to a 
large-scale act of bioterrorism. We also did not specifically examine 
whether the Nation has invested enough in the physical laboratory 
infrastructure to develop new countermeasures, or whether there is 
sufficient capacity of the type that is needed. For example, there may 
be enough laboratory capacity for basic research into pathogens of 
bioweapons concern, but not enough capacity for animal testing of 
diagnostic tests and countermeasures. From a small study that the 
Commission sponsored, it appears that there is not enough laboratory 
capacity for testing environmental samples. Given the lack of clarity 
on this topic, it would be an excellent idea for there to be an 
investigation to determine whether the Nation has enough laboratory 
capacity, as well as what the appropriate amount of capacity and 
physical infrastructure would be.
    On a strategic level, it appears entirely appropriate that these 
university-based laboratories play a role in National response and 
provide support during a National emergency. The legislation that you 
introduced, the Laboratory Surge Capacity Preparedness Act, (H.R. 1150) 
is one step that should move forward to address this need. As we 
understand it, the Laboratory Surge Capacity Preparedness Act directs 
the Secretary of Homeland Security to award grants to regional 
biocontainment laboratories for maintaining surge capacity that can be 
used to respond to acts of bioterrorism or outbreaks of infectious 
diseases. If these laboratories can share materials and protocols so 
that they are useful additions to the normal laboratory capacity in an 
emergency, it would be a step forward for preparedness.
 Questions for the Record from Honorable Yvette D. Clarke of New York 
                     for Bob Graham and Jim Talent
    Question 1. There have been several white powder incidents in New 
York City and across the country over the past few years. The ETCS&T 
subcommittee, which I chair, has looked into a number of white powder 
incidents over the past few years. In December 2008, before the most 
recent incidents at some of the foreign consulates, Congressional 
offices, and the Wall Street Journal in New York City, my subcommittee 
looked at how the U.S. Government was investigating the white powder 
letters and packages that were being sent to various Governmental 
offices here in the United States and to U.S. embassies and consulates 
overseas. As far as we know, the perpetrator(s) of those events has not 
yet been identified. Since the anthrax events of 2001--and despite the 
white powder letters and packages that continue to be sent throughout 
the United States and the world--guidance is not yet available 
regarding remediation after a biological attack or incident. Almost 10 
years later, we clearly need to require DHS, EPA, OSHA, and NIOSH to 
undertake a concerted effort to develop and issue guidelines for 
cleaning and restoring indoor and outdoor areas that have been affected 
by the release of a biological agent. Do you agree?
    Answer. It is certainly true that guidelines for cleaning and 
restoring indoor and outdoor areas are needed. As we said in our 
testimony, we commend the Homeland Security committee for including the 
provision that DHS issue guidelines in coordination with the 
Environmental Protection Agency for cleaning and restoring indoor and 
outdoor areas affected by the release of a biological agent. These 
guidelines should also address methods of decontamination following a 
large-scale event, and should address some of the remaining questions 
of a technical and scientific nature that make decontamination of a 
large area difficult. Currently, U.S. environmental laboratory capacity 
is insufficient for the challenge of sampling and testing following a 
large biological release. Federal leadership roles should also be 
clarified--many Federal agencies currently have roles in 
decontamination, but it is still unclear which agency would lead. 
Likewise, it is unclear who will cover the costs of decontamination, as 
well as the temporary relocation of building occupants. Private 
building owners would rightly question what their role is, at this 
time--if private industry is to be responsible for decontamination of 
their own property, there should be guidance for decontamination 
practices and qualified decontamination contractors available to 
industry in the event that they are needed. The WMD Commission 
sponsored a small study to review current bio-decontamination 
capabilities and responsibilities. The conclusions were not 
encouraging.
    Question 2a. During your tenure in Congress, I expect that much of 
your situational awareness about the WMD threat was based on classified 
information. In the case of the biological threat, do you believe that 
it is possible for the United States to develop accurate biological 
situational awareness without combining classified and unclassified 
information?
    Question 2b. At the other end of the spectrum, do you believe that 
there should be more unclassified analytic materials distributed to 
non-Federal partners, most especially in the public health community, 
to enhance their situational awareness?
    Answer. We have both held Top Secret/SCI security clearances for 
decades, and during the 2 years of our Commission, received a number of 
classified briefings. However, the information available in 
unclassified documents clearly identify the serious threat posed by 
bioterrorism. The following quote is from page 1 of the National 
Strategy for Countering Biological Threats, November, 2009:

``The effective dissemination of a lethal biological agent within an 
unprotected population could place at risk the lives of hundreds of 
thousands of people. The unmitigated consequences of such an event 
could overwhelm our public health capabilities, potentially causing an 
untold number of deaths. The economic cost could exceed $1 trillion for 
each such incident. In addition, there could be significant societal 
and political consequences that would derive from the incident's direct 
impact on our way of life and the public's trust in Government.''

    Classified information can sometimes give specific details about a 
particular organization or groups of individuals, but the threat we 
face today can be more than adequately presented in an unclassified 
document or presentation.
    Here is a specific example. Colonel Randall Larsen, USAF (Ret), the 
former executive director of the WMD Commission has provided briefings 
on bioterrorism to the Joint Staff Anti-Terrorism/Force Protection 
Executive Course for the past decade. The course is taught three times 
a year for 125 senior officers who all possess TS/SCI clearances. 
However, the briefing is given at the unclassified level. This allows 
the senior officers to freely discuss all information when they return 
to their units around the world, without requiring them to remember 
which part is classified and which part is not.
    Classified information is not required to understand the serious 
threat of bioterrorism.
    Question 3. Given the challenges inherent in enforcing export 
control measures, I believe there is value in the Federal Government 
reaching out to manufacturers and exporters of materials sought by 
terrorists, the terrorist-sponsoring governments, and any other 
countries that seek to proliferate WMD. At the Department of Homeland 
Security, Immigration and Customs Enforcement currently conducts this 
sort of outreach regarding materials, technology, and WMD of all types. 
Do you agree that this is a valuable activity?
    Answer. Reaching out to the private sector is a very important part 
of a part of a layered defense against the proliferation of WMD 
technology. One of the most effective means of countering proliferation 
is to ensure that it does not get into the wrong hands in the first 
place and the Federal Government should leverage its existing 
relationships to partner with manufacturers and exporters on this 
important mission. There are a number of existing efforts underway, 
including at the Department of Commerce, that should be strengthened.
    Question 4a. There are many companies that now legally provide 
strains of organisms, some of which could potentially be used to create 
biological weapons. Considering your experience with the Export 
Council, what role, if any, do you think the criminal justice community 
should have with respect to the sale, distribution, and potential 
misuse of such strains?
    Question 4b. Do we need to review and update the relevant criminal 
statutes?
    Answer. At this time, it does not appear to be necessary to review 
and update the relevant criminal statutes. In the United States, access 
to those pathogens that are considered to be most likely to be used in 
bioterrorism (``select agents'') is already regulated.
    Within the United States, select agents are regulated by the 
Department of Health and Human Services (HHS) and the Department of 
Agriculture (USDA), and the possession and transfer of the toxin is 
restricted to those people who have received a Security Risk Assessment 
(SRA), which entails a background check performed by the Department of 
Justice (DOJ), and are working in a facility that is cleared for select 
agents, and has been inspected by either HHS or USDA. According to the 
USA PATRIOT Act (2001) aliens from countries determined by the State 
Department to have been provided support for international terrorism 
are considered to be restricted persons and are prohibited from 
possession of select agents.
    For export of select agents, the regulatory regime is likewise 
extensive:
  <bullet> According to the Treasury's Department of Foreign Assets 
        Control (OFAC), U.S. persons generally may not enter into any 
        transactions, including exports of goods or services, to Cuba, 
        Iran, and Sudan or to foreign nationals from those countries.
  <bullet> Articles of military significance are subject to export 
        controls that are part of the State Department's International 
        Traffic in Arms Regulations (ITAR). ITAR-controlled items and 
        services may not be exported from the United States without a 
        license from the State Department's Directorate of Defense 
        Trade Controls.
  <bullet> U.S. companies may not engage in export transactions 
        involving persons whose export privileges have been revoked or 
        suspended, or with entities known to have ties to embargoed 
        countries, terrorist organizations, or international narcotics 
        traffickers. There are lists maintained by Treasury and State 
        for this determination.
  <bullet> Export control regulations prohibit exports of any items 
        when the exporter knows that the items will be used in 
        connection with the proliferation of nuclear, chemical, or 
        biological weapons. Of course, for select agents, there are 
        limitations to what laws and export controls can accomplish: 
        they apply only to the United States; all but two of the 
        regulated pathogens (smallpox and 1918 influenza) can be found 
        in nature, sick people and animals, laboratories and hospitals, 
        all over the world; new technologies circumvent the need to 
        acquire many pathogens, as they can be made from scratch; and 
        the select agent list will never be able to include all deadly 
        pathogens. However, these limitations are not likely to be 
        addressed by additional criminal penalties.
    Question 5. I know that the Export Council works to assist 
businesses in exporting to foreign countries. Do you believe that 
companies that sell strains of organisms that could be weaponized are 
capable of effectively differentiating between legitimate customers and 
potential terrorists?
    Answer. This is not an issue we examined at the Commission. This 
question should be directed to the State Department.
    Question 6. Senators, I represent the 37th District of California, 
home to one of the largest ports in United States, the Port of Long 
Beach. The 9/11 Act mandated that all U.S.-bound cargo be scanned for 
nuclear materials by 2010. Since 2007, there is scant evidence that DHS 
intends to meet the mandate. Given the nature of the nuclear threat, do 
you support the deployment of additional nuclear detectors in ports 
throughout the world--either for use by U.S. operators or by host 
countries?
    Answer. The best way to prevent a mushroom cloud over an American 
city (or port) is to locate, lockdown, and eliminate loose nuclear 
material.
    There is very good reason why DHS has not aggressively pursued 100 
percent screening of cargo containers. Highly-enriched uranium (HEU) is 
the most likely material terrorist would use in an improvise nuclear 
device (IND). HEU is a very low emitter of radiation. One millimeter of 
lead, or even something as common as aluminum foil would prevent our 
current state-of-the-art detector from discovering a Hiroshima-style 
IND in a shipping container. Furthermore, we think it highly unlikely 
that a terrorist would put something as valuable as a nuclear weapon in 
a container, put a good padlock on it, and ship it to the United 
States. They would not likely take their hands off of the device. (To 
see the most likely way terrorists would attempt to smuggle an IND into 
the United States, we recommend you see the video, Last Best Chance, 
produced by the Nuclear Threat Initiative and available at 
www.nti.org.)
    We suggest you talk to Beth Ann Rooney, chief of security at the 
Port of New York and New Jersey regarding her opinion of 100 percent 
screening. She will ask you why Congress wants to screen every 
container entering her port, but none of the 700,000 cars that come off 
of RO/RO ships each year. An IND will fit in the trunks of these cars, 
but Congress has no plans to have them screened. Furthermore, Dr. Peter 
Zimmerman, a science advisor to the WMD Commission (and currently a 
consultant at DHS's Homeland Security Institute) will advise you that 
there is no technology to detect a nuclear weapon inside bulk 
containers such as grain ships and oil tankers.
    Bottom line: the best way to prevent nuclear terrorism in the 
United States is through programs such as Global Threat Reduction. If 
funds are to be spent on detection, it should be on research and 
development programs to improve capabilities, but we should not be 
spending large sums of money deploying current technology that has a 
very low probability of detecting nuclear material.
    Question 7. Do you believe this action would help to prevent or 
deter the nuclear threat in any significant way?
    Answer. Spending more resources on scanning in ports with current 
technologies makes us less secure. This money will be better invested 
in locating, locking down, and eliminating loose nuclear materials.


                   VIEWPOINTS ON HOMELAND SECURITY: 
                                PART II



                A DISCUSSION WITH THE 9/11 COMMISSIONERS

                              ----------                              


                        Wednesday, May 19, 2010

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:00 a.m., in Room 
311, Cannon House Office Building, Hon. Bennie G. Thompson 
[Chairman of the committee] presiding.
    Present: Representatives Thompson, Harman, Norton, Jackson 
Lee, Carney, Richardson, Kirkpatrick, Pascrell, Cleaver, Green, 
Himes, King, Smith, Lungren, McCaul, Dent, Bilirakis, and 
Austria.
    Chairman Thompson. The committee will come to order. The 
committee is meeting today to receive testimony on ``Viewpoints 
on Homeland Security: A Discussion With the 9/11 Commission.''
    A lot has changed in this country since the attacks of 
September 11, 2001. In every facet of American life, there is 
greater awareness of the risk of terrorism. From the alert 
citizens in Times Square, to the fast-acting passenger on 
Flight 253, to other ordinary Americans who said something to 
the appropriate authorities when they saw something that was 
concerning, a culture of vigilance is taking hold in America.
    At the same time, at all levels of government, there are 
some major changes in the way we view the risk of terrorism and 
collaborate to address it. From the establishment of the 
Department of Homeland Security, to intelligence reform, to the 
creation of a consolidated, integrated terrorist watch list 
system, the way that Government organizes itself to make the 
homeland more secure has changed in significant ways.
    The Christmas day terrorist plot brought to mind 
observations made in your report. You determined that the 
attacks reveal four kinds of failures--failures of policy, 
failures of capability, failures of management, and failures of 
imagination. Had Umar Farouk Abdulmutallab successfully brought 
down Flight 253 last December with a bomb in his underwear, we 
would have certainly concluded that despite years of 
significant investment and reform, it was a failure of policy, 
capability, management, and imagination.
    I look forward to receiving your testimony today about what 
we still need to do to effectively identify and thwart plots 
well before they are launched. I also am interested in hearing 
your thoughts about the degree to which the intelligence 
community and DHS are mindful of emerging threats. For 
instance, last month, we received troubling testimony from the 
former WMD commissioners about the threat of a biological 
attack. Another novel threat for this country, but a common 
scenario in other countries, is an attack on a busy rail 
system.
    Finally, you have been great champions for reform of 
Congressional oversight over the Department of Homeland 
Security. You acknowledge that consolidation of jurisdiction is 
one of the most difficult challenges in Washington, yet it is 
critically important. As Chairman of this committee, I have a 
special appreciation of the extent to which the lack of 
centralized legislative jurisdiction has damaged the 
Department. As the prime advocate for needed jurisdictional 
reform, I am particularly interested in hearing testimony from 
you on this issue.
    Thank you again for being here.
    [The statement of Chairman Thompson follows:]
           Prepared Statement of Chairman Bennie G. Thompson
    A lot has changed in this country since the attacks of September 
11, 2001. In every facet of American life, there is greater awareness 
of the risk of terrorism. From the alert citizens in Times Square to 
the fast-acting passenger on Flight 253 to other ordinary Americans who 
``said something'' to the appropriate authorities when they ``saw 
something'' that was concerning--a ``culture of vigilance'' is taking 
hold in America.
    At the same time, at all levels of government, there are some major 
changes in the way we view the risk of terrorism and collaborate to 
address it.
    From the establishment of the Department of Homeland Security to 
intelligence reform to the creation of a consolidated, integrated 
terrorist watch list system--the way that the Government organizes 
itself to make the homeland more secure has changes in significant 
ways.
    The Christmas day terrorist plot brought to mind observations made 
in your report. You determined that the attacks revealed four kinds of 
failures--failures of policy, capability, management, and imagination.
    Had Umar Farouk Abdulmutallab successfully brought down Flight 253 
last December, with a bomb in his underwear, we would have certainly 
concluded that, despite years of significant investment and reform, it 
was a failure of policy, capability, management, and imagination.
    I look forward to receiving today's testimony from the 
Commissioners about what we still need to do to effectively identify 
and thwart plots well before they are launched.
    I also am interested in hearing your thoughts about the degree to 
which the intelligence community and DHS are mindful of emerging 
threats. For instance, last month, we received troubling testimony from 
the former-WMD Commissioners about the threat of a biological attack.
    Another novel threat for this country, but a common scenario in 
other countries, is an attack on a busy rail system.
    Finally, you have been great champions for reform of Congressional 
oversight over the Department of Homeland Security. You acknowledge 
that consolidation of jurisdiction is one of the most difficult 
challenges in Washington; yet, it is critically important.
    As Chairman of this committee, I have a special appreciation of the 
extent to which the lack of centralized legislative jurisdiction has 
damaged the Department. As the prime advocate for needed jurisdictional 
reform, I am particularly interested in hearing testimony from you on 
this issue.

    Chairman Thompson. I now recognize the Ranking Member of 
the full committee, the gentleman from New York, Mr. King, for 
an opening statement.
    Mr. King. Thank you, Mr. Chairman.
    Let me, at the outset, commend Governor Kean and Chairman 
Hamilton for the terrific job that they have done, not just in 
their years of public service prior to September 11, but 
certainly with the 9/11 Commission recommendations and the way 
you have stayed on this ever since. As each year goes by, the 
recommendations you made in the 9/11 report seem to be more and 
more on target and absolutely necessary.
    Let me, at the beginning, fully agree with the Chairman. It 
is now almost 6 years since your report came out, and the 
consolidation in Congress has barely improved at all; in some 
situations it has even gotten worse. It is now 108 committees 
and subcommittees that the Department of Homeland Security has 
to report to, and it makes absolutely no sense. This isn't any 
territorial grab by us at all, but if there is going to be 
consolidation--in fact, I would just refer the Commissioners, 
that is, right now, the spider web of committees and 
subcommittees that the Department has to report to.
    It is impossible, I think, for the job to be done. The 
Department gets mixed messages, they have to spend an 
inordinate amount of time preparing for this testimony, and it 
just gets involved in parochial issues and to me it is so 
diffuse that it makes absolutely no sense whatsoever. So 
whatever you can do to, again, in the public eye, encourage 
consolidation would be very helpful. No matter what happens in 
November, the Chairman and I are going to be working with our 
leadership in both parties to again try to consolidate much, 
much more than we have right now.
    Also, on the question of Homeland Security grants, we still 
have the issue where so much money is sent to, I believe, areas 
that do not need as much as others. We had a recent situation 
in New York last week--and I am not trying to make this a New 
York-centric meeting, but I think that was a microcosm of the 
debate we are having Nation-wide in that just 2 weeks after the 
Times Square bombing, there were dramatic reductions made in 
mass transit security aids in New York, and also port security 
aid.
    As the debate went back and forth as to who was 
responsible, I pointed out that there was a $38 million grant 
made several years ago to harden the path tunnel from New 
Jersey to New York which was being held up because of an 
historic review that was going on because the tunnel was more 
than 50 years old--which is why it had to be hardened in the 
first place--and it was sitting there.
    Finally, after I brought this out on Friday, last night the 
money was finally released. But it is that type of 
bureaucracy--and last July, the GAO issued a report, I believe, 
talking about more than $400 million that was being held in the 
pipeline. So that also, I think, is important, No. 1, to make 
better use of the Homeland Security funding, but also to 
eliminate some of the red tape and bureaucracy which prevents 
the money from being distributed.
    I think we can say that both administrations have been 
successful in keeping foreign terrorists from the country. I 
think al-Qaeda central has been weakened, it is harder for them 
to send over a team like they did on September 11. The other 
side of that, though, is that they are now recruiting people 
from within the country; for instance, Zazi last September, 
obviously Major Hasan in Fort Hood, and now Shahzad 2 weeks ago 
or 3 weeks ago in Times Square, which means that we are dealing 
with people living legally in the country, people who are not 
on the radar screen, people who do not have terrorist 
connections, and it is harder for us to have any advance notice 
of them, to know where they are coming from or what is going to 
be happening.
    So when we do capture someone, it is important to get as 
much intelligence as possible, which is why I welcome that 
Attorney General Holder said last week about beginning to look 
into what we are going to do with Miranda warnings and how we 
are going to treat these people who are legally in the country, 
in many cases, American citizens, when they are captured, 
because this may be the only way we can get intelligence from 
them. FISA would not be of much help, our allies would not be 
of much help, but when we actually get someone, we can get--as 
we see now from Shahzad, we are getting a lot of information. 
But if he had availed himself of the right to remain silent, we 
wouldn't have gotten that.
    So I think it is important that we ensure that reforms do 
go forward and that at the very least, the Attorney General 
consult with everyone in the intelligence community before any 
Miranda warning is given so we ensure that whatever information 
we believe is essential to head off upcoming plots to find out 
who else are co-conspirators in the country, who he was trading 
with overseas, and all of that, would be at least delved into 
before any Miranda warning is given.
    How we are going to address this new type of terrorist in a 
way which is going to be, I think--the battlefront, I think, 
has shifted to the United States in many ways, and we have to 
find ways to cope with that.
    So with all of that, I thank you for your service, I look 
forward to your testimony today, and I also want to thank you 
for those report cards you have given out over the years, which 
I think have been a good way of prompting Congress to move 
along. Just because we haven't been attacked doesn't mean that 
we are doing everything right. So I just want to thank you 
again and I look forward to your testimony.
    Chairman Thompson. Thank you very much.
    Other Members of the committee are reminded that under 
committee rules opening statements may be submitted for the 
record.
    [The statement of Hon. Richardson follows:]
            Prepared Statement of Honorable Laura Richardson
                              May 19, 2010
    Mr. Chairman, thank you for convening this hearing today on the 
state of homeland security and intelligence and the status of efforts 
to address the recommendations set forth in the Report of the 9/11 
Commission.
    It is a privilege to be joined by our distinguished witnesses: 
Former Representative Lee Hamilton and former New Jersey Governor 
Thomas Kean. America owes you a debt of gratitude for your skillful 
leadership of the 9/11 Commission. Thanks to the work of the Commission 
you led, ``America is `safer but still not safe,' '' to quote your 
famous words in the 9/11 Report. Thank you both for being here.
    Since the 9/11 Commission's report was released, Congress has taken 
a number of actions to implement the 9/11 Commission's recommendations. 
However, it is crucial to hear from the 9/11 Commissioners to identify 
both our successes and areas where work remains. In particular, in the 
discussion of strategies for aviation and transportation security, the 
9/11 Commission Report highlights the need for a ``Layered Security 
System'' that includes security measures to address the wide array of 
threats, including the use of insiders, suicide terrorism, and standoff 
attack.
    The Commission Report states that ``the U.S. border security system 
should be integrated into a larger network of screening points that 
includes our transportation system and access to vital facilities, such 
as nuclear reactors.'' As a proud representative of the 37th district 
of California, I am especially concerned about this topic. My district 
is home to the Port of Long Beach/Los Angeles, which receives 40 
percent of the Nation's cargo. The 9/11 Act set forth a goal of working 
towards 100 percent cargo screening, and I am sorry to say that almost 
10 years later, we are not closer to reaching it.
    In addition, as Chair of the Subcommittee on Emergency 
Communications, Preparedness, and Response, I look forward to hearing 
the Commissioner's reflections on the Commission's recommendations on 
emergency preparedness and response. Citizen preparedness and private 
sector preparedness is an important component of our homeland security 
strategy. However, according to Citizen Corps National surveys, in 2007 
only 42 percent of survey respondents reported having a household 
emergency plan. Again, this is another area where we have not yet 
reached the goals of the Commission recommendations.
    I am pleased that this hearing is providing a chance for committee 
Members to delve into the issues facing our Government and homeland 
security with regard to progress on the recommendations of the 9/11 
Commission. Clearly, the Federal Government still has work to do. I 
look forward to sharing this information with the stakeholders in my 
district, home to a target-rich environment, including the airports, 
water treatment facilities, and ports.
    Thank you again, Mr. Chairman, for convening this hearing. I yield 
back my time.

    Chairman Thompson. I also would want to again welcome our 
distinguished witnesses, Governor Thomas Kean and 
Representative Lee Hamilton, the chair and vice-chair of the 
Congressionally-created National Commission on Terrorist 
Attacks Upon the United States.
    In addition to his service as chairman of the 9/11 
Commission, Thomas Kean served as Governor of New Jersey from 
1982 to 1990, and Speaker of the New Jersey Assembly. He also 
served as president of Drew University from 1990 to 2005. 
Today, Mr. Kean serves on the boards of a number of prominent 
National organizations, including the Robert Wood Foundation.
    Also, I would like to, in his absence, recognize Mr. 
Pascrell from New Jersey, who never lets us forget about New 
Jersey on this committee.
    Lee Hamilton represented the citizens of Indiana's Ninth 
District for 34 years in this body. During his tenure, he 
served as Chairman of the Foreign Affairs Committee and the 
Intelligence Committee. Today, Representative Hamilton serves 
as the president and director of the Woodrow Wilson 
International Center for Scholars at the Indiana University 
Center. Without objection, the witnesses' full statement will 
be inserted in the record.
    I now ask the witnesses to summarize their statement for 
somewhere about 5 minutes, or the best you can do.
    The Chairman recognizes the gentleman from Indiana.

STATEMENT OF LEE HAMILTON, FORMER COMMISSION VICE-CHAIRMAN, THE 
NATIONAL COMMISSION ON TERRORIST ATTACKS UPON THE UNITED STATES

    Mr. Hamilton. Mr. Chairman, I think I will speak first and 
then the Governor will follow me, if that is all right with the 
Chairman.
    Tom and I are very happy to be with you this morning. We 
are very appreciative of the leadership that has come from this 
Committee on Homeland Security ever since its creation.
    We are here as co-chairmen of the Bipartisan Policy 
Center's National Security Preparedness Group, which is a 
successor to the 
9/11 Commission, and our principal hope and thrust in that 
group will be to try to play a constructive role in supporting 
you and other people in the Executive branch who work very hard 
on homeland security.
    Tom and I will be talking about two separate topics; one is 
the nature of the threat that we confront, and then secondly on 
intelligence and some of our observations as a result of a 
conference we held on that just a few weeks ago.
    I think as Mr. King said in his statement, we believe that 
al-Qaeda has been seriously weakened, but I am not at all sure 
that we have a firm grasp on how seriously. There are disparate 
elements to the radicalism across the globe, and it is just 
extremely difficult to keep track of all of it. Overall, then, 
we think perhaps the threat has been reduced, but it certainly 
has not been eliminated, and the struggle goes on.
    A few quick observations about the threat in general. 
Pakistan is the new hub and center of the terrorist threat; 
more plots against the United States emanate from Pakistan or 
have a strong connection with Pakistan than anywhere else. As 
Mr. King also said, we are witnessing the emergence of a new 
generation of terrorists, American citizens, lone actors 
trained abroad, and I think we can expect more from persons 
with limited resources and perhaps limited training. So in some 
ways, the threat is as much internal as it is external.
    We have often said, and you have heard others say, that we 
are safer today, but not safe enough. Many of the statements 
coming from our leaders today about the progress that has been 
made in homeland security are correct. We have already referred 
to the setbacks for al-Qaeda; we talk a lot about the success 
of the Predator Drone attacks. We were advised the other day 
that we should all feel pretty good about the accomplishments. 
The problem, of course, is that the attacks keep coming, over 
Detroit, in Times Square, at Fort Hood. The problem may be that 
we do not fully appreciate the diversity of the possible 
attacks. We focus more now on home attacks originating here, 
but we must not rule out the possibility of attacks coming from 
abroad. We certainly have to understand the evolving nature of 
the threat that we face.
    One of our colleagues on the National Security Preparedness 
Group wrote the other day in one of our leading magazines, ``We 
seem able to focus only on one enemy at a time in one place. We 
do not understand the networked, transnational, multifaceted 
nature of the attack.'' So the defining trait of today's 
terrorist threat is its diversity. The Attorney General has 
stated the Times Square attempted attack was directed by the 
Pakistani Taliban. The attempted attack in December was the 
work of al-Qaeda in the Arabian Peninsula. In both of these 
cases, al-Qaeda affiliates thought previously as regional or 
local threats demonstrated their ability to reach the United 
States. Of course, we are all aware of the threats coming from 
the tribal regions of Pakistan.
    As we have come to recognize the evolving nature of the 
threat, we as a country need to consider what policy 
recommendations should follow this assessment, and our group, 
and I am sure others in this town are beginning to work on 
that. We will be working during the summer to complete the work 
and draw conclusions and recommendations that you and others in 
the Congress and the administration may want to utilize.
    Just a word before I turn it over to Tom Kean on the state 
of intelligence reform. I believe, and I think most people 
believe, that a lot of progress has been made on intelligence 
reform. Specifically, data is more widely shared than it was a 
few years back. We still have a long way to go. The analysts, 
rather than the collectors, have begun to drive data 
collection; that is a significant change that is now occurring 
in the intelligence community.
    The technology has improved. The transformation is underway 
from a confederation of bureaucracies in effect in the 
intelligence community--some 16 of them--to a network of 
collection and analysts. The establishment of the Mission 
Managers is, I think, a positive development. The increasing 
focus on cybersecurity is a positive development. Reform has 
been made on speeding up security clearances. I think the 
establishment of a joint duty program, likewise, is part of the 
progress. All of that needs to be emphasized and recognized as 
a positive step. My point of view, of course--perhaps yours--is 
that we cannot achieve perfection, but we can continue to 
reduce the likelihood of human error to an acceptable level, 
and that is what we have to do.
    Now, there are a lot of challenges before the intelligence 
community today. I will mention in a moment the ambiguity with 
regard to the role of the DNI, a critically important problem. 
The President has stated oftentimes that he is not satisfied 
with the Presidential daily brief. I don't know that I can 
remember a President who has been satisfied with the 
Presidential daily brief, but Tom and I have seen a good many 
of them dating a few years back--I don't think they are 
available to Members of Congress so far as I know--and I think 
Tom and I would very much agree that there is a long way to go 
in improving the daily brief. That is an enormously important 
step in the intelligence dissemination.
    There certainly has to be the development of leadership 
towards a more integrated intelligence community; that is 
happening, but not nearly fast enough. You all are familiar 
with the problems the intelligence community has with the 
Congress. I think there has been some improvement--at least 
that is my impression, I don't know how you feel about it--in 
that under Mr. Panetta's leadership in the CIA, but you would 
know that probably better than I.
    We certainly need more sophisticated analyses--signals, 
human, technical have to be integrated much better than they 
are. The relationship of the intelligence community generally 
to the general public I think needs a lot of work. Tom will 
talk a little bit about the necessity of civil liberties and 
privacy.
    But on the challenges, what impresses me more than anything 
else is that we get this massive amount of data--it just comes 
in by the truckload per minute--and it overwhelms the ability 
of the intelligence community to analyze it. We have simply got 
to do that better through a lot of different means than we have 
been able to do it. So the greatest challenge in a sense to the 
intelligence community is the management of the data that comes 
in.
    Now, the final point I want to make with regard to 
intelligence is that I think because of the ambiguity of the 
law where the authorities of the Director of National 
Intelligence with regard to budget, with regard to personnel 
simply are not as clear as you would like them to be. The 
ambiguity creates a lot of problems within the intelligence 
community. You would know better than I, but my observation is 
that law is not going to be changed soon. It took a long time 
to get that law on the books, and I don't see any great effort 
at the moment to correct it.
    So what does that mean? It means that the role of the DNI 
is not clear. Is he a strong leader of the intelligence 
community empowered to lead the intelligence community, or is 
he a coordinator, a convening authority charged with helping to 
facilitate inter-intelligence agency? Now, that is a huge 
difference, and it makes all the difference in the world as to 
how the intelligence community is shaped. My view--and I think 
Tom's--is that we favor the former point of view, that is to 
say the DNI should be a strong leader in the intelligence 
community with sufficient power to carry out his 
responsibilities.
    The burden is on the President now to clarify who is in 
charge of the intelligence community, where the final authority 
lies on budget, personnel, and other matters. As long as you 
leave it to the interagency process without clear direction 
from the President, you are not going to have an integrated 
intelligence product. So we put a lot of responsibility, of 
course in almost every subject, on the President. But here the 
President's leadership is crucial and it must be enduring, not 
just an intervention. He has got to stay on top of this in 
order to make it work.
    Tom will handle other points of interest on the 
intelligence community.
    Chairman Thompson. Thank you very much. We were very 
generous with the time, but obviously we appreciate the clarity 
of your comments.
    Governor.

   STATEMENT OF THOMAS KEAN, FORMER COMMISSION CHAIRMAN, THE 
NATIONAL COMMISSION ON TERRORIST ATTACKS UPON THE UNITED STATES

    Mr. Kean. Thank you. I, likewise, also appreciate very much 
your work and the chance to appear before you today. I will 
talk just a minute about another lesson that we think we can 
learn, and that is the nature of the domestic intelligence 
mission and how it demands really greater clarity. The 
intelligence community must become more competent in obtaining 
and using appropriate information on people who cross the 
borders and may have a nefarious intent, that is including 
Americans. The failed attack of 12/25, cross-border drug 
violence, and other events last year highlighted the challenges 
we face in our porous borders and the rapid mobility of modern 
society. In addition, we have seen that some of our practices, 
such as No-Fly Lists, must be more dynamic, responsive, capable 
of triggering quick action, including warnings sometimes that 
are based on incomplete information. Our procedures for 
collecting and using U.S. personal data must adapt to these new 
challenges. Last, the Attorney General's guidelines for 
intelligence agencies operating domestically needs to be 
updated and harmonized so that the intelligence community can 
perform its mission successfully.
    We don't really believe that domestic intelligence has 
received enough attention, especially, and as we have all said, 
the evolving nature of the terrorist threat. In the Commission, 
we place great emphasis on the need for the FBI to reform 
itself and build an organization that places more emphasis on 
preventing attacks. To refocus attention on these issues, we 
are going to host a conference in the fall with top Government 
officials and other experts to ensure that we are still taking 
the right steps so that the agency is reformed to meet the 
modern needs of the terrorist threat as we know it today.
    Another fact, as evidenced by the reviews following the 
failed attempt of the Christmas day bomber, the DNI needs to be 
a leader in managing and improving analyses in the intelligence 
community. As Lee said, we are awash with data coming in from 
every direction all the time. We are collecting more 
information than ever before, but we have got to understand it, 
we have got to manage it, we have got to integrate it. The good 
news is that we have got the technology. We need to continue to 
push forward, however, on policy innovations to ensure that we 
manage the data properly and that the right people are getting 
the information they need, always having in mind that when we 
do this, we also have to protect civil liberties.
    We are cosponsoring a serious of events with the Markle 
Foundation to continue to push for innovative policies, 
including making information discoverable and building 
interfaces that allow for sufficient exchange while at the same 
time protecting civil liberties. Making progress in these 
issues is critical for mounting an effective fight against 
terrorists that are going to be increasingly sophisticated.
    I just want to mention briefly two other items that are 
left over perhaps from a 9/11 report. Civil liberties, of 
course, has been mentioned already, and Congressional 
oversight. We always have to worry about the balance between 
civil liberties and our security. It will always be part of the 
struggle with terrorism. America must never sacrifice one for 
the other. Following the 9/11 Commission recommendations, this 
Congress created the Privacy and Civil Liberties Oversight 
Board to advise the Executive branch and to oversee over 
efforts to defend civil liberties. The board was staffed and it 
became operational in 2006. After some little activity in 2007, 
the board has been dormant since that time. We have, in other 
words, no members and therefore no board protecting civil 
liberties. Now we have got massive capacity now to develop data 
on individuals, and we need somebody to ensure that the 
collection capabilities do not violate our privacy and the 
liberties we care about.
    Mr. Chairman, we support the sentiment expressed in your 
letter to President Obama, supported by many Members of this 
committee, that he should quickly appoint members of the board. 
We continue to believe this board is a critical function, and 
we urge the President a swift reconstitution.
    Now, you have said as well as I could the problem with 
Congressional oversight. As you know, this is one of our main 
recommendations in our report. It is fractured and overlapping 
on both sides of the Hill. It is in an unsatisfactory state. We 
note, as Congressman King said, the number of over 100 
committees now that DHS officials report to. It has led to 
conflicting mandates for the division of Homeland Security. As 
you have said, without taking serious action, we think this 
confusing system is going to make this country less safe. We 
want to continue to work with the Congress to help improving 
oversight of our homeland security, and will do everything we 
can to cooperate with you in this regard.
    Thank you very much for having both of us, and we would be 
glad to answer your questions.
    [The statement of Mr. Hamilton and Mr. Kean follows:]
           Prepared Statement of Lee Hamilton and Thomas Kean
                              May 19, 2010
                            i. introduction
    We are very happy to be before this committee this morning. We are 
grateful to Chairman Thompson and Congressman King for the invitation 
to discuss the challenges the serious and evolving terrorist threat 
poses to our Nation.
    Today, we are appearing in our capacity as co-chairmen of the 
Bipartisan Policy Center's National Security Preparedness Group (NSPG), 
a successor to the 9/11 Commission. Drawing on a strong roster of 
National security professionals, the NSPG works as an independent, 
bipartisan group to monitor the implementation of the 9/11 Commission's 
recommendations and address other emerging National security issues.
    NSPG includes the following membership:
  <bullet> Mr. Peter Bergen, CNN National Security Analyst and Author, 
        Schwartz Senior Fellow at the New America Foundation
  <bullet> Dr. Bruce Hoffman, Georgetown University terrorism 
        specialist
  <bullet> The Honorable Dave McCurdy, Former Congressman from Oklahoma 
        and Chairman of the U.S. House Intelligence Committee, 
        president of the Alliance of Automobile Manufacturers
  <bullet> The Honorable Edwin Meese III, Former U.S. Attorney General, 
        Ronald Reagan Distinguished Fellow in Public Policy and 
        Chairman of the Center for Legal and Judicial Studies at The 
        Heritage Foundation
  <bullet> The Honorable Tom Ridge, Former Governor of Pennsylvania and 
        U.S. Secretary of Homeland Security, Senior Advisor at Deloitte 
        Global LLP, Ridge Global
  <bullet> The Honorable Frances Townsend, Former Homeland Security 
        Advisor and former Deputy National Security Advisor for 
        Combating Terrorism
  <bullet> Dr. Stephen Flynn, president, Center for National Policy
  <bullet> Dr. John Gannon, BAE Systems, former CIA Deputy Director for 
        Intelligence, Chairman of the National Intelligence Council, 
        and U.S. House Homeland Security Staff Director
  <bullet> The Honorable Richard L. Thornburgh, former U.S. Attorney 
        General, Of Counsel at K&L Gates
  <bullet> The Honorable Jim Turner, Former Congressman from Texas and 
        Ranking Member of the U.S. House Homeland Security Committee, 
        Arnold and Porter, LLP
  <bullet> Mr. Lawrence Wright, New Yorker Columnist and Pulitzer 
        Prize-winning author of The Looming Tower: Al Qaeda and the 
        Road to 9/11
  <bullet> The Honorable E. Spencer Abraham, Former U.S. Secretary of 
        Energy and U.S. Senator from Michigan, The Abraham Group.
    Over the course of 2009 and 2010, our group met with Obama 
administration officials and former senior officials from the Bush 
Administration, including:
  <bullet> Director of National Intelligence, Admiral Dennis Blair 
        (July 2009)
  <bullet> CIA Director Leon Panetta (July 2009)
  <bullet> Secretary of Homeland Security Janet Napolitano (July 2009)
  <bullet> FBI Director Bob Mueller (September 2009)
  <bullet> Former CIA Director Mike Hayden (September 2009)
  <bullet> Former DNI Mike McConnell (September 2009)
  <bullet> John Brennan, Deputy National Security Adviser (January 
        2010)
  <bullet> Mike Leiter, Director of the NCTC (April 2010).
    We believe the strength of our group will allow us to be a voice on 
National security issues and a resource to you and the Executive 
branch. First and foremost, we are here to help play a constructive 
role in support of your work.
    Recent events have reminded us, especially the failed attempts on 
12/25 and in Times Square, that the country needs to continue to 
improve its defenses and strengthen Governmental institutions designed 
to fight international terrorism and other threats to the United 
States. At the Bipartisan Policy Center, our National Security 
Preparedness Group has been studying the implementation of the 9/11 
Commission's recommendations, especially those regarding intelligence 
reform, and new threats to our National security.
    We look forward to working with you, and benefiting from the work 
of this committee, as our study continues.
    Today we would like to discuss with you two on-going projects that 
have a direct bearing on the important work of this committee.
    First, as we testified in January, the threat from al-Qaeda, 
remains serious. What we and other experts are studying is how the 
threat of terrorism is evolving. The conventional wisdom for years has 
been that al-Qaeda's preferred method was a spectacular attack like 9/
11. But the defining characteristic of today's threat seems to be its 
diversity.
    Second, the 5-year anniversary of the Intelligence Reform and 
Terrorism Prevention Act recently passed. Our group marked this 
anniversary by hosting a conference on the State of Intelligence 
Reform. The Director of National Intelligence and host of other former 
intelligence officials participated in the conference and I will share 
with you today some of the conclusions from the discussion.
                          the terrorist threat
    The defining trait of today's terrorist threat is its diversity. As 
you well know, the Attorney General has stated that the Times Square 
attempted attack was directed by the Pakistani Taliban. The attempted 
attack in December was the work of al-Qaeda in the Arabian Peninsula. 
In both of these cases, al-Qaeda affiliates thought previously as 
regional or local threats demonstrated their ability to reach the 
United States. We're well aware of the threat emanating from the tribal 
regions of Pakistan. We've also come to appreciate the increasing 
threat of homegrown terrorism as some Americans have become 
radicalized.
    As we have come to recognize the evolving nature of the threat, we 
as a country need to consider what policy recommendations should follow 
this new assessment. Our National Security Preparedness Group is 
studying this issue. Professor Bruce Hoffman from Georgetown and Peter 
Bergen of the New America Foundation are leading a series of interviews 
and meetings with terrorism experts to take a fresh look at the nature 
of the threat in light of the increased activity. We will work over the 
summer to complete this work and draw conclusions and recommendations 
that Congress and the administration can utilize. We have already 
arranged for Bergen and Hoffman to testify on this assessment in 
September, along with homeland security experts Fran Townsend and 
Steven Flynn. We look forward to working with you on this study and the 
opportunity to return in the fall to your committee.
                      state of intelligence reform
    The determination of terrorists to attack the homeland remains 
unabated, reminding us of the need for viable and agile Governmental 
institutions to counter the threat. To us, these episodes further 
suggest the importance of creating a Director of National Intelligence 
and a National Counter Terrorism Center in the first place. At their 
core, the problems evident on September 11, 2001, reflected failures of 
information sharing among the Federal partners charged with protecting 
the country. No one in the Federal Government was charged with fusing 
intelligence derived from multiple foreign and domestic sources. The 
DNI has been charged with breaking down bureaucratic, cultural, 
technological, and policy barriers to the sharing of information among 
Federal agencies and the NCTC has been successful in thwarting a number 
of potential terrorist attacks.
    There has been good work done since September 11, 2001, but we need 
to continue down the path toward further integration and insist on a 
greater level of effectiveness within the intelligence community. To 
further these goals, we hosted a conference on the State of 
Intelligence Reform in April with Director Blair, General Hayden, 
Admiral McConnell, Fran Townsend, Jane Harman, John McLaughlin, and 
Steve Cambone. The conference was a success in highlighting the 
importance of the issues this committee is dedicated to, including 
information-sharing and improved counter-terrorism policy within our 
borders.
    Today, we are releasing a brief summary of the proceedings, and we 
would like to offer you several key observations.
    First, the President needs to be very active in defining roles and 
responsibilities within the intelligence community. We think the 
conference showed that the DNI has achieved a meaningful measure of 
success in its first years--that has made it worth the inevitable 
turmoil--but that the successes relied too heavily on key personalities 
within the Executive branch. We want to continue to look closely at the 
authorities of the DNI to make sure he has the authority to do his 
work, but it is our sense that the success of the DNI in the short term 
is not dependent on additional statutory adjustments to IRTPA.
    Nonetheless, there are still ambiguities that can contribute to 
mission confusion and lack of clarity about lanes in the road. This is 
perhaps the greatest challenge facing the DNI. Is the DNI a strong 
leader of the intelligence community empowered to lead the IC as an 
enterprise? Or is the DNI a mere coordinator, a convening authority 
charged with helping facilitate common inter-intelligence agency 
agreement? The lack of clarity in its mission invites a host of other 
criticisms, including that the ODNI is too large, too intrusive, and 
too operational.
    The burden is on the President to clarify who is in charge of the 
intelligence community and where final authority lies on budget, 
personnel, and other matters. In our estimation, we need a strong DNI 
who is a leader of the intelligence community. The DNI must be the 
person who drives inter-agency coordination and integration. At the 
same time, the DNI's authorities must be exercised with discretion and 
consideration of the priorities and sensitivities of other intelligence 
agencies. But the President's leadership is crucial and must be 
enduring or we run the risk of mission confusion and decrease the 
prospect of achieving long and lasting reform that was recommended 
after September 11, 2001. The DNI's ability to lead the intelligence 
community depends on the President defining his role and giving him the 
power and authority to act.
    Second, the nature of the domestic intelligence mission demands 
greater clarity. The intelligence community must become more competent 
in obtaining and using appropriate information on people who cross 
borders and may have nefarious intent, including Americans. The failed 
attack of 12/25, cross-border drug violence, and other events last year 
highlighted the challenges we face due to our porous borders and the 
rapid mobility of modern society. In addition, we have seen that some 
of our practices, such as No-Fly Lists, must be more dynamic and 
responsive, capable of triggering quick action, including warnings 
based on incomplete information. Our procedures for collecting and 
using U.S. person data must adapt to these new challenges. Lastly, the 
Attorney General's guidelines for intelligence agencies operating 
domestically needs to be updated and harmonized so that the IC can 
perform its mission successfully.
    It was clear in the conference that in many ways, ``domestic 
intelligence'' has not received enough attention especially in light of 
the evolving nature of the terrorist threat. The 9/11 Commission placed 
great emphasis on the need for the FBI to reform itself and build an 
organization that placed more emphasis on preventing attacks. To 
refocus attention on these issues, we will host a conference in the 
fall with top Government officials and other experts to ensure we are 
taking the right steps along the path of reform.
    Third, as evidenced by the reviews following the failed attempt on 
12/25, the DNI needs to be a leader in managing and improving analysis 
in an intelligence community awash with data. In an age when we are 
collecting more information than ever before, a major challenge is 
understanding, managing, and integrating a huge amount of information. 
The DNI needs to develop ways of dealing with intelligence information 
overload. The good news is that the technology to do the job exists. We 
need to continue to push forward on policy innovations to ensure that 
we manage the data properly and that the right people get the 
information they need, while protecting civil liberties. We're 
cosponsoring a series of events with the Markle Foundation to continue 
to push for innovative policies, including making information 
discoverable and building interfaces that allow for its efficient 
exchange while at the same time protecting civil liberties. Making 
progress on these issues is critical to mounting an effective fight 
against increasingly sophisticated terrorists.
                      privacy and civil liberties
    The balance between security and liberty will always be a part of 
the struggle against terrorism. America must not sacrifice one for the 
other. Following the 9/11 Commission recommendations, the Bush 
administration created a Privacy and Civil Liberties Oversight Board to 
advise the Executive branch and oversee Government efforts to defend 
civil liberties. The board was staffed and became operational in 2006. 
In 2007, Congress restructured the Board as an independent agency 
outside the White House. Despite early criticisms of undue delay and 
inadequate funding, the Board held numerous sessions with National 
security and homeland security advisers, the attorney general, and the 
FBI Director, among others, on terrorist surveillance and other issues 
arising from intelligence collection.
    However, the Board has been dormant since that time. With massive 
capacity to develop data on individuals, the Board should fight to 
ensure that collection capabilities do not violate privacy and civil 
liberties. Mr. Chairman, we support the sentiment expressed in your 
letter to President Obama, supported by many Members of this committee, 
that he should quickly appoint members to the Board. We continue to 
believe that the Board provides critical functions and we urge 
President Obama its swift reconstitution.
                        congressional oversight
    Third, the DNI and IC must provide greater transparency, foster 
greater trust with the American people, and avoid over-reaction during 
troubled times. While much intelligence must remain classified and out 
of public view, the intelligence community still needs support from the 
media, Congress, users of intelligence, and foreign partners, among 
others, to successfully pursue our National goals. The DNI should work 
to promote a robust relationship/partnership with Congress, which 
serves as the proxy for the public in overseeing the IC and affirming 
its direction.
    The 9/11 Commission also placed great emphasis on rigorous 
Congressional oversight. This recommendation helped precipitate the 
creation of a House Homeland Security Committee and a Senate Homeland 
Security and Governmental Affairs Committee. However, enduring 
fractured and overlapping committee jurisdictions on both sides of the 
Hill have left Congressional oversight in an unsatisfactory state. DHS 
entities still report to dozens of separate committees hundreds of 
times per year, which constitutes a serious drain of time and resources 
for senior DHS officials. Furthermore, the jurisdictional melee among 
the scores of Congressional committees has led to conflicting and 
contradictory tasks and mandates for DHS. Without taking serious 
action, we fear this unworkable system could make the country less 
safe.
    The 9/11 Commission also called Congressional oversight over 
intelligence dysfunctional. We made recommendations to strengthen the 
oversight committees which were not accepted by the Congress, though 
some progress has been made. Today we want to emphasize the enormous 
importance we attach to rigorous oversight of the intelligence 
community.
    Congress is the only source of independent advice to the President 
on intelligence matters. Such oversight requires changes in the 
structure of Congressional committees, specifically the creation of 
powerful oversight committees in both the House and Senate. Today, the 
appropriations committees' monopoly on the provision of funding weakens 
the ability of the intelligence authorization committees to perform 
oversight and wastes much of their expertise.
    Congressional oversight can help ensure the intelligence community 
is operating effectively and help resolve disputes about conflicting 
roles and missions. We urge the Congress to take action to strengthen 
the oversight capabilities of the intelligence committees.

    Chairman Thompson. I thank both of you for the very 
enlightening testimony given today before this committee.
    I would like to remind each Member that he or she will have 
5 minutes to question the panel. I now recognize myself for 5 
minutes.
    As both of you noted, it is hard to break down the 
stovepipes when there are so many stoves. While information-
sharing has improved since 9/11, many--myself included--are 
troubled that despite undergoing significant reforms, the 
intelligence community did not uncover and prevent the 
Christmas day plot. It now seems that while the intelligence 
community is doing a better job of collecting and sharing the 
information, it does not have the analytical capability, human 
and technical, to connect the dots. Now, both of you addressed 
this issue in your testimony, and I want to give you a little 
time to elaborate on it because we have this humongous data 
collection effort underway, but the question is: What and how 
are we doing with it after we collect it, and is that our next 
challenge?
    Governor.
    Mr. Kean. I think you have put your finger on it, it is our 
next challenge. We haven't always treated analysts with the 
same respect we treat other people in the intelligence 
community. We know now that it is no good collecting all this 
data if we don't have the means and the personnel who can 
seriously analyze it, condense it, and turn it over to the 
policy people who are going to act. We don't think we are there 
yet by any means. This requires, in my mind, giving the 
analysts the kind of status, the kind of pay, the kind of 
promotions that are available to other people in the 
intelligence agency and that we recognize them for the very 
important function they hold. This is going to be a continuing 
challenge. We are going to get more information, not less. 
Unless we analyze it and put it quickly into people's hands so 
that action can be taken, we are not going to do the job to 
protect the American people.
    Chairman Thompson. Mr. Hamilton.
    Mr. Hamilton. Mr. Chairman, I believe, as you have 
suggested, information sharing remains the core problem in 
intelligence. You referred to the stovepipes of the 16 
intelligence agencies correctly. I do believe there is a lot 
better sharing, there is a lot better connection of the dots 
than several years back, so we have made a good bit of 
progress, but it is not seamless, and it is still a very 
formidable challenge for the intelligence community.
    I connect this problem to the authority of the DNI. What 
you have in the intelligence community today are 16 very able, 
very patriotic, very professional groups with a lot of very 
talented people. They have operated traditionally very much 
within their own stovepipe, within their own agency. They have 
felt that it is not necessary to share, the heavy emphasis has 
been on need to know rather than need to share. They are very 
protective of their jurisdiction and their bailiwick. I do not 
believe you are going to get the sharing that you need without 
somebody forcing it, and that somebody has to be the DNI. I 
don't know where else it comes from. If he does not have the 
authority to do that, you are not going to get it. That is my 
view, basically. So the authority of the DNI is absolutely 
critical to resolving the question of better information 
sharing.
    Chairman Thompson. Well, I guess the question is: Do we 
need a legislative fix, or can a fix be done administratively? 
Or is it a matter of having the will to do it?
    Mr. Hamilton. It should be a legislative fix eventually, 
but to be blunt about it, you are not going to get around to it 
quickly and the problem is right now. So the only solution can 
come from the President now, and he has to make it clear, in my 
view, who has the authority and who doesn't. He has this 
ambiguous law out there, which is less ambiguous because of 
work in the Bush administration than it was, but it is still 
ambiguous, and as long as you have that ambiguity, you are 
going to have these agencies fighting for jurisdiction and 
power.
    That is what you are really talking about, the distribution 
of power here. So I think the immediate action has to be 
Executive, the longer-term action has to be Congressional and 
Executive. That law has to be clarified.
    Chairman Thompson. Thank you very much. One last question. 
A number of us, Governor, as you indicated, sent a letter to 
the President about the Privacy and Civil Liberties Board not 
being constituted. We received a reply, but to date no action 
has been taken to fill the vacant positions. We will renew that 
request after this hearing, given your testimony and your 
standing within this whole homeland security arena.
    So you may receive some calls prompted by our letter, but a 
substantial number of the Members of this committee felt that 
this board had an integral part in this whole process and that 
to leave it vacant was not in the best interests of that data 
collection effort. So we will pursue it.
    We now recognize the Ranking Member from New York for 5 
minutes for questions.
    Mr. King. Thank you, Mr. Chairman. I have to continue to 
call Congressman Hamilton ``Mr. Chairman'' because I served 
with him on the International Relations Committee and the 
Foreign Affairs Committee, and he was an outstanding Chairman.
    Chairman Hamilton, you were talking about the DNI. If I can 
follow up on that. I am on the Homeland Security and the 
Intelligence Committee. My perspective is that the DNI has very 
little real power in this administration. More and more I find 
that intelligence policy is being driven by the Homeland 
Security Advisor to the White House, John Brennan. We saw that 
after the Christmas day bombing. He was the one who was 
convening the public conferences, speaking to people in the 
community. I believe he has an inordinate amount of power in 
the intelligence community, as opposed to Admiral Blair, for 
instance, or even Director Panetta, and he is beyond 
Congressional oversight because of Executive privilege being in 
the White House. That, to me, adds a real problem, that we are 
finding more and more policy being driven from the White House 
on these intelligence issues.
    In addition to that, as we are finding more and more 
domestic cases, the Department of Justice obviously is involved 
early on; and as a result of that, it is declared a law 
enforcement or criminal justice matter, and Congress is not 
being briefed. I can speak for myself--and I believe there can 
be some degree of bipartisan agreement on this--we get very 
little information, I would say less information now than 
before for two reasons; one I think because the White House is 
controlling intelligence more, but secondly, because we are 
going to have an increased number of domestic cases, which 
become criminal justice cases, and they tell us information 
can't be given out because a law enforcement investigation is 
going forward.
    So in many ways we are going backwards, and we have to find 
a way to address that because I do believe we are going to find 
more and more of these domestic cases, and that is going to be, 
in many ways, the center of terrorism, and yet we are not going 
to get the information we need. So if you have any thoughts on 
that, or just take it back and consider it. Again, from my 
discussions, this is a bipartisan concern to one degree or 
another.
    Mr. Kean. I lead off by saying that I think we agree that 
it is absolutely essential that Members of Congress have the 
information that you need because you are unique in the 
intelligence area. I mean, if those of us who are citizens are 
interested in transportation, we can go listen to the 
Transportation Committee or the Environment, the environmental 
committees, or so on. But a lot of intelligence is secret, and 
so you have got to have that information in order to do your 
job, which is oversight. If you are not doing the oversight, 
then nobody is, the public and the press isn't allowed the 
information to do it properly. So I believe that your 
committees are more important in this area than any other 
committees in the Congress because you have that unique 
responsibility.
    I might say, as far as the DNI goes, it concerns me a bit 
because the DNI, both Lee and I believe, has got to be the 
strong leader of the intelligence community. If somebody else 
is taking even the public lead on some of these questions, the 
DNI is not where it is supposed to be in the public perception, 
which is part of the problem.
    Mr. King. As far as the public perception, I don't know we 
heard from Admiral Blair on Fort Hood, very little on the 
Christmas day bombing, and nothing, to date, that I am aware of 
on Times Square. So the public perception, and also the 
perception of the community, is that the DNI does not have the 
gravitas or the power or the clout that is needed to really get 
the job done.
    Mr. Hamilton. I think we have been quite clear as to how we 
think it ought to be; the DNI ought to have the power.
    Your observations about Mr. Brennan were of great interest 
to me. You are certainly right, I think, when you say he has 
had the public role in a number of these cases, but I don't 
think the intelligence community is going to function in all of 
its parts unless the DNI has the authority.
    The second question you raised has been a difficult one. I 
come, of course, from the Congress, and I believe very strongly 
in the right of the Congress to get information. I know how 
vitally important that is to a Congressional committee. I 
conducted a number of investigations, four or five of them 
probably, where we had a conflict between the Congress on the 
one hand wanting to get information and the prosecutors, in 
effect, saying if Congress gets the information, they are going 
to screw up the prosecution. That is not an easy question to 
resolve. I don't know any blanket rules that applies, there may 
be one but I don't know it.
    What it takes, I think, on an ad hoc basis, is for the 
principals to sit down and try to work it out so that the 
Congress gets the information in a timely way and the 
prosecutor's case is not disrupted too greatly. So I don't have 
any words of advice for you on this. It is an inherent problem 
that comes up again and again. There is a problem of it right 
now with the Senate committee--I guess that is the Homeland 
Security Committee--seeking information and the Department of 
Justice holding it back. So that is the only observation I have 
on that.
    Mr. King. Mr. Chairman, if I could just make one further 
point. In this regard, I believe that the Department of 
Homeland Security, since you are going to be faced more and 
more, literally, with homeland threat, actually threats 
emanating from the homeland, I think it is more essential than 
ever that the Department of Homeland Security be able to 
establish itself in that world, in that community. I don't 
believe the Department has been aggressive enough on that.
    Again, and this is not being critical of Secretary 
Napolitano, but again, when you look as these cases evolve, the 
Secretary of Homeland Security is not a major player in them as 
far as the public is concerned. I know in the Times Square case 
it was many, many days before we got any information from the 
Department of Homeland Security. I felt they were, at best, 
ancillary to what was happening, even though that was clearly a 
homeland security issue. So I am concerned that the Department 
is losing status, losing ground in that community. There is a 
lot of turf fighting in there. If the Department does not 
establish itself and get itself firmly implanted in that world, 
I think that also is going to weaken the Department as we go 
forward.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chairman now recognizes the gentlelady from California 
for 5 minutes, Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman.
    As most people know, 9/11 and the recommendations of the 9/
11 Commission have been central to my activities in Congress. I 
am passionate about fixing this problem, and I am enormously 
respectful of what our witnesses bring to this. I appreciate 
the fact that you have hung in for all these years and that you 
are continuing, on a bipartisan basis, on a beautiful 
bipartisan basis to work at this. I also want to applaud the 
Bipartisan Policy Center's National Security Preparedness Group 
and your staff leader, Michael Allen--an old friend of ours--
for sponsoring the kinds of conferences that you have.
    I participated in your recent conference on intelligence 
reform, and as one of the four principal coauthors of the 
Intelligence Reform Act of 2004, which was based on your 
bipartisan recommendation, I think the subject is fascinating. 
Let me just offer my view, which I offered there. I don't think 
the law is perfect. It was very difficult to get anything 
passed. But I think now we are down to 50 percent law and 50 
percent leadership. The law is adequate for the right leader, 
supported by the President, to be the joint commander that we 
envisioned. That is the role. It is not just coordinator--and I 
know wouldn't even call it leader, I would call it commander, 
as the Chairman of the Joint Chiefs is, over 16 intelligence 
agencies to leverage their strength and pull them together and 
use both the knowledge building and budget executing 
authorities that he or she has to make the concept work. So 
that is my two cents.
    On Peter King's point about the lack of Congressional 
reform, I strongly agree. It is an embarrassment that we have 
not acted in this Congress to reform our committee structure to 
have a sharper focus on the homeland security threat, which is 
the primary threat to our security in the world. This committee 
is jurisdictionally challenged. The Chairman knows I have 
spoken out everywhere I can about the need for us to get more 
jurisdiction and to be the focal committee here, as the 
homeland committee is in the Senate, of more legislation and 
more effort, both to provide oversight and to legislate where 
necessary. So that is a disappointment.
    I want to focus on a couple of things that were mentioned 
in the testimony and one that wasn't. First of all, the Privacy 
and Civil Liberties Board needs to be formed yesterday. My 
understanding is that the White House is currently vetting 
nominees. That is an improvement, but they are a year and a 
half late. This committee should have been actively 
participating over the last year and a half as we have tried to 
navigate an ever-evolving and very dangerous threat. So I hope 
that they will nominate people soon. I hope that their list is 
impressive. I think that once we have this committee at work, 
we will be doing what is essential, which is pointing out, as 
Tom, you said, that security and liberty are not a zero sum 
game, we really have to have both--more of both I would argue.
    If we don't live our values, I think the bad guys win. That 
is why, by the way, Mr. King--I don't see a need to reform 
Miranda, I see a need to use the public safety exception well 
and to have the best interrogation teams on the case. I think 
we will get farther that way and build more trust with the 
communities we need to come forward to tell us that there are 
family members or neighbors who are acting strangely. I also 
think that is the way we will win the argument with the next 
generation that is deciding whether to be suicide bombers or 
good citizens around the world.
    My time is running out, so let me just ask you about 
something you didn't touch, but it was one of your 
recommendations, and that is the need for a National 
interoperable communications network. I have only got about 40 
seconds, but I continue to believe that that is as serious a 
gap as the connecting the dots problem. I think we are doing 
much better with connecting the dots, I think we are not doing 
better with this interoperable capability problem.
    What is your view?
    Mr. Kean. Well, I would agree. Whenever there is an attack 
on the United States, it becomes immediately important that the 
first responders and others are able to communicate with each 
other immediately, on site, using the same wavelengths. There 
is no question. We were not there on 9/11, we were not there 
with Katrina, and we are not there yet. So I couldn't agree 
with you more. It is something we have got to concentrate on. 
It could have saved a lot of lives and it will save a lot of 
lives when we get this right. It is better, we are getting 
there, but too slowly given the threat.
    Mr. Hamilton. I don't know of anything that has frustrated 
us more than not solving the problem of the ability of first 
responders to talk to one another. It is an absolute no-brainer 
that the help, the police, the safety people, the fire people 
have to be able to talk with one another, and we are not there 
yet. It is amazing that 6 years after our report--or whatever 
it is--we haven't been able to accomplish that. What that means 
is that lives are at risk because of the inability to 
communicate. Some municipalities have made considerable 
progress, many have not. But we have got to keep pushing, and I 
thank you for bringing it up.
    Ms. Harman. Thank you.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chairman now recognizes the gentleman from Texas for 5 
minutes, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Hamilton and Mr. Kean, thank you all for being here. 
The Ranking Member just left, but I join him in welcoming back 
Mr. Hamilton, who when he was in Congress, was absolutely one 
of the most respected Members with whom I have served. So I 
appreciate your both being here.
    My first question goes to the 9/11 Commission's 
recommendation for a biometric entry-exit system. It so happens 
in a 1996 bill that I introduced that became law we had an 
entry-exit system. That has not been fully implemented; both 
Republican and Democratic administrations have not fulfilled 
their responsibility to obey the law. I wanted to ask how 
important you think it is that this administration implement 
that entry-exit system that you all recommended and that in 
fact is required law today? I don't know who wants to answer 
first, but I look forward to hearing from both of you all.
    Mr. Hamilton. Well, I commend your initiative. I think you 
are right on the mark. That was a unanimous recommendation; you 
had to have some means of identifying people coming in and 
going out of the country, and so we suggested the biometric 
system. I am delighted that you are still pushing it. I agree 
with you that it ought to be of the highest order.
    We have done better on the entry side than the exit side. 
We haven't done anything on the exit side, there has just been 
too much opposition to it. But we have got to override that 
opposition. You have got to keep track of these people coming 
in, you have got to keep track of them while they are here, you 
have got to keep track of them when they leave. We are not able 
to do that. I don't know how you do that without some kind of 
an identification system if you don't have it. So your 
initiative is, I think, very worthy.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Kean, anything to add?
    Mr. Kean. I would just echo, I think the initiative is 
praiseworthy. I don't know of any other way we are going to 
make our borders safe.
    Mr. Smith. Another recommendation of the 9/11 Commission 
was to set standards for the issuance of sources of 
identification, such as driver's licenses. You all know that in 
2005, we passed the REAL ID Act, it is now on the way to being 
implemented by a majority of States. Yet, frankly, this 
administration wants to change it and wants to eliminate the 
requirement that the States check the identification documents 
that are being used when applicants try to obtain a driver's 
license. Do you feel that that is somehow weakening our 
homeland security defenses? It seems to me we want to leave 
REAL ID as it is, require that the identification be confirmed. 
Do you feel that we should do just that, or do you feel that we 
should repeal the REAL ID Act as this administration seems to 
feel?
    Mr. Kean, Mr. Hamilton.
    Mr. Hamilton. I am not sure I can get into the details of 
that because I haven't followed it closely, but I will tell you 
how radical I am on it. I believe we ought to have an 
identification card. I know there are objections to that on the 
left and on the right. Someday we will get there, other 
countries have it. We are going to have to have it for purposes 
of--a lot of purposes, but certainly in controlling our 
borders. That may go a lot farther than you or others may 
support, but we have to have confidence in the identification 
or the system just doesn't work.
    Mr. Smith. The administration on the REAL ID Act actually 
wants to, as I say, eliminate the requirement that States 
verify the validity of identity documents that are used when 
applicants apply for driver's licenses. So I assume you would 
be opposed to any elimination of that.
    Mr. Hamilton. I think I would, Mr. Smith, although let me 
emphasize that I haven't looked at that very hard.
    Mr. Smith. If anything, it sounds like you want to 
strengthen it.
    Mr. Hamilton. That is exactly right. The necessity of 
having an accurate identification is key to homeland security, 
I believe. I want to emphasize the 9/11 Commission did not 
approve the idea of an identity card, I was kind of out here in 
the wilderness on that one. So we kind of compromised on it.
    Mr. Smith. Thank you. The last quick question is, what 
recommendation of the 9/11 Commission that has not been 
implemented do you think is the most important?
    Mr. Hamilton. Well, I think the one we just talked about 
with Representative Harman is No. 1, and No. 2----
    Mr. Smith. You are welcome to use either of the two 
examples I just gave, by the way.
    Mr. Hamilton. Well, they are very important observations. I 
would add another one, I think you have to have somebody in 
command at the site, and we haven't solved that problem either. 
That is another no-brainer. Somebody has to be in charge. 
Somebody has to make literally hundreds of decisions very 
quickly when a disaster strikes. You are going to make some of 
those decisions wrong, but you have got to make them because 
there are all kinds of problems that pop up, food, water, 
safety, sanitation, security.
    Mr. Smith. Thank you, Mr. Hamilton. My time is up, but I 
want to give Mr. Kean an opportunity to briefly respond as well 
if he wants.
    Mr. Kean. I would agree with Lee, as we usually do. The 
ones that have only been partially followed, such as the 
sharing of information, that is key, that we have got to keep 
on pressing and pressing--and I hope this committee will keep 
on pressing on that one. Then some of the others seem easy 
because they are so logical, but they haven't been done yet, 
like the interoperability of communications networks on the 
site. They are obviously not easy because they haven't been 
done, like the creation of civil liberties or obviously 
Congressional reform.
    Mr. Smith. Thank you, Mr. Kean. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chairman now recognizes the gentleman from Missouri for 
5 minutes, Mr. Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman. I thank both of you 
for being here.
    I have a rather well-known blood relative who was the 
subject of a lot of controversy due to his best seller, ``Soul 
On Ice.'' As a result of the fact that we have the same last 
name, I ended up on the watch list as a Member of Congress. It 
took a lot of work and help from American Airlines and my staff 
to get that changed.
    Based on what happened, both with regard to the attempted 
Christmas day bombing and the recent Times Square failed 
attempt, do you believe that there is something awry with the 
watch list system? I mean, if we have to take somebody off an 
airplane, it has already failed. Then when I look at my own 
personal experience, something is wrong, and something needs to 
be done, I think. I would like to get your opinions, and 
perhaps even to make some suggestions on what needs to be done.
    Mr. Hamilton. I think the fact is that we don't have one 
watch list, we have dozens of watch lists. It seems to me we 
ought to have a single watch list and be very careful about the 
names that go on it, obviously, and it has to be managed and 
screened very carefully. My impression is that various 
departments have different watch lists, and that we have a 
conglomeration of them. I think our idea on the 9/11 Commission 
was that we have a single watch list, which would be an 
integrated watch list from all of the departments of Government 
that have some responsibility in homeland security. But the 
need to refine that and make it more accurate is hugely 
important.
    My impression there is that we have not done a very good 
job of integrating the watch list or sharing its accuracy, and 
we just keep adding thousands and thousands of additional names 
to it. So I think the watch list needs a lot of work.
    Mr. Kean. I don't know if this is still true, but for a 
long time, the very worst actors or people we worried about, 
most weren't on the watch list. Somehow it violated to let the 
airlines have those names, somehow they thought it was going to 
jeopardize National security, so they weren't on it. That is 
obviously, to me, another no-brainer; of course, they should be 
on it.
    I think the Christmas day bomber and perhaps the Times 
Square bomber did us a huge favor because it got us to look 
again at the watch list and the problems with it. It got us to 
look at the problem of information sharing again and the 
problems with it. It focused our attention at a time when our 
attention had quite naturally wandered, it was being diverted 
by all sorts of other important problems facing this country. 
What they did, we can't always count on people being 
incompetent or using faulty technology. We found out some of 
the things that we did wrong and we are not going to repeat 
those mistakes, like the problem with the watch list being one 
of them.
    But we can't count on our luck. We can't make those 
mistakes again and we've got to get in front of the problem and 
anticipate some of these problems and try to correct them ahead 
of time. The watch list is certainly one of them. You are 
right.
    Mr. Hamilton. We have got multiple watch lists. We have got 
a Selectee list; we have got a No-Fly List. I frankly get 
confused with it all. It seems to me we ought to have a system 
where the fellow at the airline counter can hit the button and 
he can tell whether this guy is a dangerous person getting on 
an airplane or not. Now, that is, I guess, overly simplistic, 
but that is what you have got to have, and you have got that 
information available instantly. You can't take a day to find 
out about it. I think the technology is that we can achieve 
that. But we are not there.
    Mr. Cleaver. Thank you. I thank both of you.
    Chairman Thompson. Thank you very much.
    The Chairman now recognizes the gentleman from California 
for 5 minutes, Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman. I want to 
thank both of our guests here today because of the great work 
they have done, Governor and Lee. They talked about your being 
former Chairman, but I know you also were someone who played 
Hoosier basketball before they had the movie ``Hoosiers,'' and 
I don't want to forget that.
    One of the things that has been so frustrating for me since 
I came back in 2005 and it appears to me frustrating for the 
two of you is what I call the lack of urgency to deal with this 
problem.
    Governor Kean, you just mentioned that maybe we should be 
thankful for the failed attacks because it caused us to be 
concerned again, but we can't depend on failed attacks to keep 
that level of urgency that's necessary. This hearing is 
reflective of that, where the multiple TV cameras discussing 
one of the most important issues facing this Nation. It almost 
appears that we in the Congress are still reactive rather than 
proactive.
    We had the Christmas attempted bombing, and then we were 
concerned about it and it was an issue of high import here for 
3 weeks. Then we had the failed attempt in Times Square and 
that's been on people's minds for about 2\1/2\ weeks, although 
I see that ebbing away as well. So I want to thank you for your 
continued effort to try to provide that sense of urgency. I 
note the words that you used about the failure of us to respond 
to one of, I believe, the important recommendations of the 
Commission, that is, the consolidation and direction of 
Congress on this issue where you used words, without taking 
serious action, we feel this unworkable system could make the 
country less safe.
    I hope you stand by that statement because oftentimes, 
people's normal reaction is that it is just about process here. 
So what we have 100 and some committees and subcommittees? So 
what that there's jurisdictional wrangling? How could that 
impact us in the way you have just stated? But you have 
stated--our failure to deal with this jurisdictional milieu can 
make the country less safe. Could you sort of elaborate on 
that?
    Mr. Hamilton. Mr. Lungren, I thank you for mentioning the 
lack of urgency. I guess if there has been a common theme to 
what Tom and I have talked about since the Commission 
disbanded, it was just that point. We have an enormous problem 
in the country of course in establishing priorities. We all are 
very much aware of that. But we don't think there is any higher 
priority than the protection of the--and the security of the 
American citizen.
    We have said over and over again that a lot of good work is 
being done, a lot of good people working on it, but when you 
visit these various places and you talk to the officials 
involved, you come away with a feeling that they do not have a 
real sense of how urgent the problem is. There are people out 
there still and a lot of them who want to kill us, and we have 
got to be very much attuned to that and do everything we can to 
protect ourselves against it. I like your point about the 
jurisdiction in the process. I know that gets to be a highly 
technical matter and an enormously controversial matter in this 
Congress.
    I don't know of any tougher problem--I served on every 
Congressional reform committee that came along during the 34 
years I was in the Congress and I have dealt an awful lot with 
the question of jurisdiction, and I know how difficult and 
sticky it is and what passions it arouses in Members of 
Congress, but they have to keep their perspective, their eye on 
the ball here, and that means the security of the American 
people.
    When you are fighting about jurisdiction and you are 
splitting jurisdiction among 108 committees on homeland 
security, all of that energy, all of that effort is not going 
towards what it ought to be going towards, which is the 
security of the American people. It is an enormous diversion 
from what the Congress ought to be focusing on. So we were very 
critical of the Congress on this question. We remain very 
critical of the Congress on it, and you have to get your house 
in order.
    Mr. Lungren. I appreciate that. To point out a number of 
things that the two of you have contributed in the testimony 
today, the DNI needs to be a real position with real leadership 
and either legislatively or administratively that has to be 
done; otherwise it just gets in the way, adding another layer 
that we didn't have before we made the changes.
    Second, you have told us here in the Congress we need to 
get our act together so that we can concentrate on these things 
because as you say, if we don't, the consequence is it could 
make the country less safe.
    Just the third thing I would just mention, and we don't 
have time to get into this, but I do fear we have a continued 
problem with understanding the nature of the threat against us 
and understanding that as we utilize the criminal justice 
system and the counterterrorist system or concept, there are 
challenges there that we need to deal with first and foremost. 
I am sorry my friend from California left because on Judiciary, 
we have been trying to deal with this question of the 
Mirandizing issue. It is not as simple as just extending the 
public safety exception because the public safety exception 
deals with an imminent danger such as a loaded gun being within 
the reach of a suspect as you are questioning him, not the 
extended kind of danger we have from a terrorist situation. We 
are going to have to deal with that up front and not just kind 
of pass it by. So I thank you for your testimony.
    Mr. Carney [presiding]. I thank the gentleman.
    The Chairman now recognizes the gentlewoman from Arizona, 
Ms. Kirkpatrick.
    Ms. Kirkpatrick. Gentlemen, thank you so much for being 
here today and thank you for your great work. I am very 
impressed with your clear concise recommendations, and I will 
continue to press for their implementation as quickly as 
possible.
    Representative Hamilton, I wanted to follow up on Mr. 
Smith's question about the Biometric Exit Program. You know, it 
is clear to me we need to do that. I am just wondering what are 
the obstacles that have prevented that implementation?
    Mr. Hamilton. It is my understanding that the airlines have 
strongly objected to exit checks because they think it would 
slow the process of boarding passengers and the like and so far 
as I know, that is the principal objection, but there may be 
others as well.
    Ms. Kirkpatrick. Do you know if there are any objections at 
the ports of entry, the land crossings?
    Mr. Hamilton. I do not know about that.
    Mr. Kean. I think there was some actually because some of 
the border States there are people who cross the borders back 
and forth sometimes seven or eight, nine times, ten times a day 
because of the kinds of jobs they have in some of those border 
States. So some of the Governors and some of the States, as I 
understand it, put up an objection to anything that would 
impede that process or slow it down.
    Ms. Kirkpatrick. I represent a border State, Arizona, and 
recently toured the border. Both the citizen traffic--and I 
also went to the port of entry and it is really clear that the 
agents have a very difficult time identifying folks who are 
coming and going, and I think that should be a top priority of 
the administration.
    But I am also concerned about funding. In Arizona, we have 
hundreds of thousands of dollars of cash going across the 
border, and it occurs to me that it is very important for us to 
attack the financing of these terrorist groups. So, Governor, 
would you address what we are doing to cut off financing? Do 
you think we are doing enough? What more should we be doing?
    Mr. Kean. Actually, when we graded the various Government 
agencies, I think we gave Treasury one of our highest grades, 
as I remember, for the tracking of money. We thought they were 
doing a very good job at that time. I have not personally 
reexamined that issue, but there were a number of--some of 
which have become public in what used to be private, but there 
are a number of tools that they have been using in cooperation 
with other governments to track dollars to terrorist 
organizations, and my impression was that they were doing a 
pretty good job in that area.
    Ms. Kirkpatrick. Do you have any information about the use 
of these prepaid cash cards going toward funding of terrorist 
organizations?
    Mr. Kean. I don't.
    Mr. Hamilton. I don't think anyone believes that you can 
stop terrorist activity just by going after their finances. But 
I also believe that almost everybody believes that going after 
their finances is an absolutely essential tool and it takes a 
good bit of sophistication as to how the financial world works. 
I think we have learned a lot on that, and my impression is--I 
may not be up to date--is that we have improved our tools at 
identifying financial transactions involving terrorists. So it 
is an element of our anti-terrorism activity that has to be 
always strengthened wherever we can. It is an important part of 
it, but we will not in the end by that tool alone cut off 
terrorism, but it is an important part of it.
    Ms. Kirkpatrick. I have about a minute left. I have one 
other question and this is about stopping terrorist travel. You 
have made a number of recommendations for tightening border 
controls and fostering international information sharing to 
impede the ability of individuals with terrorist aspirations to 
enter the United States but with the high-profile arrests of 
Faisal Shahzad and Colleen Rose known as Jihad Jane, have we 
entered a new phase of terrorist activity in America where we 
now see American citizens carrying out terrorism on behalf of 
foreign terrorists?
    Mr. Kean. This is the strategy now. I mean, this seems to 
be the way that terrorists have decided to attack us. We 
strengthened after 9/11 ways in which we stopped terrorists of 
certain nationalities coming from various countries. So the 
gold standard for a terrorist now is to try to get an American 
citizen, and if it is an American citizen who looks different 
than somebody might conceive of a terrorist looking that's even 
better.
    So their emphasis of them trying to track these kinds of 
people--and it is very dangerous for us because these people 
can travel freely in and out of the country because they are 
American citizens. We also know that Mr. Alawi who we actually 
first identified in the 9/11 Report, has become extraordinarily 
dangerous because he understands how to talk to vulnerable 
Americans and he understands how to recruit in a way that 
people have not been able to recruit before for al-Qaeda. So 
this is the new--this is the new threat. This is what we have 
to get ahead of. This is not what we are used to. This is not 
9/11. This is a new threat. American citizens who have been 
lured by somebody like Alawi because of whatever problems occur 
in their own lives and it is a much more difficult problem. It 
is a problem we have got to get ahold of and get ahead of.
    Mr. Hamilton. We mentioned in our testimony that there are 
certain trends that are taking place in the terrorist threat. 
One of them, for example, the decentralization of al-Qaeda, but 
another one certainly is the increasing emphasis they are 
putting on recruitment of people who are homegrown, who speak 
English, who have a Western passport, probably have American 
citizenship. As Tom has mentioned that has become the focal 
point of a lot of our National security conversations now. This 
is not an easy problem. We have about 200,000 Americans a year 
who travel from here to Pakistan. As I said earlier, Pakistan 
is often at the core of these attacks in one way or the other.
    Keeping track of 200,000 people is no easy task, but we are 
trying to do it and we have become much better at it than we 
were. But obviously 99.9 percent of them are good people doing 
legitimate things, and it is a problem picking out the bad guy. 
Two hundred thousand just in the one country. Add Somalia, add 
Yemen, add another a number of other countries, Afghanistan, 
Iraq, and so forth, and you can see the problem that confronts 
us.
    Ms. Kirkpatrick. Thank you, gentlemen. Thank you, Chairman, 
for allowing me a little additional time.
    Mr. Carney. Of course.
    The Chairman now recognizes the gentleman from 
Pennsylvania, Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    Good morning, gentlemen. I think one area that we really 
haven't fully explored about Faisal Shahzad is the process by 
which he became a naturalized citizen. He reportedly entered 
the country more than 10 years ago on a student visa; then he 
obtained a work visa before marrying a citizen and then 
becoming naturalized himself. Given that he tried to blow up 
Times Square a little more than a year after becoming a 
citizen, questions are now surfacing regarding the security 
check requirements for naturalization.
    Do you think there are limitations on the ability of 
Federal immigration officials to conduct robust security 
screening on those seeking to become citizens or legal 
permanent residents?
    Mr. Kean. That is a good question. I am not as familiar 
with that as I perhaps should be. He, of course, had gone and 
gotten an advanced degree as well which would indicate to 
somebody he was well on the way to being a productive citizen 
of this country and so he was a tough one I think to figure 
out. Something obviously--we don't know what it is yet--
something went terribly wrong in his life or somebody got to 
him or something, but it is important we follow procedures and 
get these people ahead of time. But he would have been a 
difficult one to catch, I think, because he seemed to be in the 
right path to becoming a good American citizen.
    Mr. Dent. Right.
    Mr. Hamilton. Mr. Dent, it is a good question. I must say I 
just haven't examined it. When we did the 9/11 Commission 
Report, I don't think the question ever arose as far as I can 
remember. We want to welcome people into this country. We want 
to be a welcoming country so far as new citizens are concerned. 
But I think the events that you have identified clearly put us 
on the alert that we have got to be a lot more careful before 
we make a person a naturalized citizen.
    Mr. Dent. Thanks, and I appreciate your honesty there. 
Perhaps maybe going forward no one will ask any question about 
it, but we need to better integrate our naturalization process 
with our National security apparatus and I am not sure that any 
of us have that answer here today how we should do that, but it 
is something that we as a committee and as a Congress may want 
to look a great deal more at, naturalization and National 
security interests.
    My next issue revolves around the Secure Flight Program, 
which I know that you were--both of you. I thank you again for 
your leadership on the 9/11 Commission, but I know that one of 
your big recommendations was for TSA to assume the 
responsibility for airline passenger prescreening against a 
terrorist watch list, and I think that was on page 393 of the 
9/11 Commission Report. As you know, in 2004 Congress passed 
the Intelligence and Terrorism Reform Act, which included the 
Commission's recommendations that advanced airline passenger 
prescreening be conducted by TSA. TSA, as you know, after many 
fits and starts, created the Secure Flight Program to carry out 
this important function. The passage of the Intelligence Reform 
Act was nearly 5\1/2\ years ago and Secure Flight is not yet 
fully implemented, although we are told it will soon be.
    Had Secure Flight been fully implemented, the Times Square 
bomber would have not been permitted to board a flight to Dubai 
because TSA would have caught the recent addition of Shahzad's 
name to the No-Fly List. TSA tells us that Secure Flight will, 
in fact, be fully implemented for domestic air carriers by the 
end of June and for foreign carriers by the end of this year.
    As you know, there have been many factors that have delayed 
the implementation of Secure Flight, including pressures from 
privacy and civil liberties groups and criticisms from the GAO.
    Are you concerned that nearly 9 years after 9/11 and nearly 
5\1/2\ years after Congress mandated the passage of 
prescreening against the terror watch list be done by the 
Government, we still have terrorists boarding commercial 
flights?
    Mr. Hamilton. I think, Mr. Dent, the ability of screening 
the checkpoints and screening the passengers, the inability to 
detect explosives is a point of high frustration for us. We 
have--here we are--this was a problem well before 9/11. Here we 
are, we do not yet have a detection device that can spot all 
the explosives that a terrorist may bring on. We do not have a 
device, as I understand it, today that could have stopped the 
underwear bomber. You might have gotten him with one of these--
--
    Mr. Dent. Whole body scans might have----
    Mr. Hamilton. Body scans, but not necessarily.
    Mr. Dent. Correct.
    Mr. Hamilton. We have put a lot of money into this in 
trying to develop detection equipment. I am kind of frustrated 
by it. I don't understand the science of it, of course. But we 
have to come up with devices that can detect all of the 
explosives the terrorists can think about. You know the kinds 
of metal detectors we now have when you stop to think about it, 
the terrorists have moved beyond that and they have outfoxed us 
and they now have new ways of exploding things. It is a catch-
up game all of the time, it seems to me. But I do not 
understand why we cannot detect these things.
    I am all for the money being spent to try to find out the 
right device, but when you consider all of the superb 
scientific talent we have around this country, it seems to me 
we ought to be able to figure out a device that will detect 
explosives.
    Mr. Kean. I think also--I am frustrated obviously by the 
length of time that has gone by, but I noticed--I came in this 
morning through the airports, and the public is willing to 
accept anything in the name of security, and they have accepted 
all sorts of inconvenience. Yet if it is going to make them 
safer, they will accept it. So unlike other things, that is not 
our problem. I mean, the public is with us. So we need, what we 
need is the technological and the Governmental will to get 
these things done and get them done yesterday.
    Mr. Dent. Thank you. I see my time has expired.
    Mr. Carney. Thank you, Mr. Dent. According to the sheet, 
here, it is my turn.
    I, first of all, thank you both for being here. This is an 
honor I think for everybody in the committee to have men of 
your background and intelligence and clarity and wisdom 
speaking to us. I only have really a couple of questions. One 
is kind of operational and one is perhaps existential. The 
first one: Do we have the correct mix of ints employed in this 
challenge?
    Mr. Hamilton. Mix of what?
    Mr. Carney. Intelligence capabilities employed in this mix, 
the mix we have, employed in this challenge of the global war 
on terror or whatever it is called now?
    Mr. Hamilton. Well, the heavy emphasis on intelligence has 
been collection. We are superb at it. We can really produce the 
data. We have had a great deal of difficulty in developing the 
analytical capability, and if you go downtown and talk to these 
Executive branches like the FBI and the CIA and DHS and all the 
others, DOD, they will tell you that one of their greatest 
needs is developing the analyst.
    You don't develop a good analyst in a year or 2. It takes 
several years. As I indicated early in my testimony, the 
analyst now drives intelligence. You can't--you simply cannot 
operate in the intelligence world today unless you have 
effective analysts. So your question about the capabilities 
are--I would put much less emphasis on collection and much, 
much more emphasis on analytical capability. That is what will 
drive your intelligence as a preventer of terrorism.
    Mr. Kean. Another--this has always been true, it seems to 
me, ever since I have been in this field. We still don't have 
enough what is called human intelligence. We don't have the 
language skills. We don't have the people employed. We are 
technologically terrific, but we just simply haven't been able 
to bring in the trained people into the human intelligence area 
that we need to if we are going to be successful in this area.
    Mr. Hamilton. When I chaired the Intelligence Committee 
decades ago, we were worried about the inadequacy of human 
intelligence. We have been worried about the inadequacy of 
human intelligence ever since I can remember, and that goes 
back 40 years. The conventional wisdom in this town has always 
been we have got to have better human intelligence. When Mr. 
Tenet came before us to testify--Tom, you will remember--he 
said we are going to put more emphasis on this and it will take 
us 5 years, and we were astounded because it was going to take 
so long. It has taken longer than that and we are still not 
there.
    Mr. Carney. Why don't we have it?
    Mr. Hamilton. Look, the problem is this: There are a lot of 
problems, but you are asking a person to put their life on the 
line for years. You are going to pay them--I don't know--
$100,000 a year. You cannot take a guy from the Midwest like me 
and expect he is going to penetrate Osama bin Laden's cell. You 
have got to have a person with a specific background and so 
forth and makeup, ethnicity.
    Mr. Carney. We had a high school kid from California do 
exactly that.
    Mr. Hamilton. Okay. You bet. So you have to pick these 
people out. You have to train them. How many people do you 
know, Members of Congress, who would be willing to go 4, 5, 6 
years living under the harshest conditions in Iraq or 
Afghanistan or Pakistan, you pay them $100,000 a year, and 
their life is on the line every single day? They can't come 
back home for vacation. That is the tough problem and that is 
why the human intelligence is such a formidable task for us.
    Mr. Carney. My final question, my second question: We are 
directing our resources to prevent them from gaining victory. 
But what in their minds, our enemies' minds, constitutes 
victory?
    Mr. Kean. Well, if you take the statements of Osama bin 
Laden, it is to have the United States totally outside of their 
the Arabian peninsula, in some cases to have the State of 
Israel destroyed and the Palestinians regiven their land. Those 
are about the two biggest objectives that Osama bin Laden has--
--
    Mr. Carney. What about the caliphate from Indonesia 
across----
    Mr. Kean. Well, that is out there. I don't think he has 
been explicit in that one but certainly it is out there, yes.
    Mr. Hamilton. I think we have to be very cognizant of their 
tactics. They want to exhaust us on many fronts. They want to 
cause us turmoil. They are--Tom, what did we figure it cost 9/
11, five----
    Mr. Kean. Not much.
    Mr. Hamilton. A few hundred dollars.
    Mr. Kean. It was not expensive.
    Mr. Hamilton. The reason they look upon 9/11 as such a huge 
victory is not just because of the 3,000 people they killed but 
because they spent a few hundred dollars and we spent multiple 
billions of dollars in homeland security, defense, fighting two 
wars and all of the rest. If you look at it from their 
perspective, that is a big victory. So they want to exhaust us. 
They want to cause turmoil. They want to bankrupt us. They want 
to drive divisions among our allies and our friends. They want 
to destabilize things. They want to put fear into our hearts. 
All of these things are tactics that they employ. The ultimate 
is what you suggested probably, but that they recognize is 
very, very far off, establishing a caliphate.
    Mr. Carney. So the sense of a strategic victory by tactics 
is what we are struggling with here in this question.
    Mr. Hamilton. I think that may be a good way to put it. But 
they really are focused, I think, much more on tactics at the 
moment than trying to achieve their ultimate goal.
    Mr. Kean. It is interesting by the way, they considered the 
Underwear Bomber a victory because it disrupted us. Even though 
it was unsuccessful, all of a sudden everybody was running 
around saying what did we do wrong and Congressional hearings 
and newspaper headlines and all of that. They considered that a 
victory.
    Mr. Carney. Okay. Thank you. My time is way up there.
    Mr. Austria, please, for 5 minutes or so.
    Mr. Austria. Thank you, Mr. Chairman. I would like to thank 
both of you, Mr. Chairman and Governor, for being here today 
and providing the committee Members with testimony as far as 
updating us as far as the 9/11 report and the progress we have 
made. I think it is very important. My line of questioning was 
going to go down to traveling, but we have had three questions 
in that area particularly with flight safety and I appreciate 
your responses as far as technology that is being used and 
investments being made, as far as the multiple watch lists out 
there, having a single watch list, and having that information 
brought together and integrated together and the fact that you 
brought up we need one person or a single point or a principal 
point of oversight to review the homeland security.
    One of the areas I wanted to go into to talk a little bit 
about was emergency communications at the local, State, and 
National level, because I know when the initial report came 
out, you noted the tragic consequences of the inability of 
first responders to be able to communicate with each other 
effectively because of all the multiple agencies and the 
different jurisdictions. I guess my question would be how would 
you assess that today?
    Have we made progress on that? Where are we compared to 
what those recommendations were, where we should be? Do you 
believe if there was another large-scale terrorist attack today 
in the United States, with the multiple agencies, would they be 
able to be respond with all the multiple jurisdictions out 
there to be able to effectively communicate with each other, in 
particular, our first responders?
    Mr. Hamilton. I think it might depend a lot on where it 
occurred. But in most cases, I don't think we have the ability 
to get effective, reliable communications at the point of the 
disaster because we haven't got that worked out yet. Have we 
made a little progress on it? Yes, maybe 25, 35 percent there, 
but we are not there yet. Now, this gets into complicated 
questions of the radio spectrum. The radio spectrum, of course, 
is a very valuable piece of property, and yet our view is that 
a sufficient amount of that radio spectrum should be set aside 
for the public interest in being able to respond and some 
progress has been made in that direction, I think, but not 
nearly enough. So I think it remains a huge problem, and if we 
were to have another disaster again, we would lose lives 
because we have not resolved it.
    Mr. Kean. Let me give you another example because one 
person in charge is so important at the time--one agency at 
least. In New York City, which I know best, Mayor Bloomberg has 
made a lot of progress because he finally solved the 
controversy between the police and fire department. Now in an 
emergency, he said the police are going to be in charge, as 
they weren't--when the 9/11 attack came, we didn't know who was 
in charge; so now it is the police. But what happens if happens 
in the subway? It is the transit authority. Who appoints them? 
The Governor. What if it is in the tunnels or bridges? It is 
the Port Authority. Who do they report to? The Governors of two 
States. So there still isn't the command authority, even in New 
York City, which may be prepared as well as anybody now, that I 
think we need. Every city, every State, every area ought to 
have a command authority in charge. So any emergency that 
happens, there's one agency to report to. That is absolutely 
vital and we are not there yet.
    Mr. Austria. Do you have any recommendations as far as how 
can we move forward and make progress? Because a big concern of 
mine is--and when you are dealing with all of these different 
jurisdictions at local level, State, Federal, who has 
jurisdiction over what, who would be the entity to take a lead 
on this in moving this forward?
    Mr. Kean. Maybe it is my background, but I think the 
Governor. I think that is the logical, logical person in every 
State. If it is an entity as large as New York City, then I 
think the mayor. The mayor has got to make those 
determinations. For instance, in my example, I think the mayor 
should be asking if he hasn't already the Governors of New York 
State and the State of New Jersey if necessary to give him the 
authority in case of an emergency so that there is one agency 
in charge.
    In the case of New York, that would be the police. In the 
case of New Jersey, I know it is the State police that are put 
in charge during an emergency. But every State under the 
Governor, I think, ought to have that responsibility and have 
it clear.
    Mr. Hamilton. It is an easy problem to State and we have 
done a reasonably good job of stating it. It is a very 
difficult problem to resolve.
    Mr. Austria. One last question I have, Mr. Chairman----
    Mr. Hamilton. If you have a disaster taking place in one 
State, the Governor probably ought to be in charge, but even in 
that case, you have got to think of resources. For example, 
when Katrina hit, the Governor of Louisiana, as I recall, made 
a statement saying that she had at her command a handful of 
helicopters. She needed 150. Where are you going to get 150 
helicopters? There is only one place: the DOD. So in so many of 
these areas where you have massive problems as a result of an 
attack, the Federal Government is certainly going to have to 
come in at some point.
    Now, the reason this problem has been so difficult to solve 
is because it is a tough political problem. The mayor likes to 
think he is going to be in charge, or she. The Governor thinks 
that he or she ought to be in charge. They don't have the 
resources often to do it. The Federal Government is going to be 
involved heavily one way or the other. Working that problem out 
in advance is very hard to do, but I think we have to work hard 
to try to figure out who is in charge at the scene of a 
disaster.
    Mr. Austria. I know my time has expired. So thank you, Mr. 
Chairman, and thank both of you for your hard work on the 9/11 
Commission report. I appreciate it very much.
    Mr. Carney. Mr. Green, 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. I thank the witnesses.
    I have just so much respect for your clarity of thought. It 
is very obvious, in fact, intuitively obvious to a casual 
observer that you have given a lot of thought to these 
questions and it is important that we receive the benefit of 
your thinking and I cannot tell you how important this hearing 
has been and thank you and I trust that we will continue to 
benefit from your clarity of thought in the years to come. I am 
one of those persons who had the misfortune of being involved 
in the stock market at one time and I had a great analyst. He 
could always tell me the day after why I lost money the 
previous day. He could never quite get it right before. I would 
always marvel at his ability to do this.
    It seems to me that some of what we have is a benefit of 
great hindsight that allows us to connect dots because we see 
how important the dots are. But before with the foresight is 
sometimes difficult. I am mentioning this only because I just 
want to say a kind word in defense of the people who have to 
connect these dots. When you are inundated with just an 
inordinate amount of material and intelligence, and it just 
seems that so much of it is important, it really is sometimes 
difficult with trying to use the benefit of foresight to 
connect these dots.
    After an event, it becomes so obvious to you: Well, why 
didn't--we should have, sure, there, it was right there before 
our eyes, somebody should have, why didn't you call, why didn't 
you send the information to--it is easy after the fact. These 
people have some of the toughest assignments in the world, and 
when I hear us criticizing them for getting a break, it hurts 
my heart because we got a break and it so happens that that 
break helped us to solve a mystery as it were. But that happens 
in this business. You need a break to solve some of these 
problems because there is just so much information. I want to 
compliment them, all of them. I just don't know how I can ever 
be grateful enough, but I want to say thank you to them for the 
work that they do.
    Something that you said I want to reemphasize. You talked 
about how we compensate them and what we expect from them. I am 
taking that to heart. I am not sure how we can resolve the 
question of giving them adequate compensation. Whatever we pay 
them it won't be enough, but we ought to try to pay them such 
that they become a part of a class of professionals that we can 
respect and people will want to do this because if you want 
compensation as a reward, then you will get that reward. But I 
also think that appreciation is a great part of the 
compensation that is needed to attract and retain people in 
this area of endeavor because human intelligence is just 
absolutely a necessity.
    Now, with 1 minute and 16 seconds left, I have to go to one 
other place and that is first responders are an absolute 
necessity, but as we learned from Times Square, it is not only 
the officer on the beat but also the vendor on the street that 
makes a difference too. I think that while we get a lot of 
intelligence we have to continue to encourage the public to 
play a role in this because the public has a vital role in 
seeing that. I think it originated in New York--``See 
something, say something.'' It is important for the public to 
be involved in this process and helping us to acquire the 
intelligence so that the analysts can give us a proper 
assessment of what the intelligence reveals.
    I wish I had a great question for you, but I have heard my 
colleagues and they have all gone into areas that were of 
interest to me; so I just conclude with a word of thank you for 
the outstanding contribution that you have made to the safety 
of our country. We throw these words around calling people 
patriots. Sometimes they deserve it, sometimes they don't. But 
I think it is fair to say that you are both great patriots and 
we owe you a debt of gratitude. Thank you very much.
    Mr. Chairman, I yield back the balance of my time.
    Ms. Richardson [presiding]. Mr. McCaul is recognized for 5 
minutes.
    Mr. McCaul. Thank you, Madam Chairwoman.
    Mr. Green. I apologize, Madam Chairwoman.
    Ms. Richardson. No problem.
    Mr. McCaul. Let me, like everybody else, thank you for your 
great work not only on the 9/11 Commission, but Mr. Hamilton on 
the Iraq Study Group as well. I think that report help turned 
that war around in a profound way and I want to thank you for 
that as well.
    I know my colleague from Texas talked about, it is true, 
hindsight is 20/20. It is easy to find where the dots weren't 
connected after the fact. But one of the main recommendations 
coming out of the Commission was information sharing. I am the 
Ranking Member on the Intelligence Subcommittee. We had a 
recent hearing with the Director of Intelligence and Analysis 
on this issue. We have had some intelligence successes but we 
had to be right every time. They only have to be right once.
    But I want to just highlight two failures in terms of 
lessons learned and how we can improve. One is in the case of 
the Fort Hood shooter Hasan. We know that the Joint Terrorism 
Task Force had information that Mr. Hasan was communicating 
with a cleric in Yemen, Mr. Awlaki, one of the biggest threats 
we have today, and yet--with the DOD representative on that 
task force, and yet that information was not shared with the 
commanding officer, General Cohen, at Fort Hood, which is right 
next to my district in Texas.
    He was very concerned about that, I understand, in terms of 
sensitivities of investigations. But at a very minimum they 
could have said, you know, you have a major on your base who 
has been talking to one of the top al-Qaeda recruiters and you 
may want to keep an eye on him, and just maybe that would have 
prevented that horrible disaster from happening.
    The second is the Christmas bomber. We know that the father 
came into the embassy and warned about his own son being with 
extremists in Yemen. We know that the NCTC had threat 
information streaming in as well and yet that--he was allowed 
to still have his visa and his passport and he got on an 
airplane. The Senate Intelligence Committee found 14 
intelligence failures leading up to the Christmas day attack 
aboard that flight. As we had the hearing with I&A, the issue 
of a National Fusion Center came up, and they have been tasked 
by the administration to be the lead--DHS as the lead agency in 
charge of this National Fusion Center.
    Now, ideally, you would want to include the joint terrorism 
task forces, the HIDA, the DOD certainly in that Infusion 
Center. This is more horizontal intelligence sharing that I am 
referring to more than just vertical.
    So the question came up--this is a monumental challenge in 
my estimate, how they can possibly pull this off and whether 
they have the requisite authority or authorities given to them 
by Congress to go to the Joint Terrorism Task Force or to go to 
the Department of Defense and say you need to be a partner and 
you need to be sharing this kind of information. I personally 
don't think they have those authorities today. I think that is 
something that Congress needs to be taking a look at in terms 
of providing them with the requisite authorities to carry out 
that mission. With that, I would love to get your comments on 
that.
    Mr. Hamilton. I want to be clear. Who does not have the 
authority under your view?
    Mr. McCaul. Well, I don't think--DHS has been tasked with 
this monumental challenge of putting together a National Fusion 
Center, and again ideally you want the partners to be the 
intelligence community, the military, Joint Terrorism Task 
Forces. I think it may be difficult for them to go to these 
agencies and get the buy-in necessary with the current lack of 
authority.
    Mr. Hamilton. I think I would be in accord with your view. 
I think there is a huge amount of ambiguity with regard to the 
authorities in DHS and this has made it more difficult for them 
to carry out the responsibilities they have. As you were 
talking about the Fort Hood case and the Christmas bomber case, 
and the comment you also made with regard to hindsight, it 
occurred to me that it is important that we go, as you 
obviously have, through a very careful analysis of what 
happened in these events.
    The Senate committee report yesterday, which I have only 
seen a press release on, is an example of that. We have to 
examine these things so that we learn as much as we possibly 
can from one of these incidents occurring and we take steps to 
correct it. Quite frankly, one of the problems is--and this is 
part of the system, but we often go through an awful lot of 
political gamesmanship here. You are responsible, you are 
responsible, the Republicans are responsible, the Democrats did 
it, and so forth.
    I am not so naive as to think that doesn't and won't 
happen. That is part of the discussion. But I like--I think in 
terms of how we investigate an airline crash in this country, 
it is done very, very professionally, and I don't recall people 
popping up on television saying it was the Republicans' fault 
or the Democrats caused this airline to crash. We send in 
experts, they identify the cause, and then they try to correct 
it. All of that takes weeks and even months.
    Now, I may be a little naive here, but I think that is the 
way we have to respond to these incidents that occur. You are 
going to have the political charges for sure, but I really 
think you have to go into it in very great depth for the 
purpose of trying to find out how to correct it. We have kind 
of gone through that process painfully, but by and large, our 
system does that although it takes a little more time than we 
would like it to. I am not sure this is responsive at all, but 
the Fort Hood case is so frustrating, and of course, the 
Christmas bomber case too. It is hard to understand how a man 
like that could be operating as a psychiatrist and it not 
become known to his colleagues ahead of time. So we have got to 
analyze that very carefully and try to find out how to avoid 
it.
    Mr. McCaul. I agree. Thank you very much.
    Ms. Richardson. The gentleman's time has expired.
    Ms. Jackson Lee from Texas is recognized for 5 minutes.
    Ms. Jackson Lee. Thank you so much.
    Governor, chairman, let me thank you over and over again 
for the vision of the 9/11 Commission. It strikes me as an 
enormous task to have taken up the cause and the challenge 
right after or in the midst of the smoke rising at the 9/11 
site and project into the future what has been a valuable 
roadmap, and all we can say to you is thank you as we have now 
morphed into something that is enormously challenging for 
Americans. We relish our freedom. We grow up learning about our 
freedom. As those of us who have been blessed to be in this 
institution, have traveled internationally and seen the 
different forms of governance even if they happen to be a 
democracy--many people don't realize that London in Great 
Britain have community cameras that watch every step almost of 
their citizenry. I wonder what we would say about that.
    So I ask these questions in the context of our culture and 
the concept that I have written an op ed a couple of weeks ago 
after the horrific tragedy of Fort Hood. It was so intrusive, 
so unexpected because those of us from Texas know that Fort 
Hood is an enclave of family and it is secured but unsecured, 
and I said human intelligence has to be the new focus, that 
terrorism is franchised, it is the individual--we use this term 
lone operator, but it is not even that. It is who wakes up in 
morning and through whatever reasons decides to strike. So I 
want to pose these questions if I might collectively.
    One, the genius of this committee and the Chairman, I might 
say, we organize the Transportation Security and Infrastructure 
Protection Committee, and of course, there is an assistant 
secretary. I don't think we do enough protecting the 
infrastructure of America. I think Times Square is an 
infrastructure and certainly in the querying of the Times 
Square alleged bomber, they gave another list of sites.
    So my question is where are we in the infrastructure scheme 
and what should be the urgent next step? Focus, then, if you 
would more clearly on the Secure Flight to determine whether or 
not we have gotten it right--maybe you can see that. Are we 
where we need to be on surface transportation? We are all 
focused on mass transit and aviation, and lo and behold a car, 
a bus--everybody knows, those of us went to college, the 
Greyhound bus, Trailways--maybe they don't exist anymore. Then 
we have a new assistant secretary.
    Is there a hot item, TSA, that that assistant secretary 
should immediately look at? I am going to close on this. I just 
want to say that I am a convert. This is the jurisdiction of 
homeland security in America. This is a Lego set or something 
else. I was hoping somebody could see this. I know you can just 
see sort of a page, but you can see it is so thick you can't 
even see it. I think that had something to do with the 
translation of information to TSA, which gets blamed for 
everything. You are a genius to have organized that. It is the 
right organization to be in place. But the newspapers reported 
that when the call came out of the National Counterterrorism 
Center, they said to TSA look at five airlines, limiting their 
direct action.
    Who is at fault with that? Just by the grace of God, I will 
say it, we got the person but they were on an international 
flight.
    So I yield to you.
    Mr. Hamilton. Well, let me pick up first on your comment 
about infrastructure protection because I think it is a classic 
homeland security problem. The problem is we are unwilling to 
establish priorities. In every community you go into, there are 
certain facilities that everybody knows would be the target of 
the terrorist. We are engaged in this unending process of 
talking about priorities without establishing them. The fact of 
the matter is you cannot protect everything. You can protect 
some things and you can't protect others. You simply don't have 
the resources to protect everything. So you have to make 
judgments that you are going to protect this, that, and the 
other. You would like to protect it all, but you can't. Many of 
those infrastructures that you mentioned are not public. They 
are privately owned. So the private sector here has an 
important role to play as well.
    In short, I think the problem of infrastructure is a 
question of establishing priorities in a community, in a State, 
and in the Nation, and although we talk about it constantly in 
homeland security, we don't do it very well. So I think 
priorities have to be established on infrastructure.
    Mr. Kean. I think also Lee is absolutely right, as he 
usually is. You can't protect everything. But the role of the 
citizen here becomes absolutely essential because the citizen--
it was a citizen who identified that problem in Times Square 
and brought it to somebody's attention. So we have got to have 
people who are alert and also a system so that the citizen, if 
they see something wrong like they did in Times Square, is 
confident in calling over the local law enforcement person, and 
the local law enforcement person can recognize what the problem 
is and can go up the chain and have confidence to go up the 
chain so that the local law enforcement is respected by Federal 
authorities and State authorities.
    That works because my view is that much more often we 
depend totally on the good people in the FBI and so many other 
agencies. That is not going to be the first alarm on a piece of 
infrastructure. It is going to be somebody who sees something 
is wrong and somebody who has the confidence to go to somebody 
in law enforcement and point it out and that line of response 
that goes from there. So I think we have got to train citizens 
and we have got to make sure the links between local law 
enforcement and the Federal authorities are clear and there is 
respect on both sides.
    Mr. Hamilton. One of the fundamental concepts of homeland 
security is a layered defense. You have many different layers 
of defense. The first layer is the citizen that Tom has been 
talking about. Other layers are obvious. But I think we have 
fallen short as a Nation in terms of educating the American 
people on their responsibility on homeland defense. There is a 
tendency to look to Washington, to look to the DHS, to look to 
the intelligence agencies to defend us on homeland security. 
They all have important roles to play, but so does every 
American citizen and if the American citizen doesn't do the 
job, then you are--they are going to get through, the 
terrorists.
    Ms. Jackson Lee. Surface transportation too?
    Ms. Richardson. The gentlelady's time has expired.
    Ms. Jackson Lee. Thank you.
    Ms. Richardson. Mr. Pascrell is recognized for 5 minutes.
    Mr. Pascrell. Thank you. I have more respect for each of 
you than for any public official in this country, and I just 
want you both to know that because of your forthrightness and 
directness. I never have to ask: What was he talking about? So 
I commend you, Tom and Lee, for the great work that you have 
done not just a few years ago and it took us a little time to 
respond but again this is Congress. We expect more and there 
isn't a sense of urgency.
    I came here today to ask you questions about legislation 
that Peter King and I are putting in and we will probably drop 
it this week or next week, and we have been working on it for a 
long time in a bipartisan nature on weapons of mass 
destruction, which you just about touched on. I know this 
wasn't really your main objective, but now we have a WMD 
Commission and the WMD Commission has made some recommendations 
as you guys, a few moons ago, made recommendations, but it took 
us a little while to catch up.
    Their recommendations were very specific, and Peter and I 
have tried to respond to the great hazards of the biological 
attacks. The Weapons of Mass Destruction Commission very 
specifically stated that they expect a biological attack in 
this country within the next 2 or 3 years; you can't get any 
more specific than that.
    But something that you both touched upon and something that 
Congressman Lungren pursued strikes me as a little bit more 
timely right now. So if I may, Governor Kean, you described in 
New York City situations that depended upon where the location 
of the attack was; whether it was in the tunnel connecting the 
States or whether it was someplace in the city itself. The 
question is: Who is in command and who is in charge?
    The thing that was disturbing to a lot of American people 
after the December 25 incident was nobody was in charge, I am 
convinced of that.
    Something that you talked about, Lee, strikes me as making 
this even more urgent, and that is on the subject of DNI, the 
Director of National Intelligence. I think that this position, 
as it stands right now, needs to be reviewed and inspected very 
carefully. There are close to 3,000 people that work under the 
Director of National Intelligence. That same Director of 
National Intelligence, as Mr. Lungren pointed out, has very 
little authority, but his job is to talk about gathering intel, 
which is the only privy of the Homeland Security Committee.
    The Homeland Security Department only collects 
intelligence, there is no analysis whatsoever. So this brings 
about even more interesting situations. I would contend, and I 
would like to know your opinion of this, that we need to take a 
very close look at the DNI because we have created a dinosaur; 
neither of you envisioned it, neither of you asked for it, 
because you are not dinosaur people: If you can't get it done, 
get out of the way.
    Well, we chose to create an erector set of a dinosaur that 
George Tenet has frequently said of yesteryear, but very, very 
significant now, once in a while, the tail of the dinosaur 
needs to be whacked. It is almost a description of democracy, I 
guess. So we are at that point.
    Nowhere is there more obvious danger to this country than 
in the intelligence apparatus. I don't believe that the 
intelligence apparatus understands the mission--I know the 
Members of Congress don't--so maybe there is not a clearly 
defined mission, generally speaking. Then in each of the 
agencies that have to gather--and some analyze this 
information, and very few analysts, very few people in the 
field--this used to be the width and breadth of intelligence, 
having folks out into the field, gathering--who are not afraid 
to stay there 3 or 4 years. You two spelled it out very 
specifically.
    I personally believe that the DNI has to be somebody other 
than--we are not talking personalities now--that the DNI is 
something of an albatross in that one of the leading intel 
gatherers and analysts should be in the position and therefore 
be responsible when something happens.
    Let me give you my suggestion. I think that to avoid the 
confusion on gathering the information, in the analysis of the 
information, that I would like to see the head of the CIA in 
that position. I would like to see the Director of the CIA. 
Remember of past year the DNI was no longer there. The Director 
of the CIA has his feet on the ground, has access to all the 
other agencies. That agency has been given a very specific 
responsibility. I would rather see the Director of CIA report 
to the President of the United States because his feet are on 
the ground, whomever that person would be. I know the role of 
the CIA, I know the role of the Director of the CIA; I am not 
sure what the role is of the DNI, since he has no authority.
    Ms. Richardson [presiding]. Please summarize.
    Mr. Pascrell. So I am very concerned, with urgency, that we 
take a very close look--and I would really respect not only 
your opinions about the WMD legislation, which I mentioned 
before as a commercial, but as I am asking you now about who 
should be directing the intelligence of the United States of 
America, and how do we not only gather it, but analyze it and 
put it to good use to defend the America that we know? I think 
it is a critical question right now. Too many problems have 
occurred down the line, and who pushed Jake? We never know who 
is responsible. That is what you do when you build a 
bureaucracy; you build a bureaucracy so you don't know who is 
responsible, so nobody is held accountable.
    If you may, Madam Chairwoman, may they please quickly 
respond? I mean, am I on Mars, or do we have possibilities 
here?
    Mr. Hamilton. The important thing is that the person who is 
the head of the intelligence community--that is 16 agencies--
have the authority to be in charge. Now, your suggestion that 
it be the CIA Director makes sense so long as he has the power. 
For a long time, the Director of Central Intelligence had two 
jobs: One was running the CIA, and the other was he was in 
charge of the intelligence community. The problem was that he 
had no authority to run the intelligence community because all 
of the budget was in the DOD. So one director after the other 
focused on the CIA, trying to make that a good organization, 
and simply did not pay any attention to the rest of the 
intelligence community.
    Okay. We have come along now and we have established the 
DNI. Our whole plea here is that you have authority in a person 
with budget and personnel authority to manage the intelligence 
agencies. If you want to put it in the CIA, that is okay; but 
if you do it, give them the authority to act beyond the CIA to 
the other 15 agencies of the intelligence community. So what we 
are really arguing for is unity of command, if you would, 
within the intelligence community.
    Ms. Richardson. The gentleman's time has expired.
    Mr. Pascrell. Can Mr. Kean respond?
    Ms. Richardson. Very briefly, because we are going to call 
for votes.
    Mr. Kean. Very briefly, we wonder whether the Director of 
the CIA isn't a full-time job and whether they can take on the 
whole thing as well. In addition, we knew when the legislation 
was passed that the role of the DNI was not made definitive. 
Lee and I talked about that. Lee said the only way to cure that 
is the President; the President can give the authority, even if 
it isn't in the legislation.
    So I think we come here today to say, unless you are going 
to pass legislation--which I don't think you are going to do 
too fast--the President has got to give the person in charge of 
intelligence the responsibility and the encouragement and the 
power to do the job.
    Mr. Pascrell. Thank you.
    Thank you, Madam Chairwoman.
    Ms. Richardson. The Chairwoman is going to defer to Ms. 
Holmes Norton, and then I will wrap up.
    Ms. Holmes Norton is recognized for 5 minutes.
    Ms. Norton. I thank the Chairwoman very kindly.
    I really have two questions; let's see if I can get them 
out and get answers in in the time allotted to me.
    You are both heroes of the Congress as well as the American 
people. That is a dual heroism that you both deserve. 
Substantial portions of your recommendations are already law.
    I would like your guidance, first, on an issue that I found 
too seldom discussed, and that is weighing risk with the cost 
of securing ourselves. We are all pretty much amateurs; 9/11 
people who were cops all of a sudden became security officers. 
One of the ways in which I have noted this is in what we 
protect and how much we think we are protecting.
    I will give you a good example. To get into the Capitol on 
weekends--and since I represent the Nation's Capital, I am 
sometimes here. There is one entrance open. No one stands 
there. No Capitol Police at the other entrance. Those are in 
the Senate as well as the House. That is a good thing, because 
you know there has been a risk and cost analysis, and somebody 
figured out that having a Capitol policeman at all four 
entrances on Saturday and Sunday on weekends, in light of what 
we know about risk and threat, didn't make sense.
    Let me give you another example. I sit as Chair of a 
subcommittee that has to do with building and leasing, and we 
found a real disparity between GSA, which leases for employees 
who--forgive the expression--push papers, and DOD, which leases 
for employees that push papers. DOD has a setback and 
requirements for shatterproof glass and all the rest of it that 
aren't heard of for civilian employees anywhere else.
    Now, notice I am not talking about people who deal with 
security. In fact, some people who have just moved out of BRAC 
as contractors because of BRAC ended up further down into 
Virginia. DOD has problems with these people being replaced 
with Federal employees who would now be doing the same kind of 
work, because the setback isn't there and the shatterproof 
glass.
    Now, if we are going to spend our money on shatterproof 
glass and setbacks, the first thing we are going to do is run 
out of money for real risks, I think--I am giving you my 
opinion. I want yours. But in the midst of a recession, we also 
must note that these kinds of setback requirements and 
shatterproof, et cetera, requirements, would mean that large 
parts of urban and suburban America would be off limits for 
many Federal employees.
    I wonder what you think about the notion of weighing risk 
and cost to come to some kind of balanced and expert decisions 
about how to in fact spend our money now, 10 years or so after 
9/11.
    Mr. Hamilton. Well, I am quite receptive to the idea. What 
is interesting to me is that you bring it up, because in all of 
the other hearings we have had on homeland security, I don't 
think it has ever been brought up. But I do believe that the 
whole idea of costs associated with homeland security, with 
protection, has not been adequately considered and that we have 
not weighed in very many instances the costs and the risks, the 
cost-benefit ratio as we try to do in other things. So I think 
as we move along, we will do more of that kind of analysis 
because we can't protect everything and we do have to make 
judgments.
    When I was talking a moment ago about priorities, I was 
really talking about the same thing that you are bringing up, 
Ms. Holmes, and that is, you cannot do everything you want to 
do in homeland security. We have lived through a period since 
9/11 when the security people win almost every argument--maybe 
not all of them, but almost all of them--and we have paid for 
that. The Homeland Security budget--I don't know what it is 
today, but around $40 billion I think, whatever it is--has gone 
up and up and up. So I think the whole idea of cost-benefit 
ratios, assessment of risks, has to become a much more 
important part of the discussion of homeland security.
    Ms. Norton. Thank you. I don't want to abuse my time, but 
Governor Kean.
    Mr. Kean. As unusual, I agree with Congressman Hamilton. He 
is absolutely right. Priorities, risk assessment.
    Ms. Norton. Thank you very much.
    Ms. Richardson. Mr. Kean and Mr. Hamilton, now as the 
acting Chairwoman, I will be able to ask a few questions.
    Let me first of all say to both of you gentlemen, it is a 
pleasure to meet you in person. As all the Members have said, 
we are in great gratitude for all of your work; not only with 
what you did with the 9/11 Commission report, but what you 
continue to do. Every time I see your comments in the press, 
everyone has to acknowledge the tremendous work that you have 
done, I think the selflessness in terms of the recommendations 
that continue to come forward. I just want to encourage you to 
continue to do so.
    I have two simple questions that I would like to focus on. 
One, our former Secretary of Homeland Security and our current 
Homeland Security Secretary, neither have been able to move 
forward in terms of us achieving the goal that is in the report 
of 100 percent cargo inspection. My district is the home of the 
ports of both Los Angeles and Long Beach, which is 45 percent 
of the entire Nation's cargo, and a bridge alone carries 15 
percent of the entire Nation's cargo.
    My question is, you obviously spent much time to make that 
recommendation. What would you recommend that we could do to 
get us moving on this point? It seems like the Secretaries have 
moved more into screening, which is a paper situation, versus 
inspection. I really wanted to get your thoughts on that.
    Mr. Kean. Well, it is absolutely, as you know, a matter of 
homeland security essential. I am on the other end of the 
country at a great port, and it is frustrating that after all 
this time we still haven't got what you refer to. It should 
have been done, it should be done. Every time I ask questions 
about it they say, well, we are almost there. We are not almost 
there. We haven't done it yet.
    I know we are doing a lot more of screening things before 
they get to our ports, and that is enormously helpful, but the 
goal has still got to be as you enumerate. The goal has got to 
be there, and we have to keep the pressure on to make sure that 
is done. We talk about setting priorities, that has got to be a 
priority.
    Ms. Richardson. Well, I would respectfully ask if you would 
consider in your work, continuing to look at this issue. I had 
an opportunity to go to the Port of Barcelona and I asked the 
question: Other than the containers that are pulled out, 
screened, asking for you to inspect, how many others do you 
look at? The answer was none.
    It is, I believe, going to be our biggest mistake, our 
continued failure to address the issue. So any efforts you can 
make to help us with that.
    The second question I would like to ask, and I have just a 
couple minutes left. Yesterday I had an opportunity to view the 
National exercise program. It has been dramatically scaled 
back, and this committee has some concerns with that, in that 
the scaled-back version really includes the agencies walking 
through, paper-wise, what they would do; but the whole normal 
exercise of 6,000 people really seeing a disaster and having to 
move from point A to point B has been minimized. I wanted to 
get your thoughts of whether you view this committee should 
recommend the scaled-back version or really push for the real 
exercise.
    Mr. Kean. I would just like to push for the real exercise. 
There is nothing like it. Do it. Even when I was Governor of 
New Jersey, we used to have those exercises. State police were 
in charge. I would go as the commander to the building. We 
would simulate a disaster, whether it was a terrorist kind of 
disaster--more often we were always worried about a hurricane, 
or what have you. But we would spend most of the day there 
going through a real-time exercise, so when it happened, 
everybody knew what their job was, and coordination was there 
and lives could be saved.
    It disturbs me. I didn't know they were scaling that back. 
I think it is very important that they go through a real-time 
exercise.
    Mr. Hamilton. I agree.
    Ms. Richardson. In defense of the Department, the agencies 
operated as they would, but unfortunately the site that was to 
be considered, which was Indianapolis, they did not do a real 
live exercise. So it was more agencies talking, but not the 
real people moving. But thank you for your comment.
    Mr. Chairman, did you want to add anything?
    Chairman Thompson. Yes. Thank you very much.
    Governor, as you can see, your former constituent is still 
here, Mr. Pascrell. I told you he is a great American.
    I want to thank both of you gentlemen for your very timely 
and important testimony. Part of what we are trying to do is to 
get it right. As I shared with you before the hearing started, 
it is all about keeping Americans safe. It has nothing to do 
with party, it has nothing to do with anything other than 
keeping Americans safe. To the extent that the two of you have 
helped set the roadmap for us to make that happen, it is 
incumbent upon Congress to get it right and make sure it 
happens.
    I have committed myself to a couple of issues that we will 
address. I want to ask that if at any time you think there is 
something this committee can be helpful with, please call on 
us. We are here, we want to do it. We have, I think, one of the 
most bipartisan committees on the Hill. We understand the 
critical mission that we are charged with.
    Jurisdiction is an issue we absolutely need to fix. Of 
course, jurisdiction is a sacred, holy grail in this 
institution; but nonetheless, we have to call it like we see 
it, and we are in the process of helping make that record. What 
you have said here today helps us create the legislative record 
that is necessary to move it forward, and I thank you for it.
    Apart from that, Madam Chairwoman, I yield back to you.
    Ms. Richardson. Thank you, Mr. Chairman.
    Mr. Pascrell, votes have been called and we have 9 minutes. 
We will allow 1 minute to wrap up because it is my 
understanding the witnesses have another engagement.
    Mr. Pascrell. I will be very brief, if that is possible.
    I want to get back to the WMD legislation that is coming 
aboard. In this legislation, which we consulted with the staff 
of the WMD Commission, we are looking at this from all angles--
prevention, deterrence, preparedness, detection, attribution, 
response, and, finally, to recovery.
    I wanted to ask both of you: Do you believe the threat of 
bioterrorism is as dire as anything we face in our homeland 
security strategy?
    Mr. Kean. It is a dire threat, and so are other weapons of 
mass destruction. I mean, the one that, frankly, bin Laden has 
mentioned over and over again is a nuclear operation. He would 
love to get a nuclear bomb detonated on American soil. You can 
imagine what that would do. No, all these weapons of mass 
destruction.
    I commend you for the legislation. We need to be aware of 
it, it has got to be up-front. We have got to do everything in 
our power to prevent what could be catastrophic in this 
country.
    Mr. Hamilton. I agree. The emphasis you are putting in your 
legislative proposal for weapons of mass destruction is 
terribly important because it has been much neglected, we just 
haven't thought of it in those terms. The problem is, of 
course, as you recognize, that the potential consequences of a 
WMD attack, including bioterrorism, are just horrendous. We 
lost 3,000 people on 9/11, and all of us can think of what the 
impact of that was on the country and indeed on our personal 
lives.
    Just think what would happen if you had a massive 
bioterrorism attack or a nuclear weapon going off. We 
estimated, what, 500,000 people dead if a nuclear weapon went 
off in Manhattan; not casualties, dead.
    So the consequences are just horrendous and may even 
approach a threat to the existence of our country. That is how 
serious a WMD attack could be.
    If I may add something else in there, we have to pay a lot 
more attention to cybersecurity because we are such an 
interconnected country--our water systems, our electrical grid, 
our communications systems, on and on and on are dependent upon 
computers. A skillful enemy, adversary, could cause enormous 
disruption in this country with a cybersecurity attack on the 
country. So I hope, Bill, as you proceed with that worthy 
effort, you will think about cybersecurity as well.
    Mr. Pascrell. Well, thank you both for all of your 
testimony today. We are counting on both of you. I know that 
you don't see your job as over, and we certainly don't see it. 
Please steer us away from this bureaucratic nightmare we have 
constructed into a much more sane approach. Thank you.
    Thank you, Madam Chairwoman.
    Ms. Richardson. I thank the witnesses, Mr. Kean and Mr. 
Hamilton, for your valuable testimony, but as has been said, 
even more so for your service as well.
    I thank the Members for the questions. Before concluding, I 
would remind the witnesses that the Members of the committee 
may have additional questions for you, and we will ask for you 
to respond in a timely fashion in writing to those questions.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 12:23 p.m., the committee was adjourned, and 
the hearings were concluded.]


                            A P P E N D I X

                              ----------                              

Question From Ranking Member Peter T. King of New York for Lee Hamilton 
                            and Thomas Kean
    Question 1a. One of your most important recommendations in the 9/11 
Commission report was the need for Congress to ``create a single, 
principal point of oversight and review for homeland security.'' The 9/
11 Commission noted that, at the time, there were 86 committees and 
subcommittees exercising oversight of the Department of Homeland 
Security. Now, nearly 6 years later, there are up to 108 such oversight 
panels. In your written testimony, you state that ``without taking 
serious action, we fear this unworkable system could make the country 
less safe.''
    How do you believe that this failure to consolidate jurisdiction 
has or will make our country less safe?
    Question 1b. How would you recommend building support for 
consolidating homeland security jurisdiction within Congress?
    Question 1c. How could individuals or organizations outside 
Congress help facilitate a solution to this problem?
    Question 1d. Do you believe a hearing by the Committee on Homeland 
Security to examine the detrimental impact this jurisdictional web has 
on the Department would provide useful information that could help 
achieve progress on this issue?
    Question 1e. Could you please submit what you believe would be the 
ideal jurisdiction for this committee?
    Answer. Response was not received at the time of publication.
Questions From Honorable William L. Owens of New York for Lee Hamilton 
                            and Thomas Kean
    Question 1. I recently read an article about DHS telling a dairy 
farmer living along a port of entry in Vermont border that if he 
refuses to sell his land for $39,500, the Government intends to seize 
it by eminent domain so that they can upgrade a port of entry. This 
port saw under 15,000 vehicles cross it in 2009. Do you believe DHS 
takes into consideration the small business and economic impacts of 
their border policies?
    Answer. Response was not received at the time of publication.
    Question 2. I have a land port of entry in my District that was 
denied much-needed funding in the President's fiscal year 2011 budget. 
While I understand the need for fiscal restraint during this economic 
downturn, I understand that a private group offered to provide the 
upgrades to the facility and lease it back to the Federal Government 
but their proposal was denied by the Feds because DHS believes that 
land ports are an inherently Governmental function. Do you concur with 
this opinion?
    Answer. Response was not received at the time of publication.
 Question From Honorable Gus M. Bilirakis of Florida for Lee Hamilton 
                            and Thomas Kean
    Question. Governor Kean and Congressman Hamilton, you've noted your 
concerns about the detrimental effects of Congressional committees 
fighting for jurisdiction and not working together, and as you know 
this is an issue on which we agree.
    I am also interested in your thoughts on whether we've made 
sufficient progress on interagency security efforts. For instance, I 
have long been concerned about the security of our visa issuance 
process. Congress authorized the Visa Security Program in the Homeland 
Security Act of 2002. Yet, nearly 8 years after the Act's passage, we 
have less than 20 Visa Security Units in high-risk countries.
    I don't think there is a sense of urgency in establishing these 
units, which provide enhanced security screening of those seeking 
temporary visas to enter the United States. In fact, the State 
Department has denied DHS requests to place these specially trained ICE 
agents in consular posts because they were concerned about space 
issues. Unfortunately, DHS has taken no for an answer when such 
objections are raised.
    There are too many examples of terrorists exploiting our visa 
issuance system. After all we've learned, how can this still be a 
problem nearly 9 years after September 11?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre></body></html>
